<html>
<title> - HEARING ON DOD/VA COLLABORATION AND COOPERATION ON THE EDUCATION NEEDS OF RETURNING SERVICEMEMBERS</title>
<body><pre>[Senate Hearing 110-379]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-379

                  HEARING ON DOD/VA COLLABORATION AND 
     COOPERATION ON THE EDUCATION NEEDS OF RETURNING SERVICEMEMBERS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 31, 2007

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2008
38-292 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001




                     COMMITTEE ON VETERANS' AFFAIRS

                   Daniel K. Akaka, Hawaii, Chairman
John D. Rockefeller IV, West         Larry E. Craig, Idaho, Ranking 
    Virginia                             Member
Patty Murray, Washington             Arlen Specter, Pennsylvania
Barack Obama, Illinois               Richard M. Burr, North Carolina
Bernard Sanders, (I) Vermont         Johnny Isakson, Georgia
Sherrod Brown, Ohio                  Lindsey O. Graham, South Carolina
Jim Webb, Virginia                   Kay Bailey Hutchison, Texas
Jon Tester, Montana                  John Ensign, Nevada
                    William E. Brew, Staff Director
                 Lupe Wissel, Republican Staff Director



                            C O N T E N T S

                              ----------                              

                             July 31, 2007

                                SENATORS

                                                                   Page
Akaka, Hon. Daniel K., Chairman, U.S. Senator from Hawaii........     1
Tester, Hon. John, U.S. Senator from Montana.....................     2
Webb, Hon. Jim, U.S. Senator from Virginia.......................     3
Murray, Hon. Patty, U.S. Senator from Washington.................    33

                               WITNESSES

Young, Major General Ronald, Director, Manpower and Personnel, 
  National Guard Bureau..........................................     5
    Prepared statement...........................................     6
    Response to written questions submitted by:
      Hon. Daniel K. Akaka.......................................     8
      Hon. Larry E. Craig........................................     9
Wilson, Keith, Director, Education Service, Veterans Benefits 
  Administration, Department of Veterans Affairs; accompanied by 
  Dean Gallin, Deputy Assistant General Counsel, Office of the 
  General Counsel, Department of Veterans Affairs................    10
    Prepared statement...........................................    12
    Response to written questions submitted by:
      Hon. Daniel K. Akaka.......................................    20
      Hon. Larry E. Craig........................................    21
      Hon. Jon Tester............................................    22
      Hon. Patty Murray..........................................    23
    Response to additional information requested by Hon. Patty 
      Murray during the hearing..................................    23
Bush, Tom, Principal Director, Manpower and Personnel, Department 
  of Defense; accompanied by Dr. Curt Gilroy, Director, Accession 
  Policy, Department of Defense..................................    24
    Prepared statement...........................................    25
    Response to written questions submitted by:
      Hon. Daniel K. Akaka.......................................    29
      Hon. Larry E. Craig........................................    30
      Hon. Jon Tester............................................    31
Wincup, G. Kim, Former Vice Chairman, Congressional Commission on 
  Servicemembers and Veterans Transition Assistance..............    37
    Prepared statement...........................................    38
    Response to written questions submitted by Hon. Daniel K. 
      Akaka......................................................    41
Bombard, James, Chairman, Veterans' Advisory Committee on 
  Education, Department of Veterans Affairs......................    41
    Prepared statement...........................................    43
      Attachments................................................    49
    Response to written questions submitted by Hon. Larry E. 
      Craig......................................................    51
Jones, Allison G., Assistant Vice Chancellor, California State 
  University 
  System.........................................................    52
    Prepared statement...........................................    54
Chamrin, Ronald F., Assistant Director, Economic Commission, the 
  American Legion................................................    66
    Prepared statement...........................................    68
Hilleman, Eric A., Deputy Director, National Legislative Service, 
  Veterans of Foreign Wars of the United States..................    74
    Prepared statement...........................................    75
Norton, Colonel Robert F., USA (Ret.), Deputy Director, 
  Government Relations, Military Officers Association of America.    77
    Prepared statement...........................................    79
      Addendum...................................................    84
    Response to written questions submitted by Hon. Larry E. 
      Craig......................................................    87
Campbell, Patrick, Legislative Director, Iraq and Afghanistan 
  Veterans of America............................................    89
    Prepared statement...........................................    91
    Response to written questions submitted by Hon. Daniel K. 
      Akaka......................................................    93

                                APPENDIX

Craig, Hon. Larry E., U.S. Senator from Idaho; prepared statement    97
Lautenberg, Hon. Frank R., U.S. Senator from New Jersey; prepared 

  statement......................................................    98







 
HEARING ON DOD/VA COLLABORATION AND COOPERATION ON THE EDUCATION NEEDS 
                      OF RETURNING SERVICEMEMBERS

                              ----------                              


                         TUESDAY, JULY 31, 2007

                               U.S. Senate,
                    Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:34 a.m., in 
room 562, Dirksen Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Committee, presiding.
    Present: Senators Akaka, Murray, Tester, and Webb.

     OPENING STATEMENT OF HON. DANIEL K. AKAKA, CHAIRMAN, 
                    U.S. SENATOR FROM HAWAII

    Chairman Akaka. Aloha and welcome to another one of the 
Committee's hearings on the issues of seamless transition 
between DOD and VA. This hearing will come to order.
    This morning, we focus on the education needs and issues 
facing veterans, active duty servicemembers and members of the 
Guard and Reserve.
    Before we begin, I want to say how much I appreciate the 
patience and understanding of all those involved in today's 
hearing when Senate business required us to reschedule the July 
17 hearing. I know that this was an unexpected disruption for 
all of you and even for us, and I thank each of you for your 
cooperation.
    The issues regarding veterans' educational benefits are 
especially important to me, both in my role as Chairman of this 
Committee and as Chairman of the Readiness Subcommittee of the 
Senate Armed Services Committee. As the only Member of this 
Committee who attended school under the original World War II 
GI Bill, I know firsthand the value of this important benefit.
    The issues and most of the legislation before us this 
morning were on the agenda at the Committee's benefits hearing 
in May. However, because of the complexity and the importance 
of the issues, I did not believe that forum provided the 
Committee with the opportunity to evaluate fairly all the 
legislative issues involved. Thus, at today's hearing, we will 
explore these matters in greater detail. It is my hope that 
what we are doing here today will form the framework for 
proceeding forward in this area.
    Educational assistance benefits have an important role in 
terms of a readjustment benefit for returning veterans and 
servicemembers. Properly tailored, these same benefits form a 
keystone in recruiting and retaining high-caliber young men and 
women in the Armed Forces. The balance between these twin goals 
is very complex and needs careful examination.
    I am concerned that the current structure of benefits is 
somewhat flawed. It disturbs me that soldiers who are in the 
line of fire and who place their own safety in jeopardy in 
service to our country have to pay for their educational 
benefits. Also disturbing is that Guard and Reserve members who 
complete multiple deployments in combat situations can run the 
risk of having no educational benefits available to them. These 
are two concerns which I hope we can begin to address this 
morning.
    I do not envision this being a quick or easy process. I 
believe we will need to build a foundation for cooperation, 
compromise, and consensus building, and that, I believe, will 
take time. But I believe we can start this process now, and by 
working together, we have an opportunity to develop something 
that is really meaningful to those whose needs we seek to 
serve.
    This morning, we start with representatives from the 
Department of Veterans Affairs, the Department of Defense, and 
the National Guard Bureau. We seek their input as to the 
current status of the various programs as well as their 
thoughts on possible changes and the impact of changes on the 
military's ability to maintain personnel levels.
    We will need to move through in a timely fashion, so I ask 
that our witnesses adhere to the 5 minute rule for your oral 
presentation. Your full statements, of course, will be made a 
part of the Committee's record.
    Again, I welcome you and look forward to hearing from each 
of you this morning, and I would like to call on Members of 
this Committee for their statements. I will call first on 
Senator Tester.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman. I also want to 
thank the witnesses for being here today. I apologize, I have 
to leave in 15 minutes to preside on the floor. This is a 
hearing that I am very sorry that I wasn't here to hear the 
whole thing because I want to hear you folks' testimony. I have 
had a chance to read some of it.
    I have always felt that educational benefits for our 
servicemembers is a powerful recruiting tool, so I was 
surprised when I read that DOD and VA are arguing that enhanced 
education benefits may lead to reduced retention rates. It does 
not look to me that that is where DOD's problems are, 
especially with the Guard and Reserve. Indeed, many so-called 
experts have expressed surprise that the retention rates have 
remained as high as they have been during this period of 
multiple and ever-lengthening deployments.
    I think that we need to do more to show our appreciation 
for those who have served multiple tours in the combat zone. If 
that means expanding the GI Bill or tailoring it better to fit 
the needs of National Guard and Reserve members, then I think 
it is well worth doing and it is money well spent. That is why 
I appreciate Senator Webb's bill and I am proud to be a 
cosponsor on that.
    But I do think that the Montgomery GI Bill and other 
educational benefits are needed more now than ever in order to 
meet recruitment targets. We are seeing more GED waivers and 
more waivers for criminal records. These are folks for whom it 
will be especially important to receive higher education after 
their service.
    With that, Mr. Chairman, once again, I want to thank the 
Members for being here and I appreciate your service.
    Chairman Akaka. Thank you very much, Senator Tester.
    Senator Webb?

                  STATEMENT OF HON. JIM WEBB, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Webb. Thank you, Mr. Chairman. I didn't move down 
one seat because of anything that Senator Tester was saying, 
but there is no microphone in front of this chair, so I wanted 
to move to where I could speak into a microphone.
    I would like to thank you for holding this hearing and I 
regret that it was delayed from an earlier time because, as you 
well know, you and I both serving on the Armed Services 
Committee, we do have a schedule conflict today. We have the 
confirmation hearings for the Chairman and the Vice Chairman of 
the Joint Chiefs of Staff and I am going to have to spend most 
of my time at that hearing this morning. I think it is a very 
vital hearing for the next at least two years, in terms of how 
the Department of Defense is going to be led.
    But I would like, first of all, to say that this is a 
hearing partially on the bill that I introduced my first day in 
the Senate. We spent a great deal of time putting S. 22 
together before the Senate convened. We now have, I think, 19 
cosponsors on that piece of legislation, including Senator 
Tester, and I think almost every single Member of the 
Democratic Party on this Committee.
    And I would also like to thank Senator Lautenberg, who is, 
as with the Chairman, a World War II veteran, for his written 
testimony today supporting this bill. We are all busy. He 
wasn't able to appear directly before the Committee, but 
Senator Lautenberg, like so many others, was able to take 
advantage of a GI Bill following World War II that allowed him 
to go to any school he wanted to go to. He was able to go to 
Columbia University on full payment from the GI Bill. The 
program that we have in place today would scarcely allow a 
veteran to finish the semester at a school like Columbia with 
tuition rates the way that they are.
    That really is the issue at hand on this bill. It is 
equity. It is equity for service. The World War II GI Bill 
provided that equity. The current GI Bill does not. It was a 
good GI Bill for peacetime, but we need to give something to 
the people, particularly those who have served overseas, that 
will allow them the best future that they can obtain.
    I would also point out that we have existing legislation in 
other areas, including legislation that we voted on only a week 
ago, that actually gives grants to people purely based on 
social status. I am not objecting to that. I voted for it. But 
certainly when we have a situation where people have stepped 
forward, given something to their country, we owe them these 
sorts of benefits.
    I really would like to make this work this year, Mr. 
Chairman. I really would like to find a way, even if it 
involves making some changes on this bill around the edges, so 
that--as long as those changes protect the people who have 
actually deployed overseas, gone to Iraq or Afghanistan or in 
the surrounding waters. There should be a GI Bill, and I 
believe this should be that bill.
    I would ask the witnesses to address the issue, even if I 
am not here, of the fairness of the various pieces of 
legislation that have been proposed and to do that in the 
context of what we are able to give those who served during 
World War II. I think that the other bills, the bills that are 
focusing on the National Guard and Reserves, I think that there 
is a way to fold a lot of those benefits into the bill that I 
have.
    I have asked my staff to put together a comparison chart of 
the different bills. I would invite those who are interested in 
examining the different programs to look at what we are trying 
to come up with just to show that what we want here, whether it 
is the National Guard and the Reserves or the active duty, 
equal benefits for equal service.
    I used to run the National Guard and Reserve programs. I 
used to oversee them as Assistant Secretary of Defense, and 
that was always the motto, equal service, equal benefits, same 
soldiers, same battlefield, and we are looking to do this at a 
point when you can see that the service to your country has 
really been to an extent where you have been pulled away from 
your family, had to go overseas, et cetera. We want that same 
benefit.
    I am not going to be here for most of this hearing, 
unfortunately. My staff is. We are tracking it. We have tracked 
all the testimony, and as I said, Mr. Chairman, it is my real 
hope that we can get a bill out this year that will bring 
equity to the people who have served overseas, particularly 
since 9/11. Thank you very much.
    Chairman Akaka. Thank you very much, Senator Webb, for your 
efforts since January 4 when you introduced S. 22, and since 
then, we have been making a number of efforts to try to get 
information on scoring. We still need to continue to get that.
    Now I would like to introduce our first panel. I am pleased 
to welcome our first panel, which includes representatives from 
DOD, VA, and the National Guard.
    From the National Guard Bureau, we have the Director of 
Manpower and Personnel, Major General Ronald Young.
    Keith Wilson, Director of Education Services, will be 
representing VA, accompanied by Dean Gallin of the VA Office of 
the General Counsel.
    From DOD, we are joined by the Principal Director of 
Manpower and Personnel, Mr. Tom Bush. He is accompanied by Dr. 
Curt Gilroy, Director of Accession Policy at DOD.
    I want to thank all of you for being here with us today. 
The witnesses from this panel and the other two panels can rest 
assured that each witness's full statement will appear in the 
record of the hearing.
    General Young, we will please begin with your statement.

STATEMENT OF MAJOR GENERAL RONALD YOUNG, DIRECTOR, MANPOWER AND 
                   PERSONNEL, NATIONAL GUARD 
                             BUREAU

    General Young. Chairman Akaka and distinguished Members of 
the Committee, thank you for the opportunity to speak to you 
today. I greatly appreciate your commitment to veterans and 
current members of the Armed Services and am grateful for the 
chance to testify regarding educational assistance for the 
National Guard.
    The Montgomery GI Bill Selected Reserve is instrumental in 
the National Guard's efforts to recruit, retain, and train 
highly professional members of its force. The Montgomery GI 
Bill Selected Reserve, leveraged with innovative force 
management tools, such as the Guard Recruiter Assistance 
Program, plays a major role in recruiting and retaining quality 
soldiers and airmen. The National Guard's ability to meet 
Congressionally mandated end strength owes a great deal to 
these valuable programs.
    We recognize that there is Congressional interest in 
simplifying and standardizing the GI Bill benefit. We commend 
any effort to make educational benefits easier to understand 
and to utilize. We have been challenged in the National Guard 
at providing an effective education to our members on their 
eligibility and enrollment process for the GI Bill benefits. We 
welcome any aid toward the goal of making the benefit more 
accessible to our veterans.
    However, there are some concerns over the efforts to 
standardize the GI Bill Program across the active and Reserve 
components. As you know, there are substantial differences 
between the education benefits offered to the National Guard 
and those available to the active components. For the most 
part, these differences reflect variations in the type of 
service performed and the differing lifestyles of active and 
Reserve component servicemembers.
    It is important to note that different does not necessarily 
mean unfair. Guard members have a different compensation 
scheme, a different nature of service, and different 
lifestyles, with different educational needs. It is entirely 
appropriate that the Reserve system is different from the 
active system.
    We do acknowledge, however, the powerful equity argument. 
Over the past decade, the National Guard has undergone a 
transformation from its traditional posture as a strategic 
Reserve to a full-spectrum, fully operational force. The 
National Guard of today is closely integrated with its active 
Army and Air Force counterparts. It seems appropriate that 
Guard members' benefits match their sacrifices and 
contributions.
    Of all the changes proposed to the GI Bill by the various 
pieces of legislation under consideration by this Committee, we 
have identified several themes upon which I would like to 
comment.
    First, the decision to participate in the program is 
typically made by Guard members in a high-stress, information-
poor environment, either at initial enlistment or immediately 
after return from an extended deployment. Such life-shaping 
decisions deserve to be better informed and more changeable as 
one's life goals evolve.
    Number two, current eligibility criteria consider 
consecutive periods of active duty service of Guard members, 
but does not compensate for the now very common multiple-
deployment scenarios, the cumulative service. The 14-year time 
limit to use benefits handicaps the more mature and longer-
serving Guard force.
    As you consider various changes to the GI Bill educational 
benefit, please keep in mind that the current system is not 
well understood by our Guard members. Members of the National 
Guard who have been activated since 9/11 may be eligible for 
five or more different educational benefits. Some of these 
benefits are mutually exclusive, while others must be used 
simultaneously. Some may be available after separation, while 
others expire at separation. And still others run out years 
before the servicemember separates from the National Guard. 
Even the types of education funded by each of these benefits 
can vary.
    Choosing the benefit or benefits most helpful to a given 
Guard member and his or her family depends not only on their 
record of service, but also on their future plans of the 
individual servicemember and family. In order for a benefit to 
achieve its full potential to help, it is vital that our 
members be well educated on the benefits available to them. 
Time does not exist in the already packed training schedule of 
a traditional Guardsman to absorb this complex information.
    One important change to the program for the National Guard 
would be an educational outreach effort that provides 
knowledgeable experts at the local armories of the Guard, and 
time in a Guardsman's life to absorb the intricacies of the 
program.
    The National Guard's primary objective is to ensure that 
the Department of Defense has the flexibility to continue to 
use educational benefits as effective recruiting and retention 
tools, and that those benefits are useful and commensurate with 
a Guard member's contributions and sacrifice.
    Thank you again for your attention to this important 
matter, and for the opportunity to appear before this 
Committee. I look forward to your questions.
    [The prepared statement of General Young follows:]
      Prepared Statement of Major General Ronald Young, Director, 
             Manpower and Personnel, National Guard Bureau
    Chairman Akaka, Senator Craig and distinguished Members of the 
Committee, thank you for the opportunity to speak to you today. I 
greatly appreciate your commitment to veterans and current members of 
the Armed Services and am grateful for the chance to testify regarding 
educational assistance for the National Guard.
    The Montgomery GI Bill-Selected Reserve (MGIB-SR) is instrumental 
in the National Guard's effort to recruit, train and retain highly 
professional members in its force structure. The MGIB-SR, leveraged 
with innovative force management tools such as the Guard Recruiter 
Assistance Program (G-RAP), plays a major role in recruiting and 
retaining quality soldiers and airmen. These programs have improved the 
National Guard's ability to recruit and retain highly qualified 
soldiers from all walks of the American landscape and furthered the 
Department's effort to develop professional soldiers through formal 
education. The National Guard's ability to meet its congressionally 
mandated end strength owes a great deal to these valuable programs.
    Over the past decade, the National Guard has undergone a 
transformation from its traditional posture as a strategic Reserve to a 
fully operational force. The National Guard of today is closely 
integrated with its active Army and Air Force counterparts. Whether 
under the slogan ``One Army'' or ``Total Force,'' the National Guard 
effectively fulfills its contingency requirements on the global stage 
while maintaining its vital duties here at home. It is important that 
Guardsmen's benefits be commensurate with their sacrifice and their 
contribution.
    Currently, there are substantial differences between the education 
benefits offered to the National Guard and those available to the 
Active Components. For the most part, these differences reflect 
variations in the types of services performed and the lifestyles of 
active and Reserve servicemembers. Today, as the National Guard 
transitions to a fully operational element of the Armed Services, 
demands are being placed on Guardsmen more than ever before. This 
transition has changed the nature of service in the National Guard, but 
it will not eliminate differences between active and Reserve forces. As 
civilian soldiers, our military service coincides with ongoing civilian 
responsibilities, and we often have different educational needs.
    In the following testimony, I will first summarize three key 
differences between Active and Reserve education benefits. I will then 
describe a few changes made to these benefits to make them more 
appropriate for Reservists who serve active duty in response to a war 
or national emergency.
                      active and reserve benefits
    The main difference between active and Reserve educational benefits 
is a matter of timing philosophy. Education benefits for active duty 
servicemembers is an entitlement earned through service and a modest 
financial contribution. It is used as a recruitment tool. Education 
benefit for National Guardsmen is a retention incentive. Because 
National Guard service is not traditionally full-time, and because 
Guardsmen have historically spent the vast majority of their service 
stateside, it has been possible for us to use our education benefits 
while serving. Active Duty servicemembers, by contrast, collect their 
benefit after separation. Thus, the Education assistance benefit is not 
just a recruitment tool for the National Guard; it serves double duty 
as a retention tool. Education benefits encourage Guardsmen to join, 
and continued service is rewarded with ongoing benefits. This retention 
incentive has been very successful for the National Guard, but we have 
begun to hear complaints from the field that the current operations 
tempo of deployments is less compatible with pursuing an education.
    A second difference is that National Guardsmen do not buy in to 
their education benefits. Active duty members can choose to contribute 
12 monthly deductions of $100 each from their paychecks. Such a 
contribution is not required from Guardsmen.
    The third major difference between active and Reserve education 
benefits is the amount of assistance the servicemembers receive. In the 
late 1990s, reservists received approximately 48 percent of the active 
duty rate. Since then, the active duty benefit has increased at a 
faster rate than reservists' benefits. Today, a full time reservist 
student receiving the basic benefit gets up to $309 per month, just 29 
percent of the $1,075 received by active component counterparts.
               changes to reservists' education benefits
    In light of the difficulty some Guardsmen now have balancing 
demanding deployment schedules with pursuing an education, two changes 
to education benefits were recently made. National Guard soldiers and 
airmen who serve on active duty qualify for an extension to use 
benefits and a new benefit.
    Basic educational benefits have been extended for such 
servicemembers by the amount of time they served on active duty plus 4 
months. If they decide to separate before their educational benefits 
have been used up, they may receive those benefits for that amount of 
time beyond their separation.
    Second, a new benefit, the Reserve Educational Assistance Program 
(REAP) was created. Guardsmen who have been activated for 90 days or 
more receive increased benefits through REAP based on the length of 
their activation. Unlike regular benefits, the REAP benefit is directly 
tied to the Active Duty rate. Soldiers and Airmen who are activated for 
90 days may receive 40 percent of benefit that active duty members are 
entitled to. Those who serve a year or more receive 60 percent of the 
active rate, and a National Guardsman who is activated for two or more 
years of consecutive active duty service may receive 80 percent of the 
$1,075 that his active duty counterpart would receive. It should be 
noted that this law counts only consecutive time in active service, and 
does not take the now common multiple deployments into account.
    The National Guard's primary objective is to ensure that the 
Department of Defense has the flexibility to continue to use 
educational benefits as effective recruiting and retention tools, and 
that those benefits are useful and commensurate with Guardsmen's 
contribution and sacrifice.
    Thank you again for your attention to this important matter and for 
the opportunity to appear before this Committee. I look forward to your 
questions.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Akaka to 
Major General Ronald Young, Director, Manpower and Personnel, National 
                              Guard Bureau
    Question 1. How many servicemembers are entering active duty from 
the National Guard by leaving educational institution and how many are 
leaving employment?
    Response. We do not know how many servicemembers are being 
mobilized on active duty from an educational institution versus from 
employers because this information is not captured. We do know that 
some of our servicemembers would actually fit both categories since 
some Guard members attend school while also working.

    Question 2. Are your Guardsmen seeing any problems having schools 
save their spots if they are enrolled when they are called to active 
duty?
    Response. Neither the Army National Guard or Air National Guard 
Education Offices were aware of any significant problems which 
Guardsmen encounter with schools. They were only aware of a few minor 
isolated incidents which were easily resolved once the education office 
engaged with the schools.

    Question 3. Can you speak to the value of the chapters 1606 and 
1607 program benefits from the perspective of recruitment and 
retention? In your response, please distinguish between the two 
programs.
    Response. Chapter 1606--This program provides educational 
assistance to Reserve component members. Along with featuring a 6-year 
service commitment, Chapter 1606 also has an in-service only usability 
component that makes Chapter 1606 an extremely valuable recruiting and 
retention tool. The exception to the in-service or continued service 
requirement is that the eligibility period for the use of Chapter 1606 
benefits may be extended by the length of a period of activation plus 
four months. This extension may continue even after an individual has 
separated from the Selected Reserve.
    Chapter 1607--This program is a very valuable recruiting and 
retention tool. It offers non contributory educational benefits to 
Reserve Component members who remain in the Reserve Component after 
serving on contingency operations for more than ninety days after 
September 11, 2001. The benefits are proportioned to Chapter 30 rates.

    Question 4. For the individual who contributed $600 for the buy-up 
program and then, following the completion of two extended deployments 
in combat, decides to separate prior to using ANY benefits, would the 
$600 contribution be forfeited?
    Response. No, the $600 buy-up would not be forfeited since the 
MGIB-AD benefit (along with the buy-up benefit) can be used after the 
member separates.

    Question 5. It seems to me that you have many tools available to 
recruit and retain members to both active duty and the Guard and 
Reserve--including such things as enlistment and re-enlistment bonuses, 
tuition assistance, in-service education, loan forgiveness and more.
    Please rank the title 38 and title 10 programs in terms of first 
recruitment and then retention, when measured against these other 
tools.
    Response.
Recruitment
    1. Title 37, Affiliation, Prior Service, Enlistment Bonuses
    2. Federal or State Tuition Assistance Program
    3. Title 38 Montgomery GI Bill
    4. Title 10 Montgomery GI Bill Kicker
    5. Title 10 Student Loan Repayment Program and Health Professionals 
Loan repayment program
    6. Title 10, Sec 2107 and 2107a Dedicated ROTC Scholarships
Retention
    1. Title 37, Re-enlistment, MOS Conversion Bonuses
    2. Title 10, Montgomery GI Bill Programs and Kicker
    3. Federal or State Tuition Assistance Program
    4. Title 10, Student Loan Repayment Program and Health 
Professionals Loan repayment program
    5. Title 10, Secs. 2107 and 2107a Dedicated ROTC Scholarships

    Question 6. You mentioned the TAP briefing as a way to better 
educate transitioning servicemembers of their available benefits and 
they need to utilize it in a more effective manner. Can you explain how 
you think it can be better utilized and how you think it can be better 
shaped to ensure the transitioning servicemember knows what they are 
entitled to upon leaving the service?
    Response. One way that the National Guard is looking to assist in 
better utilization of the Transition Assistance Program (TAP), which we 
feel will in turn accomplish the task of ensuring that our 
Servicemembers receive all the necessary information regarding benefits 
that they are entitled to upon leaving the service, is in 
implementation of a proposed nationwide home station reintegration 
program. The ``Beyond the Yellow Ribbon'' Program is proposed 
legislation (Sec. 516 of H.R. 1585, the House National Defense 
Authorization Act), with matching floor amendments from the Senate (S. 
Amendment 2266), which would authorize reintegration at home station in 
order to provide a continuum of support services after Guard members 
have been released from active duty. A core element of this program is 
to provide continuous, proactive post-deployment support to all 
Servicemembers and their families which includes, but is not limited 
to: benefits briefings and information about all support agencies 
including TRICARE, Veterans Affairs, and the Department of Labor.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Larry E. Craig to Major 
General Ronald Young, Director, Manpower and Personnel, National Guard 
                                 Bureau
    Question 1. Earlier this year, a joint working group from the 
Department of Veterans Affairs (VA) and the Department of Defense (DOD) 
concluded that the ``buy-up'' option--increasing monthly education 
benefits by contributing up to $600--``has proven to be a very popular 
feature and one desired by Guard and Reserve members.'' The working 
group suggested that the buy-up option be made available to Selected 
Reserve members.
    A. Would the National Guard Bureau support allowing Selected 
Reserve members to participate in the buy-up program?
    B. What impact would availability of the buy-up option have on 
recruitment and retention?
    Response. A. Yes, the National Guard supports the $600 buy-up for 
the Chapter 1607 program. By contributing $600, a Reserve component 
member could receive an additional $150 per month in benefit payments. 
This $150 increase in monthly benefits also helps Reserve Component 
members offset the rising cost of college tuition which has increased 
as high as 16 percent in some states.
    B. Studies show that the number one reason for most Guardsmen 
entering the Guard is to secure the educational benefits offered. Due 
to the rising cost of tuition, the buy-up program would positively 
support recruiting and retention and make the overall educational 
benefit more valuable to the Guard member.

    Question 2. In your testimony, you stressed that current 
eligibility criteria for the Reserve Educational Assistance Program 
``counts only consecutive time in active duty, and does not take the 
now common multiple deployments into account.'' Would it improve this 
education program if the eligibility criteria for maximum benefits were 
based on aggregate, rather than continuous, active duty service?
    Response. Yes, we would support an education program which counted 
aggregate rather than continuous active duty service. Due to the 
increased operations tempo and multiple deployments, an education 
program based on aggregate active duty service would more fairly 
recognize the sacrifices and contributions of our Guard members.

    Question 3. Under the Montgomery GI Bill for the Selected Reserves 
and the Reserve Educational Assistance Program, Guard and Reserve 
members generally must remain with their Guard or Reserve units in 
order to use their education benefits. At the hearing, one of the 
witnesses compared this policy to ``indentured servitude.'' To ensure 
the accuracy of the hearing record, would you please clarify the 
existing policy and the purposes for it?
    Response. The intent of the GI Bill Programs as provided for in 
Title 10, Chapter 1606 and Chapter 1607 is to aid in the retention of 
highly qualified members of the Reserve Components. These benefits/
entitlements are offered to Guardsmen to pursue an education while 
serving in an active drilling status in the Guard. Offering the benefit 
after separation would significantly reduce this benefit as a retention 
tool for the Guard.

    Question 4. Last year, you testified before the House Committee on 
Veterans' Affairs that allowing Guard and Reserves to use their 
education benefits for up to 10 years after separating from the Guard 
or Reserves ``destroys [the] current incentive and would thus be 
detrimental to retention.'' Would you please clarify your current 
position on that issue?
    Response. The National Guard position remains the same. The intent 
of the GI Bill Programs as provided for in Title 10, Chapter 1606 and 
Chapter 1607 is to aid in the recruitment and retention of highly 
qualified members into the Reserve Components. If Guard members were 
allowed to use these educational benefits without maintaining their 
participation with the National Guard, our retention efforts would be 
negatively impacted.

    Chairman Akaka. Thank you very much, General Young.
    Now we will hear from Mr. Wilson of Department of Veterans 
Affairs.

    STATEMENT OF KEITH WILSON, DIRECTOR, EDUCATION SERVICE, 
   VETERANS BENEFITS ADMINISTRATION, DEPARTMENT OF VETERANS 
 AFFAIRS; ACCOMPANIED BY DEAN GALLIN, DEPUTY ASSISTANT GENERAL 
COUNSEL, OFFICE OF THE GENERAL COUNSEL, DEPARTMENT OF VETERANS 
                            AFFAIRS

    Mr. Wilson. Thank you. Mr. Chairman, distinguished Members 
of the Committee, I am pleased to be here today to discuss a 
number of bills that would affect educational assistance 
programs administered by the Department of Veterans Affairs and 
Department of Defense. Accompanying me today is Mr. Dean 
Gallin, Deputy Assistant General Counsel.
    Mr. Chairman, your invitation letter of June 18, 2007, 
asked that we address all facets of VA-DOD cooperation and 
coordination as it relates to the provision of educational 
assistance to veterans, servicemembers, and members of the 
Guard and Reserve. I will begin by addressing those issues.
    Via a bidirectional data feed, DOD provides VA with the 
eligibility determinations for Title 10 programs and required 
information for the determination of Chapter 30 MGIB 
eligibility. In most cases, VA is able to make an eligibility 
determination without the need for a DD-214 or any other hard 
copy documentation from the veteran. In cooperation with DOD, 
the bidirectional data feed is being enhanced to allow for the 
provision of more detailed ``kicker'' information to VA. This 
expanded information will allow VA to process more claims 
without human intervention, thereby improving both accuracy and 
timeliness of claims processing.
    Through a long-established network of points of contact, VA 
and DOD respond to many inquiries that address servicemember 
and veteran claim processing needs. DOD points of contact 
routinely interact directly with VA claims examiners to 
expedite claims processing and better serve the claimant.
    VA regularly attends conferences providing information to 
servicemembers and DOD civilians. For example, we routinely 
attend several State National Guard training conferences, 
DANTES regional workshops, meetings and conventions of the 
Enlisted Association of the National Guard, National Guard 
Association of the United States, Veterans of Foreign Wars, and 
the American Legion, as well as many college fairs sponsored by 
various DOD 
activities.
    Mr. Chairman, turning now to the legislative proposals 
before the Committee, I would note that on May 9, 2007, Admiral 
Daniel Cooper, Under Secretary for Benefits, presented VA's 
views on 
S. 698. Similarly, Admiral Cooper presented VA's views on a 
draft bill, which is a modified version of S. 22, as introduced 
by Senator Webb. I am pleased to provide more detailed views to 
the Committee today. In addition to the bills on the schedule, 
I am also prepared today to present VA's views on S. 1293, 
which we were unable to discuss at the May 9 hearing. Finally, 
Mr. Chairman, I regret that I am unable today to provide VA's 
views on S. 1261. However, we will submit written views to the 
Committee shortly.
    Mr. Chairman, S. 22 as proposed to be revised would add a 
new Chapter 33 to Title 38, U.S. Code, that would, in general, 
require an individual to serve at least two years of active 
duty with at least some period of active duty time served 
beginning on or after September 11, 2001. It would, for most 
individuals, link the number of months of educational 
assistance to the individual's months of service that were 
incurred after September 11, 2001.
    We have serious concerns about provisions of S. 22 and, 
therefore, must oppose it. The complexity of the proposed 
eligibility requirements, the anticipated high benefit cost 
with no apparent offset, and the anticipated excessive 
administrative burdens associated with the bill are all 
problematic.
    It also appears that, if enacted, the bill might have an 
unintended consequence. For example, the stipend of $1,000 per 
month would be payable to individuals attending college and 
non-degree programs and also to those who are completing 
internship and on-the-job training programs. This seems 
inequitable, as it would treat an individual in an 
apprenticeship program who is earning wages the same as a 
college student who is incurring costs.
    It is also unclear what effect this benefit would have on 
recruiting and retention. We defer to DOD on that point.
    S. 1293 would expand the high-cost programs of education 
for which accelerated payment of educational assistance may be 
paid under the MGIB active duty and would authorize similar 
accelerated payment for educational assistance under Chapters 
1606, 1607, and 35.
    We conceptually support S. 1293's expansion of accelerated 
payment availability. We believe expansion based on the length 
and cost of the training is appropriate. However, limiting the 
funding level of accelerated payment for the MGIB and DEA 
programs each fiscal year would undermine the effectiveness of 
the expansion. VA estimates that the cost limitations placed on 
each program will fall far short of the amount required to 
provide accelerated payment to all persons otherwise eligible.
    S. 1409 would establish a new Chapter 33 under Title 38, a 
new program of educational assistance for veterans who serve in 
the Armed Forces after September 11, 2001. Mr. Chairman, for 
the purposes of today's hearing, I will comment solely on the 
portion of S. 1409 that addresses educational assistance to 
veterans. We will be pleased to provide our written views to 
the Committee on the remaining portions of the bill in the very 
near future.
    VA opposes S. 1409. We believe that the bill's provisions 
relating to deployment are vague and overly broad. The bill 
fails to refer to a specific contingency operation, but instead 
relies on a term, ``deployed overseas,'' that is both vague and 
open to multiple interpretations. Basing eligibility on active 
duty locations will create significant administrative burdens 
that could negatively impact our ability to timely and 
accurately deliver benefits.
    Mr. Chairman, VA is proud of what we have been able to 
accomplish in concert with DOD, this Committee, and Congress to 
administer these important education programs. We also 
appreciate the continued support of this Committee and stand 
ready to work with you to make these programs even better.
    Mr. Chairman, this concludes my statement. I will be 
pleased to respond to any questions you or other Members of the 
Committee may have.
    [The prepared statement of Mr. Wilson follows:]
   Prepared Statement of Keith Wilson, Director, Education Service, 
    Veterans Benefits Administration, Department of Veterans Affairs
    Mr. Chairman and distinguished Members of the Committee, I am 
pleased to be here today to discuss a number of bills that would affect 
educational assistance programs administered by the Departments of 
Veterans Affairs (VA) and Defense (DOD). Accompanying me today is Mr. 
Dean Gallin, Deputy Assistant General Counsel, Office of the General 
Counsel.
        update of va/dod cooperation and coordination activities
    Mr. Chairman, your invitation letter of June 18, 2007, asked that 
we address all facets of VA/DOD cooperation and coordination as they 
relate to the provision of educational assistance to veterans, 
servicemembers, and members of the Guard and Reserve. I am pleased to 
provide an update of our activities with DOD to supplement my earlier 
discussion of these matters in testimony before the Committee on March 
14 of this year. I will then take the opportunity to comment on the 
specific legislation being considered today.
                        electronic data sharing
    Via a bidirectional data feed, DOD provides VA with the eligibility 
determinations for title 10 programs (chapters 1606 and 1607) and 
required information for the determination of chapter 30 MGIB 
eligibility. In most cases, VA is able to make an eligibility 
determination without a DD214, Report of Separation, or any other hard-
copy documentation from the veteran. DOD also provides information to 
VA that facilitates direct mailing of education material to 
servicemembers at key times in their military career, thereby ensuring 
servicemembers are aware of their educational benefits. VA and DOD 
electronic data sharing also routinely includes demographic and 
statistical data such as payment information and usage of benefits. 
This data sharing assists in evaluating successes in administering 
education programs and areas for improvement.
                      electronic data enhancements
    In cooperation with DOD, the bidirectional data feed is being 
enhanced to allow for the provision of more detailed ``kicker'' 
information to VA. This expanded information will allow VA to process 
more claims without human intervention, thereby improving both 
timeliness and accuracy of claims processing. Implementation of this 
enhanced feature is expected during Fiscal Year 2007. Additionally, the 
data exchange will soon be expanded to allow for mailing of educational 
material to activated guard and Reserve members.
                       total force working group
    VA and DOD formed a ``total force'' working group to evaluate 
methods of improving educational benefits to program participants by 
consolidating three educational programs--chapters 1606 and 1607 of 
title 10 and chapter 30 of title 38--into one educational program. The 
working group provided its analysis to the Chairman of the Veterans' 
Advisory Committee on Education in April 2007.
                     points of contact (va and dod)
    Through a long established network of Points of Contact, VA and DOD 
respond to many inquiries that address servicemembers' and veterans' 
claims processing needs. These may include verification of the 
eligibility status of a claimant or additional information that VA 
needs to process a claim for benefits. DOD points of contact routinely 
interact directly with VA claims examiners to expedite claim processing 
and better serve the claimant.
                  transition assistance program (tap)
    In partnership with the Department of Labor (DOL), DOD, and the 
Department of Homeland Security (DHS), a half-day VA benefits briefing 
is given to servicemembers and their family as part of a 2\1/2\-day 
Transition Assistance Program (TAP) Workshop. During the VA benefits 
briefing, education benefit information and eligibility requirements 
are presented and education brochures, handouts, and points-of-contact 
information are provided. In addition to the formal TAP workshops, one- 
to two-hour VA benefits briefings are given at demobilization sites and 
included in separation and retirement programs. Information on 
education benefits is included in all presentations for separating/
retiring servicemembers, including Reserve and Guard members. The total 
number of briefings conducted during Fiscal Year 2006 was 8,541 and 
5,030 have been conducted in Fiscal Year 2007 as of the end of May.
    In cooperation with DOD, VA produced and distributed outreach DVDs 
covering benefits for individuals participating in the Montgomery GI 
Bill-Active Duty, Montgomery GI Bill-Selected Reserve, and the Reserve 
Educational Assistance program. Over 250,000 copies of each of these 
DVDs were provided to Reserve Units, Guard Units, and Transition 
Assistance Centers.
    VA regularly attends conferences providing information to 
Servicemembers and DOD Civilians. For example, we routinely attend 
several State National Guard Training Conferences, the Defense Activity 
for Non-Traditional Education Support (DANTES) Regional Workshops, 
meetings and conventions of the Enlisted Association of the National 
Guard, National Guard Association of the United States, Veterans of 
Foreign Wars, and The American Legion as well as many college fairs 
sponsored by various DOD facilities.
    VA also works closely with DANTES to provide military Education 
Services Officers (ESO) with the training and information they require 
to provide benefit information and counseling to our military.
    Mr. Chairman, I will now address the legislative proposals before 
the Committee. I would note that, on May 9, 2007, Admiral Daniel 
Cooper, Under Secretary for Benefits, stated that VA does not support 
S. 698, a bill to expand and enhance educational assistance under VA's 
Survivors' and Dependents' Educational Assistance program. Therefore, 
my testimony today does not address that measure. Similarly, Admiral 
Cooper presented VA's views on a draft bill, which is a modified 
version of S. 22 as introduced by Senator Webb. I am pleased to provide 
more detailed views on S. 22 to the Committee today. In addition to the 
bills on the schedule, I also am prepared today to present VA's views 
on S. 1293, which we had been unable to discuss at the May 9 hearing. 
Finally, Mr. Chairman, I regret we are unable today to provide VA's 
views on S. 1261; however, we will submit written views to the 
Committee shortly.
S. 22 (As proposed to be revised)
    Mr. Chairman, S. 22 (as proposed to be revised), entitled the 
``Post-9/11 Veterans Educational Assistance Act of 2007,'' would add a 
new chapter 33 to title 38, United States Code, that would, in general, 
require an individual to serve at least 2 years of active duty, with a 
least some period of active duty time served beginning on or after 
September 11, 2001, to be eligible for educational assistance under the 
new program. It would, for most individuals, link the number of months 
of educational assistance to the individual's months of service that 
occurred after September 11, 2001, but, in general, not provide for 
more than 36 months of benefits, with the educational assistance to 
cover the established charges of the program of education (subject to 
certain limitations), room and board (subject to certain limitations), 
and a monthly stipend of $1,000.
    Under S. 22, chapter 33 would provide for educational assistance 
for less-than-half-time education, apprenticeships, on-the-job 
training, correspondence courses, and flight training. Chapter 33 also 
would provide payment for tutorial assistance, not to exceed $100 per 
month for a maximum of 12 months, and one licensing or certification 
test, not to exceed the lesser of $2,000 or the test fee. Generally, 
individuals would have 15 years to use their educational entitlement 
beginning on the date of their last discharge or release from active 
duty. VA would administer this program with payments of assistance made 
from funds made available to VA for the payment of readjustment 
benefits. In general, individuals eligible for benefits under chapter 
30 of title 38, United States Code, or chapters 107, 1606, or 1607 of 
title 10, United States Code, could irrevocably elect, instead, to 
receive educational assistance under chapter 33.
    We have serious concerns about certain provisions of S. 22 (as 
proposed to be revised) and, therefore, must oppose it. The complexity 
of the proposed eligibility requirements, the anticipated high benefit 
cost (with no apparent offsets), and the anticipated excessive 
administrative burden associated with this bill are all problematic. As 
currently written, eligibility criteria for the proposed chapter 33 are 
far more complex than the current Montgomery GI Bill. Entitlement 
determinations factoring in length of service and previous benefit 
usage would also be highly complex and difficult for individuals to 
understand.
    The increased amount of benefits payable at varying levels for 
different institutions would make administration of this program 
cumbersome. The requirement that the benefit be paid at the beginning 
of the term would further complicate administration and would tax 
existing VA resources.
    New section 3313(j)(2) of title 38, United States Code, as proposed 
under S. 22, would require VA to annually determine which public 
schools in each state have the highest in-state tuition rate and set 
the maximum established charges for each state accordingly. This labor-
intensive process would need to be completed annually in sufficient 
time to prepare for issuance of payments in advance of the term. 
Further, as written, this bill would be effective on the date of 
enactment. It would be necessary to prescribe regulations, make systems 
changes, and make other key adjustments to support the components of 
this bill. It is also likely that other sections within title 38, 
United States Code, may need to be amended to address potential 
overpayments of the monthly stipend. For the above reasons, it would 
not be feasible for VA to begin making payments under the proposed 
chapter 33 benefit immediately.
    It also appears that, if enacted, the bill might have some 
unintended consequences. For example, the stipend of $1,000 per month 
would be payable to individuals attending degree and non-degree 
programs and also to those who are completing internships and on-the-
job training programs. This seems inequitable, as it would treat an 
individual in an apprenticeship program who is earning wages the same 
as a college student who is incurring expenses. It is also unclear what 
effect this benefit would have on recruiting and retention. While we 
defer to the Department of Defense on this point, we acknowledge that 
this may lead to lower reenlistments.
    VA estimates that, if enacted, S. 22 would result in benefit costs 
of $5.4 billion during Fiscal Year 2008, $32.2 billion for Fiscal Years 
2008 through 2012, and $74.7 billion over the 10-year period from 
Fiscal Year 2008 through 2017.
    Significant administrative costs would also be incurred. As 
previously noted, proposed new section 3313(j)(2) would require VA, 
through a labor-intensive process, to annually determine which public 
schools in each state have the highest in-state tuition rate and set 
the established charges for each state accordingly. Further, since VA's 
obligation is to ensure that veterans and servicemembers receive the 
most advantageous benefit, VA would be obligated to reevaluate all 
pending claims and award the greater chapter 33 benefits, as 
appropriate. The initial year of the program would require VA to double 
our current Education FTE in an attempt to meet the workload increase. 
Extensive system changes would be needed to make lump sum payments to 
all beneficiaries before the start of the term. VA also would need to 
develop technological system changes to account for the payment rate 
variations from state to state. This would be problematic because VA is 
in the midst of changing from one payment system (Benefits Delivery 
Network) to another (Veterans Services Network).
    We are concerned that these new and very complex administrative 
burdens would significantly impact the current level of service and 
responsiveness we give to current education program beneficiaries. 
Based on these factors, we would anticipate substantial administrative 
costs, but cannot fully estimate them without further research.
S. 644
    S. 644 would recodify the provisions of chapters 1606 (the 
Montgomery GI Bill-Selected Reserve (MGIB-SR) program) and 1607 (the 
Reserve Educational Assistance Program (REAP) of title 10, United 
States Code, relating to educational assistance for members of the 
Reserve components of the Armed Forces in subchapters I and II, 
respectively, of a new chapter 33 of title 38, United States Code. The 
bill also would make substantial revisions to such provisions as so 
recodified. VA does not support S. 644 as drafted for the reasons 
discussed below.
    New section 3302, as proposed by this bill, embodies the provisions 
of 10 U.S.C. Sec. 16132. This provision would set a program 
commencement date of October 1, 2008, and would maintain eligibility 
based on a 6-year commitment in the Selected Reserve.
    New section 3302A, as proposed, has no corresponding section in 
title 10, but would provide that each individual eligible for the MGIB-
SR on October 1, 2008, would be eligible for the new chapter 33 
program, allowing these individuals the ability to carry over the 
number of months of entitlement remaining as of September 30, 2008. The 
current 14-year delimiting date for such individuals to use their 
educational assistance benefits would no longer apply.
    New section 3303, as proposed, would correspond to current section 
16131(b) of title 10. This section sets monthly rates for the 
subchapter I program at the MGIB-SR rates in effect for Fiscal Year 
(FY) 2007 ($309). This would result in a rate decrease, however, since 
the MGIB-SR rates otherwise would increase to more than $309 for Fiscal 
Year 2008. We could not support this since we do not believe 
recodification should result in a lesser benefit. This section would 
maintain the CPI adjustment for subsequent fiscal years and future rate 
increases would be tied to increases in chapter 30 MGIB rates, by 
applying the same percentage increases in the rates.
    The bill also would provide that VA and DOD jointly establish the 
amounts of kickers for particular categories of individuals. We believe 
such determinations relating to military force needs should remain 
exclusively with DOD.
    Subchapter II of Chapter 33 as established by S. 644 would recodify 
provisions covering the REAP. New section 3323 would provide for the 
program under subchapter II to begin on October 1, 2008, with the same 
threshold 90-day active duty requirement for a participant's 
eligibility as for the REAP. Instead of DOD, VA would notify 
individuals of their eligibility under the program.
    Section 3323A, as proposed, would provide that each individual 
eligible for the REAP on October 1, 2008, would be eligible for the new 
subchapter II program. These individuals would carry over the number of 
months of their entitlement remaining on September 20, 2008. Under 
specific circumstances, if an individual completes a service contract, 
the individual's delimiting date for using his or her remaining 
benefits would be 10 years from the date the individual separates from 
the Ready Reserve.
    Section 3324 would make the monthly rate payable under subchapter 
II equal to the 3-year MGIB-Active Duty (MGIB-AD) rate. Individuals who 
qualify for subchapter II through serving the minimum period of active 
duty that qualified them for REAP (i.e., 90 days) may receive up to 36 
months of benefits. This would be adjusted annually by the increase in 
the CPI. This is a significant departure from current law and one that 
we do not support. Currently, a servicemember gets 40 percent of the 
MGIB-AD rate if called to active duty for at least 90 days but less 
than a year; 60 percent of the MGIB-AD rate if called to active duty 
for at least a year but less than 2 years; and 80 percent of the MGIB-
AD rate if called to active duty for at least 2 years.
    Another change to the REAP involving pursuit of flight training 
provides for a substantial increase in such benefit. Individuals 
pursuing flight training full time under the subchapter II program 
would be given 60 percent of the established charges for tuition and 
fees. Individuals pursuing flight training currently under the REAP 
receive 24, 36, or 48 percent of those fees depending upon length of 
active duty service.
    Under subchapter II, on the job training (OJT), apprenticeship, and 
correspondence program pursuit would be treated in a similar manner to 
such pursuit under the MGIB-AD. Currently, REAP participants pursuing 
such training receive a smaller percentage of the full-time rate than 
do their MGIB-AD counterparts, so this also would be a rate increase 
for subchapter II program participants.
    Section 3325 proposes that a Reserve member who becomes eligible 
for subchapter II benefits after September 30, 2008, generally may not 
use those benefits after leaving the Reserves if the member leaves 
before completing his/her contract. Otherwise, if the service contract 
is fulfilled, the veteran may use benefits for 10 years after 
separation from the ready Reserves. The 10-year limit also applies if 
the veteran is separated early for disability, as is the case under 
current law. This change will allow everyone who fulfills the service 
contract to use the benefit after leaving the Reserves. This a 
substantial change from current law that would impact Reserve retention 
policy. Consequently, we defer to DOD on this provision.
    Section 3326 proposes that the educational assistance would end if 
the individual receives benefits under 10 U.S.C. Sec. 2107 or leaves 
the Reserves without fulfilling the service contract. An exception 
would be allowed for individuals who left but subsequently reentered 
the Reserves, provided the break did not exceed more than 90 days. 
Again, we would defer to DOD on this provision since it could affect 
retention policy.
    Section 3342 provides that funding for those establishing 
eligibility after September 30, 2008, comes from VA's readjustment 
benefits account. Funding effective October 1, 2008, for those who 
transfer into the program from REAP or MGIB-SR will come from DOD. 
Currently, all funding comes from DOD. The Administration has worked 
with Congressional Budget and Appropriation Committees to ensure that 
the true cost of manpower is reflected in the budget of all agencies so 
that both cost and policy are not separated. Reserve education benefits 
are mainly recruiting and retention tools and for this reason they were 
funded on an actuarial basis in the DOD budget at the inception of the 
MGIB. The Administration does not support dismantling this funding 
mechanism as it would be contrary to transparent and responsible 
budgeting.
    VA estimates that, if enacted, S. 644 would result in an increase 
to VA's Readjustment Benefit appropriation request of $844.3 million in 
the first year, and $8.4 billion over 9 years. This increase reflects 
the change in appropriation structure requiring VA to increase its 
appropriation to cover the obligations associated with these payments. 
VA estimates the net impact of S. 644 to the Federal Government would 
be an increase of $416.1 million in the first year and nearly $4.9 
billion over 9 years. VA's GOE costs are estimated to be $7.3 million 
over 10 years. In addition to the policy objections stated above, we do 
not support this legislation because the direct costs involved are not 
included in the Budget and the legislation does not identify a 
corresponding offset.
    In order to ensure effective implementation of the proposed bill, 
VA would have to significantly enhance or replace existing accounting 
systems. We estimate approximately 18 months would be needed to 
complete this process and we have no current estimation on the costs 
involved.
S. 723
    S. 723, entitled the ``Montgomery GI Bill Enhancement Act of 
2007,'' would exempt members of the Armed Forces and Selected Reserve 
on active duty between November 16, 2001, and the termination date of 
Executive Order 13235 from the mandatory basic pay reduction ($100 for 
the first 12 months of active duty pay) currently required for 
participation in the MGIB-AD program. The bill also provides for 
reimbursement of payroll deductions made prior to the enactment of this 
Act. Finally, the bill would allow such members to withdraw any 
previous election not to participate in the MGIB-AD program.
    VA believes that eliminating the servicemembers small cost for this 
important benefit is something that should be looked at from many 
perspectives. Eliminating a certain group of servicemember's 
requirement to make their contributions because of the time period that 
they served opens up inequities and equal payment issues under the law. 
For example, we have put many of our servicemembers in harms way that 
would fall outside of this time period who would not be eligible for 
the benefit. For that reason we cannot support this bill. In addition, 
we estimate that enactment of S. 723 would result in a mandatory 
benefit cost to VA of $8.4 million during the first year; $185.8 
million over 5 years; and $647.2 million over 10 years.
S. 1293
    S. 1293 would expand the high-cost programs of education for which 
accelerated payment of educational assistance may be made under the 
MGIB-AD program and would authorize similar accelerated payment of 
educational assistance under the MGIB-SR program, REAP, and the 
Survivors' and Dependents' Educational Assistance (DEA) program. The 
bill also would provide certain enhancements for REAP.
    Currently, accelerated payment of benefits is authorized only under 
the MGIB-AD program and only for pursuit of approved high-cost 
education programs that lead to employment in a high technology 
occupation in a high technology industry. Specifically, this measure 
would permit accelerated payment of the basic educational assistance 
allowance to individuals pursuing an approved high-cost program of 
education (in addition to the programs now authorized such payment) 
lasting 2 years or less that would not lead to an associate, 
bachelor's, master's, or other degree. A program would continue to be 
considered ``high-cost'' if the monthly cost of the approved tuition 
and fees exceeds 200 percent of the monthly educational assistance 
benefit otherwise payable to the individual pursuing the program. The 
benefit paid for the additional approved programs qualifying for 
accelerated pay would be limited so as not to exceed $3 million each 
fiscal year for the MGIB-AD program, $2 million for the MGIB-SR 
program, $1 million for REAP, and $1 million for the DEA program. This 
provision would be effective for 4 years, from October 1, 2008, through 
September 30, 2012.
    S. 1293 also would amend REAP to provide that a member of a Reserve 
component who served on active duty an aggregate of 3 years or more 
would receive an educational assistance allowance that is 80 percent of 
the MGIB-AD rate applicable to individuals whose entitlement is based 
on 3 years of obligated service. Under current law, 2 continuous years 
or more are required to receive the 80 percent rate. Finally, S. 1293 
would authorize a program, similar to the MGIB-AD program currently in 
effect, that would allow eligible individuals to ``buy up'' their REAP 
benefit by making after-tax contributions of up to $600 to augment the 
monthly amount of basic educational assistance they receive over the 
months of their entitlement.
    VA supports the concept of expanding the availability of 
accelerated payment as provided by S. 1293. We believe such expansion 
based on the length and cost of the training is appropriate. However, 
we cannot support the bill as drafted.
    Limiting the funding level of accelerated payment for the MGIB and 
DEA programs each fiscal year further would undermine the effectiveness 
of the expansion. VA estimates that the cost limitations placed on each 
program will fall far short of the amount required to provide 
accelerated payments to all persons otherwise made eligible. 
Consequently, many eligible persons would be denied the benefit once 
the cost ceiling has been reached.
    VA defers to DOD's views with regard to the provisions of the bill 
that pertain to REAP since REAP is a title 10 program within the 
jurisdiction of that Department.
    If enacted, S. 1293 would result in estimated cost to VA of $4 
million in Fiscal Year 2009 and $16 million over the period of Fiscal 
Years 2009-2012.
S. 1409
    S. 1409, entitled the ``21st Century GI Bill of Rights,'' would 
establish in a new chapter 33 of title 38, United States Code, a new 
program of educational assistance for veterans who serve in the Armed 
Forces after September 11, 2001, and also would provide enhancements in 
housing and entrepreneur assistance for such veterans. Mr. Chairman, 
for the purpose of today's hearing we will comment solely on that 
portion of S. 1409 that addresses educational assistance to veterans. 
We will be pleased to provide our written views to the Committee on the 
remaining portions of the bill in the very near future.
    S. 1409 would establish an entitlement under the proposed new 
educational benefit program for individuals who: (1) were deployed 
overseas on active duty in the Armed Forces after September 11, 2001; 
(2) served on active duty in the Armed Forces for an aggregate of at 
least 2 years after September 11, 1001; or (3) were discharged before 
aggregating 2 years of active duty service for a service-connected 
disability, a pre-existing medical condition, hardship or a physical or 
mental condition not resulting from their own willful misconduct but 
did interfere with their performance of duty. Individuals who have 
received a commission as an officer upon graduation from a service 
academy are not eligible for this benefit based on their initial 
service obligation.
    VA opposes S. 1409. We believe that the bill's provisions relating 
to deployment are vague and overly broad. The bill fails to refer to a 
specific contingency operation but instead relies on a term (deployed 
overseas) that is both vague and open to multiple interpretations. 
Allowing all individuals who have been deployed overseas since 
September 11, 2001, to qualify for the benefit would open up 
eligibility and a full 36 months of entitlement to anyone who has ever 
been deployed overseas regardless of location and length of service. 
This would make a very substantial number of individuals eligible to 
receive this benefit. Also, by only allowing individuals deployed 
overseas to qualify, the bill would disqualify many deployed in support 
of the Global War on Terror within the United States who aggregate less 
than 2 years of active duty. Additionally, basing eligibility on Active 
Duty location will create significant administrative burdens that could 
negatively impact our ability to timely and accurately deliver 
benefits.
    We cannot support this provision in the absence of more specific 
language regarding contingency operations and/or location of 
deployment.
    As proposed in S. 1409, individuals eligible under this program may 
receive up to 36 months of educational assistance. Eligible individuals 
would be able to enroll in an approved program of education under 
current chapter 30 provisions, with the exception of programs to obtain 
a graduate degree. Chapter 33 recipients could receive educational 
assistance consisting of the established charges for the program 
(including tuition, fees, required supplies, books and equipment) and 
an amount equal to room and board. The payments for established charges 
could not exceed the national average amount of tuition regularly 
charged for full-time pursuit of a 4-year program of education at a 
public or private college or university. The amount of the room and 
board payment could not exceed the standard dormitory fee, as 
established by VA through regulations.
    VA does not support this proposal because of the provision that 
would exclude graduate training and the provision that would require VA 
to maintain established charges for programs and room-and-board costs. 
Many individuals enter the service today with at least some amount of 
post-secondary education. Disallowing graduate training would unfairly 
limit the eligible person's choices and the ability to use the maximum 
entitlement they have earned, as well as create an inequity among those 
eligible to receive the benefit. There is no compelling reason to favor 
one type of degree over another.
    In addition, the bill provides no guidance on how to determine a 
``standard'' dormitory fee. For example, it is unclear whether the 
standard should be a national standard or a standard specific to each 
state. The development of regulations and procedures for making an 
annual determination of standard fees would be an overwhelming 
administrative burden to VA. In general, VA opposes the establishment 
of a benefit that is based on the cost of programs and room and board.
    The bill would provide for VA to determine the timing and frequency 
of payments to chapter 33 recipients. Educational assistance payments 
could be made in the form of a lump-sum amount for the entire term at 
its commencement, but they may not be made before the individual's date 
of enrollment.
    The provision to pay for terms of enrollment in a lump sum after 
the commencement of the enrollment period has significant consequences. 
Currently, payments are generally made only after attendance begins. 
Payment of benefits following ``enrollment'' would result in 
significant payments amounts being provided prior to actual attendance. 
These payment amounts could be based solely on how long prior to actual 
attendance an institution allows students to enroll. The use of the 
terms ``enrollment'' and ``attendance'' must be carefully applied.
    Additionally, a heavy potential overpayment burden could be placed 
on veterans who terminate their enrollment prior to completing the term 
for which they have been paid. Presently, claimants must verify their 
attendance and are then paid on a monthly basis. This basically limits 
their liability for repayment of benefits due to course withdrawals to 
a single month. Payment of an entire term up-front would cause a 
repayment liability on the part of the claimant for potentially many 
thousands of dollars.
    New section 3313(e), as proposed, would establish the manner in 
which payments would be made to individuals who are pursuing a program 
of education while serving on active duty. Individuals on active duty 
would receive the lesser of the established charges or the amount of 
the institution's charges. VA would be required to issue the chapter 33 
benefit amount to such individuals in a lump-sum payment before the 
start of the term. These individual's entitlement would be charged at a 
rate of 1 month for each month for which they are paid.
    Individuals pursuing training on a less than half-time basis would 
receive payments in a lump-sum no later than the last day of the month 
following the month in which their enrollment certification was 
received. Their entitlement would be charged at a percentage of a month 
equal to the number of hours undertaken divided by the number of hours 
for full-time study (actual hours/full-time hours).
    Individuals eligible for chapter 33 could also receive tutorial 
assistance as outlined in 38 U.S.C. Sec. 3492 without accruing any 
charge to their entitlement. Section 3492 allows individuals with an 
academic or other deficiency who are currently enrolled in a program of 
study, on a greater than half-time basis to receive an additional 
payment for tutorial assistance. These individuals may receive up to 
$100 per month for a maximum of twelve months ($1,200) to secure 
tutorial assistance from a person who is qualified and not related to 
the veteran or servicemember.
    Under the proposed chapter 33 program, individuals could also 
receive payments for licensing and certification tests, as defined in 
38 U.S.C. Sec. 3452(b), without incurring any charge to their 
entitlement.
    New section 3313(g), as proposed would offer specialized training 
and certification programs for veterans with service-connected 
disabilities. It is unclear if this portion of the bill would authorize 
an additional benefit under the new chapter 33 or an additional benefit 
under VA's chapter 31 Vocational Rehabilitation and Employment program 
for veterans with service-connected disabilities.
    S. 1409 would also provide for the payment of licensing and 
certification tests without incurrence of any entitlement charges. This 
would make the 10-year delimiting date the only factor in determining 
at what point a claimant could no longer receive such payment.
    New section 3321, as proposed, would establish a 10-year delimiting 
period in which an individual may use his or her benefits. This period 
would begin on the date of the individual's last discharge or release 
from active duty. If an individual's entitlement would expire during 
the course of a term or a program of study, it would be extended until 
the end of the term/course or for 12 weeks, whichever is shorter.
    New section 3322, as proposed, would specify that individuals 
receiving educational assistance benefits under chapter 33 may not 
receive assistance under chapter 30, 31, 32, or 35 of title 38 U.S.C. 
or chapter 107, 1606 or 1607 of title 10 U.S.C. simultaneously. In 
addition, Sec. 3322(b) would provide that periods of service counted 
under an educational loan repayment may not be counted as a period of 
service to establish eligibility for the chapter 33 program.
    Individuals could elect to receive educational assistance benefits 
under chapter 33, if, at the date of this bill's enactment, they have 
remaining unused entitlement under chapter 30 of title 38, under 
chapters 1606, 1607, or 107 of title 10 and otherwise meet the 
requirements or are making progress toward meeting the requirements for 
entitlement under the proposed chapter 33. Individuals may also receive 
chapter 33 benefits if they opted out of the chapter 30 program through 
an election under Sec.  3011(c)(1) or Sec.  3012(d)(1) of title 38, but 
are otherwise eligible under the chapter 33 eligibility requirements.
    New section 3324(c)(3)(B), as proposed, would permit individuals 
enrolled in chapter 30 to elect chapter 33 for the number of months of 
entitlement they have remaining. However, there is no provision 
regarding the manner in which individuals enrolled in the chapter 1606 
or chapter 1607 program would elect benefits under chapter 33 or how 
their remaining entitlement should be applied to chapter 33 usage.
    The bill would provide that, if an individual who is eligible under 
chapter 33 has previously elected to transfer his or her educational 
benefits to a dependent(s) under the provisions outlined in 38 U.S.C. 
Sec. 3020, he or she may elect to revoke some or all of the remaining 
entitlement so transferred. If an individual were to revoke his or her 
transfer of entitlement, the educational assistance would no longer be 
available to the dependent. In such case, the entitlement would instead 
be available to the servicemember or veteran for chapter 33 purposes. 
Any previously transferred entitlement that is not revoked would remain 
available to the eligible dependent in accordance with current transfer 
of entitlement provisions under 38 U.S.C. Sec. 3020.
    The bill would provide that, if an individual elects to participate 
in the chapter 33 program, he or she may receive the number of unused 
months of entitlement he or she had under chapter 30. An election to 
receive benefits under chapter 33 would be irrevocable. In the case of 
an individual who has made an election, the bill would provide that, 
effective as of the first month following the election, the obligation 
of the individual to make contributions under the MGIB-AD or the MGIB-
SR program shall cease.
    We believe enactment of this bill would impose a tremendous 
administrative burden on VA, largely because it would make over 2 
million veterans and servicemembers immediately eligible to receive the 
chapter 33 benefits upon the date of its enactment. Further, the entire 
combined population of current chapter 30, chapter 1606, and chapter 
1607 participants would be eligible for the new (more advantageous) 
chapter 33 benefits and could request an immediate re-adjudication of 
their present claims. For reasons previously mentioned, which involve 
requirements for development of regulations or procedures, as well as 
extensive system changes that could include total development of new 
computer payment systems, VA would not be capable of effective 
administration of this benefit for an unacceptably long period of time 
following enactment. The combined effect would be to severely impact 
claims processing and cause a huge spike of indefinite duration in 
current waiting times for receiving education benefits.
    We estimate enactment of S. 1409 would result in benefit costs to 
VA of $3.9 billion during the first year, $25.1 billion for 5 years, 
and $64 billion over 10 years. We currently are unable to estimate the 
resulting additional administrative costs associated with this bill.
S. 1719
    S. 1719 would amend title 38, United States Code, to provide for 
the payment of an amount equal to $2,000 per academic year, or fraction 
thereof for a partial year, to an individual entitled to educational 
assistance under the MGIB-AD who is pursuing a program of education 
with a focus on science, technology, engineering, or math. The payment 
would be made in addition to any other amount payable to an individual 
under the MGIB-AD, and would be paid to the participant at the start of 
his or her term. The bill would require VA to prescribe through 
regulations which programs of study would qualify for this enhanced 
benefit.
    VA does not support enactment of this measure for a number of 
reasons. In terms of equity among veterans receiving MGIB-AD education 
benefits, VA has not seen evidence that veterans who choose to pursue 
programs focusing on science, engineering, technology, and mathematics 
must have a greater benefit than other veterans using their education 
benefits. This bill represents a departure from the existing MGIB-AD 
structure, which provides equivalent benefit opportunities to veterans 
who establish an entitlement.
    In addition, we have substantial administrative concerns with the 
bill. We believe that our implementation of the requirements in S. 1719 
as of the date of enactment would be inhibited by the requirement for 
VA to determine and set forth in regulations the programs whose pursuit 
would be covered by this enhanced benefit. Prescribing changes through 
regulations requires publication in the Federal Register and a period 
for public comment; any lengthy delays in this process would hinder our 
ability to make payments beginning on the date of enactment. In 
addition, our current computer systems are designed to make recurring 
monthly payments; issuing regular annual stipends would require 
computer system changes.
    For these reasons and in the absence of a clearly supportable 
rationale, we cannot support altering the existing chapter 30 benefit 
structure by singling out for special treatment one group of entitled 
veterans from others who established the same basic program 
entitlement. In addition, we have not noted any savings to offset the 
estimated costs of this bill.
    Benefit costs associated with the enactment of S. 1719 are 
estimated to be $91.7 million in the first year, $464.8 million over 5 
years and $943.4 million over 10 years.
    Mr. Chairman, as I explained in the first part of my testimony, VA 
is proud of what we have been able to accomplish in concert with DOD to 
administer these important educational programs. We also appreciate the 
support of this Committee and the Congress in this mission, and stand 
ready to work with you to make these programs even better.
    Mr. Chairman, this concludes my statement. I would be pleased to 
respond to any questions you or other Members of the Committee may 
have.
  Response to Written Questions Submitted by Hon. Daniel K. Akaka to 
              Keith Wilson, Department of Veterans Affairs
    Question 1. Regarding the re-codification of education benefits to 
title 38, you claimed in the hearing that VA could not support the 
kickers that DOD provides, but today VA provides for kickers, how then 
can the kickers not be upheld by VA?
    Response. Currently, based on force-management requirements, the 
Department of Defense (DOD) determines who will be offered a kicker 
incentive and the amount of the kicker. VA processes and administers 
the kicker payments but the funding for those kickers comes from DOD. 
Several of the bills contained language that would transfer to VA the 
authority for making decisions about who received kickers and the 
magnitude of those kickers, or would have VA make those determinations 
in conjunction with DOD. Such determinations are force-management 
issues and are outside the scope of VA's mission and responsibility.

    Question 2. During the hearing you mentioned that the complexity of 
the education benefits is one issue that you hear about continuously. 
How do you foresee breaking down this complexity making it easier for 
the servicemember to understand their benefits?
    Response. Several issues contribute to the complexity of the 
programs VA administers. The programs have different payment rules, 
different benefit rates, and vary in the length of time an individual 
retains eligibility or can extend his/her eligibility. If the 
individual is eligible for more than one program based on different 
periods of service, the complexity is in understanding the different 
rules for each program and selecting the most beneficial. Many 
individuals, especially those serving since September 11, 2001, are 
eligible under more than one program based on the same period of 
service and must decide under which program to credit their military 
service.
    VA is always looking for new and innovative ways to reach out to 
our veterans to explain the education benefits available to them. We 
are engaged in multiple outreach activities to improve comprehension of 
current education benefits among servicemembers, veterans and 
dependents. Media, including brochures, booklets and mini-DVDs, are 
distributed to military bases, schools and numerous other organizations 
serving the veteran and military communities. The GI Bill Web site 
provides users with fact sheets about each benefit, a database of 150 
frequently asked questions pertaining to education benefits, and a 
feature allowing users to submit online inquiries to VA representatives 
at their local regional processing offices. Additionally, VA 
representatives present education benefit information to thousands of 
stakeholders nationwide via participation in conferences and 
professional events throughout the year.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Larry E. Craig to 
              Keith Wilson, Department of Veterans Affairs
    Question 1. In written testimony, the Department of Defense (DOD) 
testified that there are ``no significant shortcomings'' in the 
Montgomery GI Bill program. What is your assessment of how well the 
current education programs are working?
    Response. The enrollment rate in the Montgomery GI Bill-active duty 
(MGIB-AD) is at its highest level in history, with approximately 98 
percent of enlistees choosing to participate in the program.
    VA paid approximately $2.4 billion in benefits to approximately 
554,000 trainees in fiscal year (FY) 2007. These benefits covered MGIB-
AD, Montgomery GI Bill-selected reserve (MGIB-SR), veterans educational 
assistance program (VEAP), dependents' educational assistance (DEA), 
and most recently, reserve educational assistance program (REAP). We 
continue to see a rise in enrollment for the REAP benefit. There were 
approximately 35,200 trainees in FY 2007 compared to approximately 
23,700 trainees in FY 2006.
    In recent years, statutory enhancements to the MGIB-AD have added 
flexibility to the program to better meet the needs of servicemembers 
and veterans today. These enhancements include reimbursement for cost 
of licensing or certification tests and provisions for accelerated 
payments.

    Question 2. One of the bills on the agenda would move the Guard and 
Reserve education programs to title 38 of the United States Code and 
give the Department of Veterans Affairs (VA) partial control over the 
distribution of ``kickers.'' DOD has testified that ``[p]lacing a 
military force management program under VA is inconsistent with the 
Agencies' purpose and responsibilities.'' Do you agree with that 
assessment?
    Response. Yes, VA agrees with DOD in this assessment. The guard and 
reserve education programs were established to encourage recruitment 
and retention in the all-volunteer force, and therefore best 
administered by DOD.

    Question 3. Earlier this year, a joint VA and DOD working group 
noted that complexities and differences among the many education 
programs make understanding them difficult for beneficiaries and 
creates challenges in the administration of the programs. If Congress 
were to add another education program to the mix--as some of the bills 
on the agenda would do--what impact would that have?
    Response. Generally speaking, some of the programs being 
contemplated have complex eligibility criteria based on service dates 
or types of service (guard, reserve, and/or active duty). Many of the 
individuals who would become eligible under the proposed programs are 
entitled to benefits under existing programs. Some of these individuals 
are entitled to additional money (``kickers'') from DOD, or additional 
benefits based on their own voluntary contributions. Kickers and 
additional benefits would not be transferable to the new programs. 
Individuals would have to assess which program would provide the best 
benefit before making an irrevocable election.
    From an administrative perspective, any new program requires the 
development of new regulations and procedures, as well as a new payment 
system. Additional eligibility criteria would result in administrative 
challenges for those processing claims by further complicating the 
determination of which program offers the greater benefit to the 
participant. Initially, such changes would negatively impact VA's 
ability to deliver timely benefit payments.

    Question 4. Regarding S. 22, you testified that the ``new and very 
complex administrative burdens would significantly impact the current 
level of service and responsiveness we give to current education 
program beneficiaries.'' Would you please give us an idea of what level 
of service you currently provide and what level of service would be 
expected if that bill were enacted?
    Response. Our present level of service is primarily measured in 
average processing time. In FY 2007, we averaged 32.4 days to process 
original claims and 13.2 days for supplemental claims. This represents 
an improvement of approximately 7 days from our FY 2006 processing 
times of 40.1 and 19.8 days, respectively.
    S. 22 would be effective the date of enactment. As a result, VA's 
timely delivery of benefits would be hampered, in part because its 
existing benefit delivery system would require major reprogramming to 
pay benefits. Additionally, VA would have to develop and publish final 
regulations before administering the new program.
    We are not able to estimate how much our service level would 
decline, however it is unlikely VA would be able to deliver benefits as 
quickly as we do today. S. 22 would require VA to gather far more 
information from veterans and schools than is currently required before 
making payments. VA would need to track actual student expenses and 
tuition charges in each state, and monitor for changes. Generally, 
today's benefits are based on pursuit of enrollment versus actual 
charges. Once eligibility is determined and enrollment is verified, VA 
can make payment immediately. The additional evidence requirements of 
S. 22 would significantly delay eligibility and entitlement 
determinations, consequently delaying payments.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Jon Tester to 
              Keith Wilson, Department of Veterans Affairs
    Question 1. One of the things that we have seen is a number of 
young men and women who are spending 12, 15 or even 24 months 
recovering from very severe nonbrain injuries such as limb loss. A 
while ago, I met with a young man who was nearing the end of a 14-month 
recovery at Walter Reed. He hoped to go back to Montana and go to 
school to become a veterinarian. During his rehab, he expressed some 
frustration with not being able to do much outside of his rehab--he 
said there was way too much downtime. Are there any services that would 
allow for soldiers and Marines who are at Walter Reed or other 
hospitals to begin their college careers through distance learning or 
even partnerships with nearby schools? Is this a good idea? How would 
you encourage the Defense Department to undertake such an effort?
    Response. VA is not aware of any specific partnerships that have 
been coordinated between DOD hospitals and nearby educational 
institutions. However, if servicemembers are otherwise eligible for 
MGIB benefits, they can enroll in distance-learning (online) degree 
programs and use their MGIB benefits while in recovery.
    The vocational rehabilitation and employment (VR&E) program 
provides outreach and vocational rehabilitation services to 
servicemembers at military treatment facilities (MTF), VA medical 
centers, and at disabled transition assistance program briefings. 
Vocational and educational counseling, provided through chapter 36, 
allows early intervention services to begin prior to establishment of a 
service-connected disability compensation rating. Through collaboration 
with DOD, a full range of services, including access to computer based 
training programs, is available at MTFs to the most seriously injured 
servicemembers in military hold status. The services that VR&E provides 
include vocational assessment, rehabilitation planning, training, and 
job placement assistance.
    The Coming Home to Work initiative is part of our early outreach 
efforts as well. Through this initiative, civilian work experience is 
made available to VR&E eligible servicemembers pending medical 
separation from active duty at major MTFs, with a special emphasis on 
Operation Enduring Freedom and Operation Iraqi Freedom servicemembers.
    All these programs focus on early intervention to help wounded 
servicemembers become engaged in the rehabilitation process as soon 
after their injury as possible. The result is a speedier adjustment to 
their disability issues and an easier transition to the civilian 
workforce.

    Question 2. It seems to me that you get a kid just back from Iraq 
or Afghanistan and put him on a college campus, he's going to have many 
of the same issues of reintegrating into civilian life that Guardsmen 
who go back to their ``regular'' job can have--from feeling like no one 
around them understands their issues, to having to fight a bureaucracy. 
These are all things that I fear can cause them to leave school, giving 
up an important set of benefits. What are schools doing in terms of 
ensuring that veterans on campus fully understand their benefits and, 
almost more importantly, feel comfortable on campus? Are there 
particular programs that have shown success in helping young vets re-
integrate into a college environment? Does more need to be done in that 
regard?
    Response. VA recognizes that there are issues associated with 
veterans and servicemembers who return from active duty to an 
environment that might be unprepared to meet their needs. VA conducts 
monthly training for new school certifying officials (SCO) to ensure 
that they are aware of their role and responsibilities to both the 
veteran and VA. SCOs generally assist veterans by helping them apply 
for benefits and certifying their enrollment for payment of benefits. 
Many of these school officials belong to national organizations that 
hold annual conferences. Staff members of both VA's education service 
and the regional processing offices (RPO) make regular presentations at 
these conferences to ensure SCOs are up to date on the programs VA 
administers. RPO staff members also conduct school meetings for SCOs 
and provide individual training and assistance. We find many SCOs are 
passionate about assisting veteran-students with their school-related 
issues.
    We have limited information regarding the additional support that 
specific educational institutions are providing veteran-students to 
help them make the transition back to school. However, we understand 
some institutions that serve a high veteran or active duty population 
do provide special services either through their SCO office or student-
services office.
                                 ______
                                 
        Response to Questions Submitted by Hon. Patty Murray to 
              Keith Wilson, Department of Veterans Affairs
    Question 1. Does the Department of Veterans Affairs (VA) look at 
what a servicemember has done in the military and counsel him/her on 
the appropriate career path related to the skills he/she has gained 
while in the military?
    Response. Any veteran or servicemember who applies for education 
benefits can elect to receive professional counseling from VA's 
Vocational Rehabilitation and Employment (VR&E) program at any VA 
Regional Office. Information regarding the availability of VA 
counseling services is displayed on the application for education 
benefits along with our toll-free number. Information concerning 
available counseling is also discussed in our promotional material. 
When an individual elects to receive counseling, he/she is contacted by 
a VR&E counselor to develop the appropriate education plan as it 
relates to the veteran's or servicemember's military experience and 
educational goals. Counseling is available for every veteran or 
servicemember, regardless of whether he or she has a service-connected 
disability.

    Question 2. Would you make any recommendations to us in ways to 
help make this work better?
    Response. (VA did not provide any recommendations.)
                                 ______
                                 
     Response to Additional Information Requested by the Committee 
            to Keith Wilson, Department of Veterans Affairs
      the department of veterans affairs' written views on s. 1261
    S. 1261 would eliminate time limitations for eligible individuals 
to use their educational assistance benefits under the Montgomery GI 
Bill (MGIB) program. Currently such time limitations generally are 10 
years from an individual's last discharge or release from active duty 
for the MGIB-Active Duty program (chapter 30 of title 38, United States 
Code) and the earlier of 14 years from the date an individual becomes 
entitled to educational assistance or the date the individual is 
separated from the Selected Reserve for the MGIB-Selected Reserve 
program (chapter 1606 of title 10, United States Code). The bill would 
eliminate the time limitation for using education benefits under the 
Reserve Educational Assistance Program (REAP or chapter 1607 of title 
10) for certain eligible individuals who have separated from the Ready 
Reserve because of disability. Under current law, such individuals have 
10 years from the date on which they become entitled to such assistance 
to use it. Finally, S. 1261 would remove the time limitation on the use 
of entitlement transferred to certain dependents under the MGIB-Active 
Duty program. Under this provision, eligible spouses could use the 
benefits transferred to them with no time limitation, although eligible 
children would remain limited in using their transferred entitlement 
only until they reach the age of 26.
    VA cannot support the bill's proposal to eliminate the current 
delimiting-date provisions for using MGIB-Active Duty program benefits 
because no cost offsets have been identified to cover the potentially 
significant cost of the resulting benefit expansion. We defer to DOD in 
regard to sections 3 and 4 of the bill, which, respectively, would 
affect the provision of benefits under the MGIB-Selected Reserve 
program and REAP. Furthermore, enabling the use of this benefit such a 
long time after discharge does not align with the codified purpose of 
these benefits as a readjustment benefit to help separating 
servicemembers readjust to civilian life.
    VA is unable to estimate the increased cost resulting from 
enactment of the provisions of S. 1261 pertaining to the Montgomery GI 
Bill-Active Duty program because we neither can predict the portion of 
the population that would elect to use the benefit beyond 10 years 
following discharge nor forecast when, or the extent to which, such use 
might occur.

    Chairman Akaka. Thank you very much, Mr. Wilson.
    Now, we will hear from Mr. Bush with your statement.

          STATEMENT OF TOM BUSH, PRINCIPAL DIRECTOR, 
 MANPOWER AND PERSONNEL, DEPARTMENT OF DEFENSE; ACCOMPANIED BY 
               CURT GILROY, DIRECTOR, ACCESSION 
                 POLICY, DEPARTMENT OF DEFENSE

    Mr. Bush. Thank you, Mr. Chairman. Chairman Akaka, thank 
you for the opportunity to appear before you today to discuss 
the educational assistance programs for National Guard and 
Reserve members and changes to those programs that are being 
considered by this Committee.
    This past year, there has been considerable interest in 
changing the two Reserve educational assistance programs, 
primarily to allow the member to use the benefit after 
separating from the service. The reason typically cited for 
this change is that Reserve component members are now being 
called upon to perform operational missions rather than to just 
train. Therefore, it is only fair that they be allowed to use 
their educational assistance benefits after they leave service, 
just like active duty members.
    But, unlike active duty members who are transitioning to 
civilian employment, most Reserve component members already 
hold a civilian job. In fact, 81 percent of Reserve component 
members reported being employed full-time when they were 
activated. Twenty-one percent reported that they were going to 
school, either full-time or part-time, when activated. 
Obviously, the numbers tell us that there are people who are 
doing both.
    While some of the bills currently being considered do not 
change the Reserve service requirement, others would, and there 
have been many public statements that next year, Reserve 
Educational Assistance Programs will be modified to add a 
portability feature. Adding portability to the Reserve 
Educational Assistance Program significantly changes them in a 
way that is not helpful to sustaining the all-volunteer force.
    Unlike individuals who are obligated to serve on active 
duty, many Reserve component members are under no obligation to 
serve in the Selected Reserve. Unless an individual commits to 
Selected Reserve service because he or she receives a bonus, 
receives student loan repayments, or signs up for the 
Montgomery GI Bill for the Selected Reserve, a Guard or Reserve 
member makes a choice to continue to participate each time he 
or she reports for a drill weekend.
    This is why we are so interested in retaining the retention 
aspects of the two Reserve Educational Assistance Programs. If 
we still had a conscripted force, then retention would not be 
as much of a concern for us. But we have an all-volunteer force 
and we need incentives that encourage Guard and Reserve members 
to continue to serve rather than providing incentives that 
encourage them to leave the force.
    There are some bills and some provisions in bills the 
Committee is considering that would be helpful. Removing the 
14-year delimiting period for the Montgomery GI Bill for the 
Selected Reserve, as General Young mentioned, would promote 
continued service in the Selected Reserve, allowing a member 
with three cumulative years of service to qualify for the 80 
percent benefit level under the reprogram, dovetails nicely 
with the Secretary's new Force Utilization Policy and our 
continuum of service construct, which is designed to enable 
members to vary their military participation as their personal 
circumstances change--on-ramps and off-ramps to military duty.
    With the unwavering support of Congress, there have been 
significant improvements in incentive programs that are 
enabling us to sustain the all-volunteer force. I would ask for 
your support in preserving the Reserve Educational Assistance 
Programs as retention incentives.
    Mr. Chairman, on behalf of all National Guard and Reserve 
members, I would like to thank you and the Members of this 
Committee for your continued and unwavering support of the men 
and women who serve in the National Guard and Reserve. I look 
forward to answering your questions, sir.
    [The prepared statement of Mr. Bush follows:]
   Prepared Statement of Tom Bush, Principal Director, Manpower and 
    Personnel, Department of Defense and Dr. Curt Gilroy, Director, 
                Accession Policy, Department of Defense
    Good morning, Mr. Chairman and Members of the Committee. We are 
pleased to appear before you today, on behalf of the Department of 
Defense (DOD), to testify about the educational assistance programs 
available to active duty members, National Guard and Reserve members, 
and veterans. The current programs are the Montgomery GI Bill (MGIB), 
which provides educational assistance benefits to active duty members 
and veterans, and the Montgomery GI Bill for the Selected Reserve 
(MGIB-SR) and the Reserve Educational Assistance Program (REAP), which 
provide educational assistance benefits to Guard and Reserve members. 
The Committee is also considering bills that would create a new 
educational assistance program for active duty members and veterans.
                         the montgomery gi bill
    The MGIB program is a cornerstone of our active duty military 
recruiting efforts. There is little doubt that the MGIB has met or even 
exceeded the expectations of its sponsors when it was enacted and has 
been a major contributor to the success of the All-Volunteer Force. The 
original ``GI Bill of Rights,'' created at the end of World War II, 
gave returning Servicemembers a comprehensive package of benefits to 
compensate for opportunities lost while in the military, and to ease 
their transition back into civilian life. The noted economist, Peter 
Drucker described that GI Bill by saying, ``Future historians may 
consider it the most important event of the 20th century.'' Perhaps the 
most far-reaching provision of the GI Bill was the financial assistance 
it made available for veterans to attend college. The GI Bill offered 
returning Soldiers, Sailors, Marines and Airmen payment of tuition, 
fees, books, and supplies, along with a living stipend, at the 
educational institution of the veteran's choice.
    Today's MGIB traces its lineage directly to this milestone program, 
with one important change. While all earlier GI Bill programs were 
designed to ease the transition to civilian life from a conscripted 
military force, since 1973 we have defended this Nation with a 
volunteer force. Thus, as codified in Title 38, United States Code, the 
MGIB has as one of its purposes, ``to promote and assist the All-
Volunteer Force program and the Total Force Concept of the Armed Forces 
by establishing a new program of educational assistance based upon 
service on active duty or a combination of service on active duty and 
in the Selected Reserve to aid in the recruitment and retention of 
highly qualified personnel for both the active and Reserve components 
of the Armed Forces.''
    In assessing the current MGIB program it is important to note that 
education benefits are vital to our recruiting efforts. ``Money for 
college'' consistently ranks among the major reasons young men and 
women give for enlisting. Enrollment in the active-duty MGIB program 
has risen from only 50 percent in its first year, 1985, to nearly 97 
percent today. A total of 2.8 million men and women, from an eligible 
pool of 3.8 million, have chosen to participate in the MGIB since its 
implementation on July 1, 1985. Such enrollment rates demonstrate the 
attractiveness of the MGIB.
    The current MGIB program continues to serve the Active Components 
of the military well. It is our belief that there are no significant 
shortcomings to the program.
                       value of the mgib stipend
    In the initial year of the program--School Year 1985-86--the MGIB 
offset 70 percent of the average cost of total expenses at a public 4-
year university. Total expenses include tuition, fees, room, and board. 
This offset steadily declined until the early 1990s when the MGIB 
monthly benefit was increased from $300 per month to $400 per month. 
Since 1993, the benefit has been adjusted annually for inflation. The 
current rate of $1,075 this past school year covered approximately 75 
percent of the average total expenses at a public 4-year university.
    In addition to the basic MGIB benefit, three of the four Services 
offer an increased benefit, called a ``kicker,'' targeting enlistments 
in certain critical or hard-to-fill skills and for extended periods of 
initial service. The Army, Navy, and Marine Corps use this incentive to 
annually steer about 12,000 high-quality youth into the skills 
necessary for efficient force management. The statutory limit for the 
kicker is $950 per month. The basic MGIB benefit plus the kicker make 
up the Service College Funds. This past year, the maximum benefit of 
the Service College Funds covered 140 percent of the average total 
expenses at a public 4-year university.
    There is no doubt that the MGIB serves as a key recruiting 
incentive. As I indicated earlier, young men and women consistently 
rank ``money for college'' as the major reason they enlist. Today, the 
Services are facing stiff challenges to recruiting. The number of 
graduates who are pursuing post-secondary education right out of high 
school is at an all-time high, and young people are finding that 
financial assistance to attend college is available from many sources. 
While few of those sources match the benefits of the MGIB, neither do 
these sources require young men and women to delay their education for 
a term of military service and the possibility of entering into ``harms 
way.'' The MGIB benefit should be sufficient to offset the commitment 
and sacrifices associated with military service.
    While many may look at the benefit level of the MGIB as it relates 
to readjustment and transition to civilian life, we must be mindful of 
its effect on military force management. The potential benefits of a 
higher benefit level to recruiting must be carefully evaluated in light 
of the difficulties some of the Services are currently experiencing in 
the recruiting market. Attracting qualified recruits using large, 
across-the board basic benefits incurs the risk that many who enter for 
the benefits will leave as soon as they can to use them. If so, lower 
first term retention could both reduce the number of experienced NCOs 
and Petty Officers available to staff the force, and put added pressure 
on the recruiting market as additional accessions are required to 
replace the members who leave. The Department of Education, National 
Center for Education Statistics states the total monthly cost of 
education (tuition, fees, room, and board) for School Year 2006-2007 is 
$1,450 (adjusted for inflation). We posit that the negative retention 
impact starts to outweigh the positive impacts on recruiting when the 
monthly benefit is higher than the total cost of education.
              montgomery gi bill for the selected reserve
    Since the inception of the program in 1986 through Fiscal Year 
2006, 1,540,755 members of the Selected Reserve have entered into 
service agreements to gain eligibility for the MGIB-SR benefits. Of 
those who committed to service in the Selected Reserve for MGIB-SR 
benefits, 639,516, or 42 percent, have applied for educational 
assistance. This indicates that educational assistance plays an 
important role in the decision to join the National Guard or Reserve 
for a large number of the eligible service members. At the end of 
Fiscal Year 2006, the number of Selected Reserve members eligible for 
MGIB-SR benefits totaled 343,553, of whom 104,746, or 30 percent, had 
applied to receive benefit payments. This reflects a 9 percent decrease 
in participation compared to 2005. However, the decrease in the 
utilization of the MGIB-SR benefit is attributed to the establishment 
of the Reserve Educational Assistance Program in Fiscal Year 2005, 
which is described below.
    To illustrate the importance of the MGIB-SR program to our 
recruiting and retention efforts, just under 50 percent of members 
serving in the Selected Reserve today are within their 8-year military 
service obligation. Even those with a remaining service obligation, 
unless they have committed to service in the Selected Reserve in 
exchange for an incentive (such as the MGIB-SR), they can transfer to 
the Individual Ready Reserve at any time. Thus, incentives are an 
important tool in staffing Reserve units. An example of this importance 
of the MGIB-SR program is illustrated by looking at a typical Infantry 
Brigade Combat Team (BCT). An Infantry BCT is made up of 313 officers 
of which 76 percent are company grade officers and 3,439 enlisted 
personnel of which 82 percent are E-5s or below. Data show that the 
majority of enlisted personnel (75 percent) who use MGIB-SR benefits 
are E-4s or E-5s, and the vast majority of enlisted personnel are 
pursuing an undergraduate degree (90 percent). Company grade officers 
are the predominate users of the MGIB-SR program (70 percent) with 95 
percent of officers pursuing an undergraduate or graduate degree. These 
are target populations needed to staff the force.
    To sustain the All-Volunteer Force, particularly in the Guard and 
Reserve where the majority of Selected Reserve members may quit at any 
time, we need every tool available to get members to commit to service 
in the Selected Reserve. The MGIB-SR program helps us do that by 
requiring a member to commit to 6 years of service in the Selected 
Reserve to gain eligibility for MGIB-SR benefits.
                 reserve educational assistance program
    The new Reserve Educational Assistance Program (REAP) was developed 
to reward National Guard and Reserve members who served in support of a 
contingency operation, and National Guard members who performed 
federally funded state duty at the request of the President or 
Secretary of Defense to respond to a national emergency, and to offer 
an incentive to continue to serve following a mobilization when 
pressure to separate may be strong. A member who serves as few as 90 
consecutive days is eligible for $430 a month in educational assistance 
for up to 36 months. The only requirement is that the member continues 
to serve in the Selected Reserve, or Ready Reserve if the member was 
serving in the Individual Ready Reserve (IRR) when he or she was 
ordered to active duty. The benefit level increases to as much as $860 
per month if the member serves for two continuous years. As of March 
2007, 40,180 Reserve component members have used the REAP program.
                   proposed programs and enhancements
    For today's hearing, you asked for DOD's views on several bills 
that would either establish new educational assistance programs or 
modify the existing programs. We will limit our comments to the impact 
of these proposals on the Active Duty Components and their MGIB 
entitlements contained in title 38 of the U.S. Code and the Reserve 
Components and their MGIB-SR and REAP entitlements contained in chapter 
1606 and 1607, in title 10 of the U.S. Code, respectively. Our comments 
will focus on the implications of the proposals on military force 
management, specifically military recruiting and retention.
    All of the bills under consideration share common themes of 
improving education benefits and supporting veterans' transition from 
military service to civilian life. It is clear that the Congress 
remains keenly interested in preserving the viability and value of the 
educational assistance programs. While the Department shares that 
interest, we particularly focus on recruitment and retention in order 
to help preserve the viability of the All-Volunteer Force.
    S. 22, the Post-9/11 Veterans Educational Assistance Act of 2007, 
(as revised) offers a ``World War II-like'' GI Bill, paying the full 
cost of a college education up to the maximum charges of the highest 
cost public institution in the State, as well as a $1,000 monthly 
stipend. This legislation is correct in stating that the MGIB was 
primarily designed for a ``peacetime force.'' However, the current MGIB 
program for active duty is basically sound and serves its purpose in 
support of the All-Volunteer Force. The Department finds no need for 
the kind of sweeping (and expensive) changes offered.
    As stated previously, the average monthly cost of a public 4-year 
institution this past school-year was about $1,450--therefore we could 
expect the average recipient to receive a monthly benefit of about 
$2,400. In line with my earlier discussion about benefit levels, we are 
concerned that a benefit of this level would have long-term negative 
impact on force management. Additionally, we are concerned that this 
bill offers no provision for ``kickers,'' which the Services routinely 
use to channel high quality youth into hard to fill and critical 
skills. The level of the proposed benefit for all new accessions would 
exceed the maximum level of the current MGIB as augmented by a maximum 
``kicker'' of $950, making it more difficult to target the most 
critical skills. For these reasons, we do not support S. 22.
    S. 644, the Total Force Educational Assistance Enhancement and 
Integration Act of 2007, would recodify chapter 1606 (MGIB-SR) and 
chapter 1607 (REAP) of title 10, as a new chapter in title 38. The 
Department does not support this bill. If enacted, it would place 
primary responsibility for managing critical DOD recruiting and 
retention incentive programs with the Secretary of the Department of 
Veterans' Affairs (VA). DOD's responsibility is to manage and sustain 
the All-Volunteer Force, while VA's responsibility is to provide 
benefits and other services to veterans and their dependents and 
beneficiaries. Placing a military force management program under VA is 
inconsistent with the Agencies' purpose and responsibilities.
    Further, it has been widely publicized that the intent of placing 
the Reserve educational assistance programs in title 38 is to provide a 
post-service benefit. This will have a detrimental effect on retention. 
A preliminary assessment by a federally funded research and development 
center (FFRDC) projects that modifying the REAP program to provide a 
post-service benefit will increase attrition by 20 percent among 
members who are not already eligible for MGIB benefits. Further, the 
FFRDC preliminarily estimated that it could cost the Department 
approximately $450 million annually to offset the negative effects of 
providing a portability benefit.
    Finally, the Administration has worked with Congressional Budget 
and Appropriation Committees to ensure that the true cost of manpower 
is reflected in the budget of all agencies so that both cost and policy 
are not separated. Reserve education benefits are mainly recruiting and 
retention tools and for this reason they were funded on an actuarial 
basis in the DOD budget at the inception of the MGIB. The 
Administration does not support dismantling this funding mechanism as 
it would be contrary to transparent and responsible budgeting. For 
these reasons, the Department does not support S. 644.
    S. 698, the Veterans' Survivors Education Enhancement Act of 2007, 
would make changes to the benefits accrued under the provisions of 
Chapter 35, Title 38, United States Code. We see no impact of this 
provision on military force management and defer to VA's views on other 
aspects of this bill.
    S. 723, the Montgomery GI Bill Enhancement Act of 2007, seeks to 
provide enhancements to the MGIB for certain individuals who serve on 
active duty after November 16, 2001. This bill would provide new 
recruits the opportunity to enroll in MGIB without the $1,200 pay 
reduction, and would also refund $1,200 to those already enrolled. 
Ultimately, it would ensure that all members, who were eligible and 
served during this period of national emergency, are enrolled in the 
MGIB at no cost. This proposal would, in effect, result in a ``pay 
raise'' of $100 per month for the first year of service. Offering the 
benefit without a pay reduction would enhance the value of the MGIB; 
however, since about 97 percent of new recruits remain enrolled in the 
MGIB with the current pay reduction provision, the pay reduction does 
not appear to be a significant disincentive.
    The cost to the government must be considered. Preliminary 
estimates show an annual loss to the Treasury of at least $180 million 
as a result of the elimination of the pay reduction. An additional 
amount estimated to be over $1.8 billion would be required to make 
refunds to those who have already had their pay reduced.
    Additionally, the Bill gives individuals who have elected not to 
enroll in the MGIB a second chance to enroll. This provision would have 
no significant impact on military force management.
    Finally, eliminating a certain group of servicemembers from the 
requirement to make contributions because of the time period they 
served results in inequities in the program. Many of our servicemembers 
have been put in harms way, but would fall outside of the time period 
for being eligible for the benefit. Therefore, we do not support S. 
723.
    S. 1261, the Montgomery GI Bill for Life Act of 2007, repeals the 
10-year limit on use of MGIB benefits and the 14 year delimiting period 
for use of the MGIB-SR benefit and repeals the delimiting period for 
disabled member under the REAP benefit. We see no negative impact of 
this provision on military force management. Thus, the Department 
supports sections 3 and 4 of the bill. We defer to VA for comment on 
section 2.
    S. 1293, the Veterans' Education and Vocational Benefits 
Improvement Act of 2007, would provide a 4-year temporary authority 
beginning October 1, 2008, to expand accelerated payment of educational 
assistance for certain high-cost programs of education under the MGIB-
AD program and would authorize similar accelerated payment of 
educational assistance under the two Reserve programs--MGIB-SR and 
REAP, as well as the Survivors' and Dependents' Educational Assistance 
(DEA) program. S. 1293 also would amend REAP to allow Reserve component 
members who served an aggregate of 3 years or more of qualifying duty 
to receive an educational assistance allowance at 80 percent of the 
MGIB-AD rate for an individuals who completed at least 3 years of 
obligated service on active duty. Currently under REAP, a member is 
required to serve at least two continuous years to receive the 80 
percent rate. Finally, S. 1293 would authorize a program, similar to 
the MGIB-AD program, by allowing members to ``buy up'' their REAP 
benefit by making after-tax contributions of up to $600 to augment the 
monthly amount of basic educational assistance they receive during 
their 36 months of entitlement to educational assistance payments. The 
cost to DOD for providing accelerated payments is limited by the Bill 
to a total $12 million ($2 million per year for MGIB-SR and $1 million 
per year for REAP). The preliminary 5-year cost estimate to allow 
Reserve component members to ``buy up'' their REAP benefit is $15 
million. The preliminary 5-year cost estimate of allowing members who 
serve an aggregate of 3 years to receive benefit payments at the 80 
percent level is $11 million. The estimated total 5-year cost to DOD is 
$38 million. This modest investment would provide Reserve component 
members with additional options for using their educational assistance 
benefits while supporting DOD's retention efforts. Allowing a member to 
accumulate periods of service in order to qualify for a higher benefit 
is consistent with the Secretary's force utilization policy, which is 
to limit mobilizations to no more than one year and the Department's 
continuum of service construct, which is to facilitate varying levels 
of service as the member's situation allows. Therefore, the Department 
supports those provisions of S. 1293, which would provide for 
accelerated payments under the MGIB-SR and REAP programs, allow Reserve 
component members who serve for three cumulative years to qualify for 
the highest benefit level under the REAP program and permit members to 
``buy up'' their benefit level--like the option available under the 
MGIB program--by contributing up to $600. We defer to the Department of 
Veterans Affairs on the changes to the MGIB and SDEA programs since 
those programs are funded by the Department of Veterans Affairs.
    S. 1409, the 21st Century GI Bill of Rights Act of 2007, much like 
S. 22 (as revised), offers a ``World-War II-like'' GI Bill that would 
cover the full cost of college tuition, fees, room, and board. This 
Bill does limit the benefit amount at the national average of public 
and private 4-year institutions. We estimate that this benefit level 
would have limited the monthly payment to about $2,050 for this past 
school-year. In line with my earlier discussion regarding S. 22, we are 
concerned that a benefit of this level would have long-term negative 
impact on force management. Therefore, we do not support this bill.
    S. 1719 would provide additional educational assistance under the 
MGIB for veterans pursuing a degree in science, technology, 
engineering, or math. We see no impact of this provision on military 
force management. Therefore, we defer to VA's views on this bill.
                               conclusion
    Today, the volunteer military stands ready, willing, and able to 
defend our great Nation, as well as its values and principles. Credit 
for our success in attracting high-quality people to serve in uniform 
belongs in large measure to the Congress and to your Committee for 
providing military members with the benefits embodied in the 
educational assistance programs. Few areas, if any, are more important 
to DOD than recruiting and retention. We recognize our duty to man the 
All-Volunteer Force with high-quality, motivated, and well-trained men 
and women. The MGIB education benefit has been a major contributor to 
recruiting achievements for more than 20 years. As we move through the 
21st Century, we must continue to build upon the remarkable legacy of 
the visionaries who crafted preceding versions and improvements in the 
GI Bill. I thank this Committee for its dedicated support to the men 
and women who currently serve, and those who have served, our great 
Nation.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Daniel K. Akaka to Tom 
Bush, Principal Director, Manpower and Personnel, Department of Defense
    Question. It seems that you have many tools available to recruit 
and retain members to both active duty and the Guard and Reserve--
including such things as enlistment and re-enlistment bonuses, tuition 
assistance, in-service education, loan forgiveness and more. Please 
rank the title 38 and title 10 programs in terms of first recruitment 
and then retention, when measured against these other tools.
    Response. The Department does have many different tools to help 
manage the Force. Of the educational assistance programs for the 
Reserve components, only the Montgomery GI Bill for the Selected 
Reserve (chapter 1606 of title 10) is used as a recruiting incentive, 
while both the Montgomery GI Bill for the Selected Reserve and the 
Reserve Educational Assistance Program (chapter 1607 of title 10) are 
used as retention incentives. While Guard and Reserve members may gain 
eligibility for the Montgomery GI Bill for active duty (chapter 30 of 
title 38), it serves no recruiting or retention purposes for the 
Reserve components.
    When compared to other incentive programs, the Montgomery GI Bill 
for the Selected Reserve and the Reserve Educational Assistance Program 
are cost effective. Although the maximum amount of benefit payments 
available under the two programs can be richer than other incentives, 
the amount typically used is consistent with the other incentive 
programs used to shape and manage the Reserve components.
    While a member may receive benefit payments for up to 36 months 
under a single program and up to 48 months if a member qualifies under 
more than one program, the Department of Veterans Affairs reports that, 
on average, members and former members use their education benefit for 
17 months. At the maximum benefit level, total benefit payments for the 
Montgomery GI Bill for the Selected Reserve at the 2008 benefit rate is 
just over $11,400. The maximum benefit level under the Reserve 
Educational Assistance Program range from $15,854 for a member who 
completes 90 continuous days of contingency service, $23,781 for a 
member who completes one continuous year of contingency service, and 
$31,708 for a member who completes two continuous years of contingency 
service.
    In contrast, the maximum bonus amount authorized for an enlistment 
or affiliation with the Selected Reserve ranges from $15,000 to $20,000 
depending on the bonus authority. The maximum amount authorized for the 
reenlistment bonuses is $15,000. For officers, the maximum bonus for 
accession or affiliation is $10,000.
    There are many reasons individuals choose to join and continue to 
serve in the Guard or Reserve. It is important to have a variety of 
incentives so the components can match the incentive with the 
individual's desires and needs. This is why it is so important to 
retain the Reserve Educational Assistance programs as incentive 
options. Eliminating these incentive programs as Force management tools 
will adversely affect recruiting and retention.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Larry E. Craig to Tom 
Bush, Principal Director, Manpower and Personnel, Department of Defense
    Question. 1. According to your written testimony, there is a point 
at which education benefits will start to harm retention more than 
those benefits will help recruitment. If education benefits were raised 
above that ``pivot point,'' would the Department of Defense (DOD) need 
to raise other benefits, such as re-enlistment bonuses, to try to avoid 
some of the negative impact on retention? In other words, would we 
essentially be bidding against ourselves?
    Response. Yes, that is exactly what we would need to do. As stated 
in testimony, we posit that the negative retention impact begins to 
outweigh the positive recruiting impacts when the monthly education 
benefit is higher than the average cost of a 4-year public education. 
Increases in re-enlistment bonuses would be the most effective method 
to overcome this negative effect.

    Question 2. In April 1999, the House Committee on Veterans' Affairs 
held a hearing to examine bills that would have provided certain 
Montgomery GI Bill--Active Duty (MGIB) participants with benefits 
sufficient to cover all or nearly all of the costs of a 4-year college 
education. The Department of Defense--under the prior Administration--
testified that DOD was ``concerned that the generous education benefit 
embodied in the `full ride' may affect first-term retention'' and that 
``[a]n enhanced MGIB that offered the same level of entitlement as the 
basic MGIB with `kicker' to all participants would eliminate one 
effective tool we have to recruit for [hard-to-fill or critical] 
skills.'' From your testimony, it appears that these concerns are 
equally warranted today. Is that an accurate assessment? And would any 
current circumstances, such as the ongoing war, heighten these 
concerns?
    Response. Yes, those concerns are as valid today as they were in 
1999. The Services use these ``kickers'' to expand the market among 
high quality young Americans, to channel these motivated youth into 
critical and hard-to-fill skills, and to encourage longer initial terms 
of service. This is an important use of these ``kickers'' in general, 
but even more critical during these challenging recruiting times.

    Question 3. Under the Montgomery GI Bill for the Selected Reserves 
and the Reserve Educational Assistance Program, Guard and Reserve 
members generally must remain in the Guard or Reserves in order to use 
their education benefits. At the hearing, one of the witnesses compared 
this policy to ``indentured servitude.'' To ensure the accuracy of the 
hearing record, would you please clarify the existing policy, the 
purposes for it, and the impact that changing it could have on force 
management?
    Response. The MGIB-SR is one of many incentives used by the 
military to encourage individuals to voluntarily agree to serve in the 
military. Once a member has completed the initial MGIB-SR 6-year 
obligation, he or she may separate at any time without penalty (unless 
under some other service agreement). The same is true for members who 
are eligible for the REAP. There is no penalty if they chose to leave 
the military.
    The purpose of both programs is to encourage individuals to join 
and remain in the Guard or Reserve. As with bonus programs, individuals 
who leave the Service cease receiving incentive pays. To change these 
programs to continue to provide the benefit after a person separates 
from the Service would be inconsistent with the purpose of these 
programs.
    Modifying the Reserve education programs to make them a post-
Service benefit would result in an increase in attrition, which is 
opposite the desired effect, and increase Federal spending. Education 
benefits would continue to be paid to individuals who would have 
otherwise remained in the Guard or Reserve (in addition to some who 
planned to separate at the end of their service obligation), so no 
saving would accrue, and spending in other incentive programs would 
have to increase in order to offset the increase in attrition.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Jon Tester to Tom Bush, 
 Principal Director, Manpower and Personnel, Department of Defense and 
   Dr. Curt Gilroy, Director, Accession Policy, Department of Defense
    Question 1. DOD's submitted testimony states that an enhanced 
education benefit would have a chilling effect on the retention of 
servicemembers in both the Active Duty and the Reserve Component 
forces. On what studies or other empirical evidence do you base this 
assertion?
    Response. The portion of the testimony that discussed the impact of 
increases in education benefits on first-term retention in the active 
forces is based on analysis by the Lewin Group. As stated in testimony, 
this analysis posits that the negative retention impact begins to 
outweigh the positive impacts on recruiting when the monthly education 
benefit is higher than the average cost of a 4-year public education.
    For the Reserve components, as long as the educational assistance 
programs remain a retention incentive, enhancing the education benefit 
will not adversely affect retention. However, if the Reserve 
educational assistance programs are moved to the jurisdiction of the 
Department of Veterans Affairs as post-service benefits, it would have 
a chilling effect on retention in the Reserve components. Preliminary 
estimates from a RAND study suggest that at the current benefit rates, 
attrition among members who have not qualified for the active duty 
Montgomery GI Bill benefit could increase by as much as 10 percent. If 
the benefit level increases, attrition would increase as well. This 
could become a vicious cycle of requiring an increase in other, more 
expensive incentive programs to offset an increase in attrition.

    Question 2. The existing GI Bill would not even fund an entire 
semester for a veteran at Stanford or an Ivy League school. Recognizing 
that you have concerns about Senator Webb's bill, what steps would you 
recommend in order to increase a veteran's access to such exclusive 
educational opportunities.
    Response. Since the basic active duty education benefit, along with 
the remainder of veterans' programs and benefits, are under cognizance 
of the Department of Veterans Affairs for overall policy and funding, 
this question would be better answered by that Department. We see no 
significant implications on military force management, specifically 
military recruiting and retention, of increasing a veteran's access to 
any specific educational institution.

    Chairman Akaka. Thank you very much, Mr. Bush.
    General Young, everyone can agree that the array and 
complexities of the various educational benefit programs 
available to veterans, servicemembers, and members of the Guard 
and Reserves are, and I think you alluded to that, bewildering. 
So my question to you is, to what extent do you believe a lack 
of understanding of these benefits contributes to the failure 
of the various programs to full optimal recruitment, retention, 
or readjustment potential?
    General Young. Mr. Chairman, as you said, the educational 
benefits are very complex to understand. I wouldn't sit here 
and even tell you that I understand them all, and I served as 
the Assistant Adjutant General in Ohio for 6 years and 
mobilized about 7,000 soldiers during that period. I think the 
percentage of folks that we had participating in the program 
was somewhere around 42 percent or at least signing up for it, 
for the Montgomery GI Bill Selected Reserve, and even out of 
that 42 percent, only about 30 percent of them used the 
benefits during the period of time that I looked at.
    I think it is just a matter of us having to do a better 
job--and this is a hit on us in some ways--of educating our 
folks about the benefits. As changes are made almost yearly, 
then it takes a while to get the implementing instructions into 
place and we just have to do a better job.
    One of the programs, the Transition Assistance Program that 
our servicemembers are entitled to when they return from 
deployments, is a way that we are looking at as a better 
opportunity and a better way to educate our members. Taking 
more time with them both at the demobilization site and then 
back at home station when they get back home from their 
deployments. So I hope that answers the question, Mr. Chairman.
    Chairman Akaka. I would also like to pose the same question 
to Mr. Wilson and Mr. Bush. This has to do with to what extent 
do you believe a lack of understanding of these benefits 
contributes to the failure of various programs to fulfill 
optimal recruitment, retention, and readjustment of the 
potential?
    Mr. Wilson?
    Mr. Wilson. What we see when we administer the program is 
indications that there is a higher degree of complexity than 
perhaps could be in the programs. I would defer to DOD 
concerning its impact. They are more attuned to the specific 
impacts on recruitment and retention.
    What I can say is that this is one of the issues that is 
always on the forefront of what we are doing when we are 
administering the program. We spend a lot of time working with 
our counterparts in the Guard/Reserve units, providing them 
information on the benefits. We prepared, for instance, when we 
implemented the REAP program, we created a DVD and mailed out 
over a quarter-million of those DVDs directly to the Reserve 
and Guard units across the country. We did the same thing with 
pamphlets, printed material.
    What we hear anecdotally is that there remains confusion 
out there and it is something that we are continually working 
on with our DOD counterparts.
    Chairman Akaka. Mr. Bush?
    Mr. Bush. I think one of the problems, some of the 
confusion is when you have different programs you can use under 
the various benefits, they aren't well aligned. And if we had 
the benefits aligned under the program, that would be helpful.
    The other thing that I think adds confusion is when a 
member has to make an irrevocable decision about their program. 
That has to be looked at carefully because you can't use the 
same period of service to qualify for multiple programs. If you 
had a more seamless access to the programs based on your period 
of service, I think that would be very helpful.
    Chairman Akaka. OK.
    General Young. Mr. Chairman, could I add one additional 
comment?
    Chairman Akaka. General?
    General Young. Sir, one of the other things you talked 
about, the lack of knowledge, maybe, is a failure of some of 
the programs. In the Guard in particular, just about every one 
of our States now out there offer a State Tuition Assistance 
Program. You also have the Federal Tuition Assistance Program. 
Multiple opportunities are here for our Guard members to get 
educational assistance. In a lot of cases, some of those 
tuition assistance programs, especially at the State level, are 
exclusive of and you can't use these at the same time as the 
Montgomery GI Bill or the State won't pay and the benefit from 
the State is perhaps even better. So that might be contributing 
to its lack of use.
    Chairman Akaka. Thank you for that information. When it 
comes to the Guard, we need to, of course, look at what States 
provide for their assistance, as well.
    Let me ask a question to Mr. Wilson and then I will call on 
Senator Murray for her statement and her questions.
    Mr. Wilson, leaving aside for the moment any issues of 
retroactive claims, could you offer some insight into the 
comparative administrative difficulties of a tuition and fees 
approach versus a monthly benefit approach?
    Mr. Wilson. The tuition and fees and room and board 
approach, as outlined, for example, in S. 22, would be 
fundamentally different from what we pay now. In essence, what 
we pay now is a flat rate based on the individual student's 
training time--full-time, half-time, quarter-time, et cetera.
    Under a tuition, fees, and room and board arrangement, we 
would be paying each individual a unique amount, basically. We 
would be required to collect information unique to each 
specific individual concerning what their charges basically 
would be. That would be the tuition and fees charged by the 
university and room and board, or actually even the equivalent 
of room and board. So if an individual was living off campus, 
we would be put in the position of having to get rent 
information, utility information, in order to determine what 
his or her benefit would be each month.
    Chairman Akaka. Thank you very much.
    Senator Murray?

                STATEMENT OF HON. PATTY MURRAY, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Murray. Mr. Chairman, thank you so much for this 
hearing. I really appreciate the opportunity. Educational 
benefits is an increasingly important part of the discussion as 
we have an all-volunteer Army and need to deal with troop 
readiness, as well, so I appreciate the opportunity to hear 
some of the bills that have come before this Committee. There 
are some excellent ideas and, hopefully, they will begin to 
address some of the challenges we have seen, especially with 
the purchasing power of the education benefit being diminished, 
and we haven't dealt with that, as well as the increased 
reliance on National Guard and Reserve members that we are 
seeing and needing to update our laws to deal with that. The 
fact that many of the education benefits have expired before 
our veterans are able to utilize them, and I think we need to 
update our laws to really look at what our needs are today. So 
I appreciate this hearing and I appreciate the panelists for 
being here today.
    Let me start, General, with you. I wanted to ask you how 
you felt about the current outreach efforts that are aimed at 
making our National Guard members, in particular, aware of some 
of the education benefits that are available to them.
    General Young. Ma'am, are you referring to our Transition 
Assistance Program and programs like Yellow Ribbon or Reunion 
Reintegration----
    Senator Murray. Let me ask you two questions. How are we 
getting out to our National Guard members what currently is 
available, and what do you think we need to do to provide 
better benefits for them?
    General Young. Yes, ma'am. Currently, our Guard members 
learn about the GI Bill, of course, when they sign up through a 
recruiter. After that, in each State we have an education 
office that has three to four individuals that work in it. 
Within the past two years, we have employed in each State what 
we call a Transition Assistance Advisor. We have worked on some 
proposals for changing the Transition Assistance Program as it 
affects the Reserve component.
    If you are an active component member coming back from a 
deployment, of course, you are on your base or your fort, your 
installation where you departed. In the case of a Guard member, 
they come back from a deployment, and spend anywhere from three 
to five days at a demobilization station. I was talking to one 
of our soldiers this morning that deployed, came back from a 
deployment, got off the airplane about midnight, went to get 
something to eat, got in bed, and was back up the next morning 
at about 0600 after flying all the way from----
    Senator Murray. I assume that is not a good time to talk to 
them about education benefits.
    General Young. No. And as she related to me, going through 
the briefings, and particularly the benefits now she was 
entitled to by being a veteran coming back, she checked blocks 
to get through the process so she could go home and be with her 
family and get back to her State. We need to look at those 
types of programs and enhance our ability to provide the 
education to our members.
    A lot of these decisions are very important to the family, 
so that is one of the reasons, one of the proposals that we 
have from the Guard is to do a lot of these briefings back at 
home station, similar to the model being used by New Hampshire, 
by Washington, the Yellow Ribbon program that Minnesota is 
going to use with the first of the 134, bringing their people 
back at the 30-, 60-, and 90-day intervals once they get home 
to go through a lot of these briefings and make sure the family 
and the member understand them.
    Senator Murray. So does that basically happen State by 
State? Different States do different things?
    General Young. Yes, ma'am. Whatever program we come up 
with, we need to allow flexibility for that Governor and that 
TAG to modify their program how they want to integrate their 
people back from the warrior back to the citizen. There needs 
to be some flexibility in the way we do that. We are working on 
it.
    Senator Murray. Yes, I understand the flexibility. I just 
want to make sure it doesn't get lost. And at some point we 
have to figure out how to make that happen from a national 
level.
    General Young. Yes, ma'am.
    Senator Murray. Mr. Bush and Mr. Wilson, let me ask you a 
question. Some people have suggested that the current 
educational benefits programs are too complex and 
administratively burdensome and the Montgomery GI Bill needs to 
be consolidated under the jurisdiction of Title 38 to correct 
that problem. Let me ask both of you if you think consolidating 
all GI benefits under Title 38 would help us improve some of 
the consistency and equity of education benefits for our active 
duty and National Guard and Reserve. Mr. Wilson, I will start 
with you.
    Mr. Wilson. I am not clear that it would provide a benefit. 
Certainly in some areas, it would put VA into a position where 
we are making calls on things that we simply don't have the 
expertise on. For example, what MOSs, what jobs would be 
receiving kickers? That is something we don't have expertise 
on. If the Title 10 programs were moved over into Title 38--
lock, stock, and barrel--we would end up having a role in 
those, and we simply don't have the expertise there. Those 
types of things would be our concern. We certainly want to be 
able to administer the program as effectively as we can, but we 
don't want to be put in a situation where we just simply 
don't--shouldn't--have a seat at that table.
    Senator Murray. Mr. Bush?
    Mr. Bush. Yes, ma'am. I don't think that would be helpful 
for the Guard and Reserve, to move the two Reserve Educational 
Assistance Programs to Title 38. Fundamentally, the purposes 
are different. The two Reserve programs are designed as 
retention tools, and as Mr. Wilson said, that would put them in 
the position of helping manage the Reserve Forces. That is a 
job that should remain with DOD.
    There are things that would be helpful. If the benefits 
were uniform, if it were easy to understand what the benefits 
were, that would be very helpful. Right now, that isn't the 
case.
    The provisions I have seen that would consolidate the three 
programs in Title 38 simply move the three programs lock, 
stock, and barrel into Title 38. They don't combine them. They 
don't change them. Now, there are some proposals to change them 
on the margins in ways that aren't helpful to us, making them a 
post-service benefit. That doesn't help us retain the force and 
that is the purpose for the Reserve Education Benefit Programs, 
unlike an active duty member who is transitioning careers. They 
are leaving active duty after three, four, five, six years in 
active duty and starting a new career. Most Guard and Reserve 
members are going back to their job. There are some that are 
transitioning and we want them to use that education benefit. 
We don't see that as inconsistent with participating part-time 
in the Guard and Reserve and using their educational benefits.
    Senator Murray. One of the things I hear from men and women 
returning, particularly from the current conflicts, is that the 
skills that they used overseas, they are not encouraged to try 
and use those to get into a career path when they get home. For 
example, medics, in particular. What are we doing--what types 
of programs or counseling programs are being used to help our 
veterans utilize the skills that they used overseas, whether it 
is mechanic or a medic or engineering or anything? Are we doing 
anything to capitalize on what they have learned in order to 
help them get a job and a career opportunity at home?
    Mr. Bush. For the active, that is probably true. People 
that are leaving the service, we want to help them utilize 
their military skills. We spent a lot of money training them. 
For the Reserves, as I said, there are some people who are 
transitioning careers, but not as many. In the Transition 
Assistance Program, there are opportunities that we partner 
with DOD, with VA, with DOL to let people know what job 
opportunities are out there, how they can transition.
    We have a web site that we are standing up now that will 
make it easier for Guard and Reserve members to get this 
information, as General Young mentioned. It is not as easy for 
the Guard and Reserve when you are geographically dispersed 
throughout literally thousands of communities. So this is part 
of our outreach effort.
    Senator Murray. Mr. Wilson?
    Mr. Wilson. I can comment concerning what we do for those 
people that apply for our Education Benefit Programs. We do 
have a counseling mechanism under which we can provide 
vocational counseling, career counseling to those individuals. 
Every individual being discharged, Reservist or active duty 
member, is notified in our VADS package, our Veterans 
Assistance at Discharge System package, that they can take 
advantage of that benefit.
    Senator Murray. But do you actually look at what they have 
done in the military and say, ``this could translate well into 
a career path here,'' then work with them on that at all?
    Mr. Wilson. I would have to get back to you concerning 
specifically what occurs during counseling.
    Senator Murray. Please. If you could also let me know: are 
there any attempts or any ways that we are doing that 
consistently; and, would you make any recommendations to us in 
ways to help make that work better?
    Mr. Wilson. Sure.
    Senator Murray. Thank you very much, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Murray.
    We have other questions that other Members have, as well, 
and I do have a number of questions here. I want you to know 
that we will have those written questions for each of you and 
ask you for your prompt responses to those questions.
    Do you have any further questions for this panel?
    Senator Murray. No, I don't have any more.
    Chairman Akaka. OK. Otherwise, I would like to call on the 
second panel and thank the first panel very much for your 
presence, for your statements, and look forward to working with 
you on this and to get responses from you to our questions. 
Thank you very much.
    Mr. Bush. Thank you, Mr. Chairman.
    Chairman Akaka. I welcome our second panel consisting of 
experts in the area of veterans' education, and especially from 
the perspective of transition, both nationally and locally. I 
want you to know that I am pleased to have you here to share 
your expertise with this Committee.
    Our first witness is the Honorable G. Kim Wincup, Vice 
Chairman of the Congressional Commission on Servicemembers and 
Veterans Transition Assistance. Mr. Wincup also held key 
Congressional staff and administration positions during the 
time that much of the current legislation was considered.
    Next, we have James Bombard, Chairman of the Veterans' 
Advisory Committee on Education. Mr. Bombard also can draw on 
his long-time experience in the State approving agency and from 
his personal experiences as a Vietnam veteran pushing for 
enactment of new GI Bill benefits.
    Our third witness has traveled across the continent to be 
with us and we really appreciate that. Mr. Allison Jones is 
Assistant Vice Chancellor for Academic Affairs at the 
California State University. Mr. Jones will share with the 
Committee the exciting new initiatives that the State of 
California has undertaken to attract veterans to the school.
    So I welcome each of you and tell you that your full 
statements will be entered into the record.
    I call as our first witness Mr. Wincup.

STATEMENT OF G. KIM WINCUP, FORMER VICE CHAIRMAN, CONGRESSIONAL 
COMMISSION ON SERVICEMEMBERS AND VETERANS TRANSITION ASSISTANCE

    Mr. Wincup. Thank you, Mr. Chairman, Senator Murray. It is 
a privilege to appear before you and this great Committee 
representing the members of the Commission on Servicemembers 
and Veterans Transition Assistance, a commission that was 
created by the Congress and actually it was the U.S. Senate 
that took the lead in that, so it is a great pleasure to be 
here with you.
    The Congress tasked the Commission with looking at two 
things, to review programs that provided benefits and services 
to veterans as they approach transition, and also to make sure 
that the programs were adequate and effective to meet their 
needs. We also looked at proposing improvements and looked at 
consolidating organizations.
    That report was submitted to the Congress on January 14, 
1999. It is a little bit old, but frankly, I think a lot of the 
recommendations are still relevant to the issues that you have 
raised, Mr. Chairman, in your hearing. Let me just go through 
very briefly a couple of the points that the Commission made, 
if I may.
    The Commission's judgment was something that this Committee 
knows very well, that military personnel are a unique national 
resource to which the country has a moral obligation, but also 
very importantly that the country has invested in and there is 
an opportunity to capitalize when they return to pursuing life 
in a way that is very good for this Nation, which we haven't 
been as effective as we should be.
    The pillars that we felt were appropriate in regard to 
dealing with servicemembers and veterans who are transitioning 
was they have to be provided with a means and opportunity to 
succeed in their civilian lives and invest their talent and 
ability in the American economy; that the special conditions of 
military service requires particular needs that must be met; 
and that the Nation's ability to raise and maintain an 
effective military force must be supported.
    With particular respect to the educational benefits, 
although the Commission spoke on a lot of different issues, the 
Commission determined that employment is the key to transition 
and that education is the key to employment in the information 
age. So we put a great deal of emphasis on education. And in 
that regard, we felt that the opportunity to obtain the best 
education for which they qualify was the key here.
    Mr. Chairman, our recommendation was that the Montgomery GI 
Bill be amended to provide a separate benefit for individuals 
who enlist or reenlist for a minimum 48 months that would be 
much that you recall, Mr. Chairman, in the World War II GI 
Bill, full tuition, fees, books, and supplies, plus $400 a 
month that would have been indexed for inflation. We 
recommended that the $1,200 pay reduction be eliminated, and we 
also recommended that the Services have discretionary authority 
to transfer this benefit to their family members as they 
consider it appropriate.
    With respect to the MGI Bill for those who served 24 to 36 
months, we recommended again the $1,200 payroll deduction be 
eliminated, that the monthly stipend be increased, and that 
they be allowed accelerated lump-sum payments.
    Mr. Chairman, each of the members of the Commission brought 
great personal experience to the task. In my case, my views 
were molded by having been a professional staff member of the 
House Armed Services Committee in the 1970s when the all-
volunteer force was created and then the Committee Staff 
Director when the Montgomery GI Bill was enacted. I also had 
the privilege of seeing the impact of this program as Assistant 
Secretary of the Army for Manpower and Reserve Affairs.
    What influenced my thinking with respect to this 
recommendation of the Commission was the serious problems that 
I saw for the all-volunteer force in the first 8 to 10 years, 
extremely serious, particularly with respect to getting quality 
recruits, and then the strong impact that a good education 
program had on drawing those quality recruits, and it isn't 
just on drawing the recruits themselves, it is the impact that 
occurs on their influencers, their teachers, and the people 
that are their mentors, enormously important in helping 
recruiting.
    Mr. Chairman, as the Members of this Committee know well, 
the personnel who serve the country in uniform, active, Guard, 
and Reserve, are a national asset that deserves our support, 
but also of tremendous importance to the future of this Nation 
when they leave uniformed service. We need to take full 
advantage of the skills and the training and the attributes 
that they bring to this country. The Commission felt, and 
still, I think all the members still believe that a strong 
educational program is an extraordinarily effective way to meet 
that.
    Mr. Chairman, with your indulgence, if I might just impose 
on your time for one more moment to recognize the work of the 
late Congressman Sonny Montgomery, who did such a remarkable 
job in laying the groundwork that allows us to be here today 
talking about building on this remarkable program.
    Thank you, Mr. Chairman. It is a pleasure to be with you.
    [The prepared statement of Mr. Wincup follows:]
      Prepared Statement of G. Kim Wincup, Former Vice Chairman, 
  Congressional Commission on Servicemembers and Veterans Transition 
                               Assistance
    Mr. Chairman and Members of the Committee:
    It is a privilege to appear before you today on behalf of the 
members of the Commission on Servicemembers and Veterans Transition 
Assistance, and particularly our Chairman, the Honorable Tony Principi, 
who could not be here today.
    I commend your insight in creating the Commission. Indeed Congress 
created it through Senate legislation, as introduced by Senator Bob 
Dole. The Commission's statutory purpose consisted primarily of:

    <bullet> Reviewing programs that provide benefits and services to 
veterans and servicemembers in transitioning to civilian life/proposing 
steps to ensure adequacy and effectiveness of such programs; and
    <bullet> Proposing improvements/determining the feasibility/
desirability of consolidating the organizations administering 
transition benefits.

    The Commission submitted its report to Congress on January 14, 
1999. I've attached a copy of the report for the Committee's use.
    Before discussing the Commission's work, I want to recognize this 
Committee for its leadership in making numerous, value-added 
enhancements in the Montgomery GI Bill, as enacted in Public Laws 106-
419, 107-103, and 108-454. During this period, Congress increased MGIB 
monthly benefits from $528 to $985 per month.
    Mr. Chairman, the Commission made more than 100 recommendations. 
Many related directly to the matters outlined in your helpful remarks 
concerning the all-volunteer force educational assistance programs 
available to our service personnel and veterans.
    After extensive fact-finding and analysis, the Commission made the 
following judgments and recommendations:

    <bullet> The Nation's military personnel represent a unique 
national resource to which we have a moral obligation; and in whom the 
Nation has made a leadership and skills investment in which it needs to 
capitalize long after military service.
    <bullet> To meet these goals, the Commission concluded that 
benefits and services provided our personnel should be based on the 
following pillars:
      <all> Transitioning servicemembers must be accorded the means and 
opportunity to succeed in their civilian lives; and as a Nation we must 
invest in their collective talent/harness their collective ability in 
our domestic economy;
      <all> The unique--and often selfless--conditions of military 
service require sacrifices and generate equally unique needs that must 
be met; and
      <all> The Nation's ability to raise and maintain an effective 
all-volunteer, non-conscripted military force must be supported with 
cost-effective, value-added incentives for such service.

    With respect to educational benefits, the Commission determined 
long-term, sustained employment as the door to a successful transition 
to civilian life; and education unequivocally as the key to such 
employment in this age of technology.
    In that regard, the Commission concluded that the Nation should 
accord former servicemembers an educational opportunity limited only by 
their own aspirations, abilities, and initiative; an opportunity to be 
used at any educational institution in America.
    More specifically, the Commission recommended that Congress enhance 
the Montgomery GI Bill (MGIB) for active-duty servicemembers who enlist 
or re-enlist for a minimum of 48 months to:

    <bullet> Pay full tuition, fees, books and supplies, plus a $400 
per month educational assistance allowance for up to 36 months, indexed 
for inflation;
    <bullet> Eliminate the $1,200 pay reduction for participation;
    <bullet> Furnish the Services discretionary authority to allow the 
transfer of this benefit to a family member; and
    <bullet> Allow the servicemember 10 years from separation to use 
the benefit.

    Enhance the MGIB for active-duty servicemembers who serve for 24 to 
36 months to:

    <bullet> Eliminate the $1,200 payroll deduction for participation;
    <bullet> Increase the monthly educational assistance allowance to 
$600; and
    <bullet> Allow accelerated ``lump-sum'' payments.

    In effect, the Commission recommended a return to a World War II-
type GI Bill which had paid tuition, books, and fees outright to the 
education or training institution; and also furnished the veteran a 
monthly subsistence allowance.
    Mr. Chairman, since many of the bills under the Committee's 
consideration today broadly model the World War II GI Bill, with the 
Committee's permission, I'd like to offer some brief background 
regarding the Commission's thinking.
    Although Congress designed the World War II GI Bill for a different 
era, a different economy, a different society, a different technology, 
and indeed a different veteran, in the Commission's view our Nation's 
obligation to the veteran remains the same; especially in a current 
force comprised exclusively of military volunteers.
    Further, Chairman Principi in various Commission testimony, 
briefings, and interviews acknowledged observations of economists and 
scholars that the World War II GI Bill ``. . . made the United States 
the first predominantly middle-class Nation in the world . . . and even 
produced the tax revenues to help fund the Marshall plan to rebuild 
war-torn Europe.'' (The World War II GI Bill produced 10 Nobel Prize 
winners who contributed to the Nation's scientific revolution, as 
well.)
    In its work sessions, the Commission observed the statement of 
former Chairman Alan Cranston, a principal author of the MGIB, during 
Senate deliberation on S. 12 in 1987:

        The dividends our country has already reaped from past GI Bills 
        is so vast as to be virtually incalculable. However, it is 
        widely accepted that for every dollar spent in GI Bill 
        benefits, the Nation is reimbursed $3 to $6 in increased tax 
        revenues . . . 

    I'd add in April 2000. Under contract to the Department of Veterans 
Affairs, The Klemm Analysis Group found a public MGIB benefit-to-cost 
ratio of $2 to $1 and private economy return of $7 to $1.
    Given these empirical data, not surprisingly education emerged as 
the centerpiece of the Commission's report--and all twelve members 
supported the Commission's recommendations.
    Mr. Chairman, under the law, the Veterans' Affairs and Armed 
Services Committees of the Senate and House selected members of the 
Commission. Each brought value-added experience to our task.
    In my case, my views were molded by having served as a professional 
staff member of the House Armed Services Committee in the early 1970s 
when Congress created the All-Volunteer Force; and then as the 
Committee's Staff Director when Congress created the 1985 New GI Bill, 
3-year test program; and in 1987, when Congress made the program 
permanent public policy, as ``Montgomery GI Bill.''
    In 1991, while serving as Assistant Secretary of the Army for 
Manpower, Reserve Affairs and Logistics, I also had the privilege of 
observing firsthand the recruiting impact of this program during the 
Persian Gulf War. Some 95 percent of our technologically savvy troops 
had signed up for the Montgomery GI Bill when they enlisted.
    What influenced my thinking in supporting the Commission 
recommendation essentially to return to a World War II-type GI Bill was 
the serious problems I saw during the first decade or so of the AVF 
when many Army recruits did not have a high school diploma; and the 
positive impact that the New GI Bill test program would have on 
recruiting, ``college-bound'' youth--especially those who scored in the 
upper quartiles of the Armed Forces Qualification Test.
    And just as importantly, I saw the impact the words ``GI Bill'' had 
on the persons who influence potential recruits about military 
service--their parents, teachers, guidance counselors and coaches.
    Mr. Chairman, overall the Commission viewed America's sons and 
daughters who wear the uniform of the United States--active, Guard and 
Reserve--as more than just our modern military.
    We viewed them as a vibrant national leadership and economic asset 
that we must call upon long after their active service.
    A group largely of 20 year olds who maintain multimillion dollar 
tactical aircraft, troubleshoot multi-billion dollar nuclear powered 
ships, and operate space-based technologies in our defense.
    And we saw a strong educational incentive as a very effective way 
to maximize these leadership and skills assets.
    Department of Defense, service branch and other surveys repeatedly 
show that an educational incentive is the one to which youth most 
respond in their decision to join our active-duty military. Enlistees 
even pay-in $1,200 of their own money to gain about $36,000 in 
benefits.
    On the occasion of the Montgomery GI Bill's 20th anniversary on 
June 1 (Public 100-68), Robert F. Foglesong, President, Mississippi 
State University wrote:

        To date, 2.1 million former servicemembers have used MGIB 
        benefits to re-enter civilian society in valued professions 
        such as teaching, engineering, business, banking, public 
        service, law, and entrepreneurship, among countless others--a 
        20-year leadership force . . . 

        . . . And during Fiscal Year 2006, 798,000 active-duty 
        servicemembers pursued associate, bachelor's and master's 
        degree part-time during off-duty hours on-base, on-ship, and 
        on-line [through DOD's tuition assistance program].'' They 
        value education and they value serving the Nation.

    Business and industry leaders like what education and service 
produce. Indeed the 200,000 or servicemembers who leave our military 
annually ``personify economic strength and represent the ready 
workforce for the 21st century.'' (Bob Lutz, Vice Chairman, General 
Motors.)
    Mr. Chairman, with your indulgence, I'd acknowledge in addition to 
the wisdom and foresight of former Chairman Cranston, Senators Bill 
Armstrong, Bill Cohen, Spark Matsunaga, Ernest Hollings, and John 
Glenn; and Representatives G.V. ``Sonny'' Montgomery, John Paul 
Hammerschmidt, Bob Edgar, and Duncan Hunter who along with many others 
created the current Montgomery GI Bill during the 1980-1987 period.
    In closing, I honor the memory of Terence ``Terry'' Lynch who came 
to the Commission's staff from the Senate Intelligence Committee and 
served us so well. Terry died at the Pentagon on September 11, 2001.
    I pay tribute, as well, to Commission member Richard W. ``Dick'' 
Johnson, USMC (Ret.), a valued colleague and innovator. Dick furnished 
a lifetime of leadership to the Non-Commissioned Officers Association 
of the United States. Mr. Johnson died on July 4, 2004.
    Thank you.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Daniel K. Akaka To Mr. 
   G. Kim Wincup, Former Vice Chairman, Congressional Commission of 
           Servicemembers and Veterans Transition Assistance
    Question 1. As you know, veterans' education benefits are one of 
many forms of higher education financial aid. How did the Commission 
envision, if at all, situations where other forms of aid--such as Pell 
Grants--enter the equation?
    Response. (The Committee did not receive follow-up information 
regarding the above question.)

    Chairman Akaka. Thank you very much, Mr. Wincup.
    Now we will hear from James Bombard. Your statement, 
please.

             STATEMENT OF JAMES BOMBARD, CHAIRMAN, 
           VETERANS' ADVISORY COMMITTEE ON EDUCATION

    Mr. Bombard. Chairman Akaka, Senator Murray, and Members of 
the Senate Committee on Veterans Affairs, I am pleased to be 
here today on behalf of the Veterans' Advisory Committee on 
Education to provide testimony on several interrelated issues: 
First, VA-DOD cooperation and coordination as it relates to the 
provision of education, earned benefits for veterans, and other 
eligible recipients; second, to address the proposals before 
the Senate dealing with the structural changes to the current 
Veteran Educational Benefit Programs; finally, to provide the 
VACOE recommendations regarding the restructuring of the GI 
Bill.
    It is the VACOE's view that program flexibility and an 
efficient claims processing are the keys to a seamless 
transition. It should be noted that the Committee in the past 
made a number of recommendations designed to increase program 
flexibility, i.e., accelerated payment without restriction, 
expansion of test reimbursement, removing or extending the 
delimiting date, equalizing the benefit of OJT and apprentice 
programs in relationship to IHLs and NCDs, and also removing 
wage progressions for municipal employees under the OJT 
Apprentice Program.
    Seamless transition is difficult to accomplish because when 
the Montgomery GI Bill was created, it was both similar and 
different from previous GI Bills. It was similar in that it 
provided a benefit for veterans who chose to enroll in an 
educational program in an approved institution and paid the 
benefits on a pro rata basis. It was different because previous 
education programs, special rules provided higher education 
benefit levels for a person having eligibility for prior 
Vietnam education programs and lower benefits for persons 
enlisting for a period of less than three years.
    Another unique feature of the GI Bill was that it 
authorized benefits for those in the Selected Reserve, the 
Chapter 1606 program. Additionally, the MGI Bill authorized 
kickers or additional monthly benefits for certain veterans of 
certain military occupations and buy-ups for veterans seeking 
higher monthly rates.
    In addition to the aforementioned features, which add 
substantial complexity to eligibility and payment amount 
determinations, other provisions made the MGIB more complicated 
than previous education programs. Legislation authorizing 
persons eligible for earlier programs to choose to become 
eligible for the MGIB, special top-off, tuition assistance, and 
accelerated licensing certification benefits were authorized. 
Most recently, Chapter 1607 was created for people activated on 
active duty. The eligibility rules and benefit rates for these 
servicemembers are different than those for persons who enlist 
for two or three years in the active duty program or who enlist 
in the regular Selected Reserve.
    To further compound the issue, the adoption of the Total 
Force Structure made the Reserve and Guard an integral part of 
the active-duty force. Hence, some veterans become eligible for 
multiple programs--Chapter 1606, Chapter 1607, and the active 
duty bill, Chapter 30.
    Congress created new initiatives designed to shore up 
existing deficiencies in the current MGIB without dealing with 
the administrative problems inherent in trying to integrate new 
program components in the established Montgomery GI Bill.
    As a result of the proliferation of eligibility categories 
and benefit levels, fewer educational claims are 
straightforward. The complexities of a number of new GI Bill 
opportunities has resulted in a cumbersome data management 
system that does not timely respond to the needs of the 
veterans and other GI Bill-eligible participants. Particularly 
time consuming is the continuous communication between DOD and 
DVA regarding multiple program eligibility.
    The existing array of supplemental GI Bill programs coupled 
with multiple program eligibilities suggest a strong need for a 
comprehensive GI Bill, as outlined in the VACOE letter to the 
Secretary and to Congress on July 8, 2005 entitled, ``The Total 
Force GI Bill.'' It is the Committee's belief that the DVA 
Education Service, in conjunction with Congress, can create an 
effective, efficient claims processing system by adopting the 
following: Restructure the GI Bill, adopt a total force, thus 
streamlining claims processing; create a synergistic 
relationship with Congress to ensure feasibility and support 
for any additional programs associated with the GI Bill; 
improve information exchange between DOD and DVA--the need for 
constant communication between DOD and DVA would be minimal if 
we restructured the GI Bill; invest in the state-of-the-art IT 
system; hire additional staff or, at a minimum, maintain 
budgeted FTEs.
    Second, as per Chairman Akaka's request, the following are 
VACOE's views on the substantive GI Bill proposals before the 
Senate. I have addressed each bill in my testimony, and if I 
address them now, I won't make the 5 minutes. It doesn't look 
like I will make it anyway, but----
    Chairman Akaka. That will be included in the record.
    Mr. Bombard. OK. Thank you. Additionally, as per the 
Chairman's request, is the Veterans' Advisory Committee on 
Education's recommendation regarding the Montgomery GI Bill. 
VACOE has focused on consolidating--VACOE is the Advisory 
Committee--Veterans' Education Benefit Programs into a single 
total force structure, placing them in a department where 
veterans' advocacy is the first priority, and ensuring that a 
fair framework for providing benefits commensurate with the 
nature of military service is established and maintained.
    The architecture of any GI Bill is very important. Shifting 
funding out of Title 10 and placing responsibility for all GI 
Bill administration in the proper cabinet department is the key 
of any future effort to improve the administration and 
fundamental fairness of the GI Bill.
    In conclusion: The famed risk-reward ratio follows the same 
natural calculus as the supply and demand curve. No one in this 
country can honestly say that the risks for our Reservists have 
not increased of late. This proposed total force GI Bill seeks 
to address at least part of the reward scheme for those 
Reservists who are being asked to risk the most. If 
implemented, we envision for the individual Selected Reservist 
a win for the Armed Services and a win for the national 
security. Current GI Bill different titles, Total Force I, 
confusing; Total Force, straightforward. Multiple committees, 
half the committees. Costly redundancies, Total Force saving 
through efficiencies. Different benefits for different risks, 
same benefits for same risks. Delimiting date inequities, same 
delimiting date for everyone. Modest retention incentive, 
increased retention incentive. No Sel Res readjustment benefits 
in the old bill, Sel Res readjustment benefits for Reservists. 
Differing rules for recruiters--it is confusing out there, the 
same rules for recruiters. Recipients are confused, simplified 
for the recipients. Staff training complexities, staff training 
simplified.
    The Total Force proposal provides a unique opportunity to 
create a comprehensive GI Bill that is both fair and simple. 
Its eloquence is its equity and simplicity. The question always 
raised by Congress when considering the GI Bill is, ``can we 
afford it?'' Well, I don't think we can afford not to.
    Thank you for the opportunity to present my views. The full 
report will have attachments that will outline the proposal in 
detail. I am prepared to take your questions.
    [The prepared statement of Mr. Bombard follows:]
   Prepared Statement of James Bombard, Chairman, Veterans' Advisory 
         Committee on Education, Department of Veterans Affairs
                              introduction
    Chairman Akaka, Ranking Member Craig and Members of the Senate 
Committee on Veterans Affairs, in accordance with the statutory charter 
set out in Section 3692, 38 U.S. Code, I am pleased to appear before 
you today on behalf of the Veterans' Advisory Committee on Education 
(VACOE) to provide testimony on several interrelated issues. First, the 
VA/DOD cooperation and coordination as it relates to the provision of 
education earned benefits for veterans and other eligible recipients. 
Second, to address the proposals before the Senate dealing with 
structural changes to the current veterans education benefit programs. 
Finally, to provide the VACOE recommendations regarding the 
restructuring of the GI Bill.
     seamless transition program flexibility and claims processing
    It is the Advisory Committee's (VACOE) view that program 
flexibility and efficient claims processing are the keys to a veteran's 
seamless transition of providing earned education benefits to eligible 
participants. It should also be noted that in the past the Committee 
made a number of recommendations designed to increase program 
flexibility, i.e., accelerated payment without restriction, expansion 
of test reimbursement, removing or extending the delimiting date, 
equalizing the benefit for OJT/Apprentice programs in relation to IHL 
and NCD education/training programs, and removing restrictions on wage 
progression for municipal employees.
    The reason seamless transition is difficult to accomplish is that 
when the Montgomery GI Bill was created by legislation in 1984, it was 
both similar and different from previous GI Bills. It was similar in 
that it provided a benefit for veterans who chose to enroll in an 
educational program at an approved education or training institution. 
Like the previous programs the maximum benefit was payable to veterans 
training full-time, with prorated amounts available for veterans 
training three-quarters time, half time, or less than half time. The 
level of benefits also depended on whether a veteran was attending a 
traditional degree-granting institution or was enrolled in on-the-job 
training, apprenticeship, or cooperative training programs. It was 
different because previous Education Programs (EP), special rules 
provided higher benefit levels for persons having eligibility for the 
prior Vietnam-era EP, with lower benefits authorized for persons 
enlisting for a period of less than 3 years. Another unique feature of 
the Montgomery GI Bill (MGIB) was that it authorized benefits for those 
in the Selected Reserve (Chapter 1606 program), although the maximum 
monthly benefit was much lower than the Active Duty rate. Additionally, 
the MGIB authorized ``kickers'', or additional monthly benefits for 
certain veterans in certain military occupations and ``buy-ups'' for 
veterans seeking higher monthly benefits.
    In addition to the aforementioned features which add substantial 
complexity to eligibility and payment amount determinations, other 
provisions made the MGIB more complicated than previous EPs. The 
inadequacies of EPs which preceded the MGIB led to legislation 
authorizing persons eligible for earlier EPs to choose to become 
eligible for the MGIB. Special ``top-off'' tuition assistance benefits 
and ``accelerated'' or licensing and certification benefits were also 
authorized. Most recently, a new ``Chapter 1607'' EP was created for 
``Reserve Component Members Supporting Contingency Operations and 
Certain Other Operations.'' The eligibility rules and benefit rates for 
these servicemembers are different than those for persons who enlist 
for 2 or 3 years in the Active-Duty program or who enlist in the 
regular Selected Reserve.
    To further compound the issue, the adoption of the Total Force 
structure, made the Reserve/Guard an integral part of the active duty 
force. Hence, some veterans became eligible for multiple programs i.e., 
Chapter 1606, 1607 and 30.
    Congress, although well meaning, tends to create new initiatives 
designed to shore up existing deficiencies in the current MGIB, without 
dealing with the administrative problems inherent in trying to 
integrate new program components in the established MGIB. As a result 
of the proliferation of eligibility categories and benefit levels fewer 
educational claims are straightforward. The complexities of a number of 
new GI Bill opportunities have resulted in a cumbersome data management 
system that does not timely respond to the needs of veterans and other 
GI Bill eligible recipients.
    The VACOE witnessed varying systems at DVA regional offices that 
were not integrated. This created unnecessary, time consuming work for 
adjudicators and other VA claims processing personnel. Particularly 
time consuming was the continuous communication between DOD and DVA 
regarding multiple program eligibility.
    The existing array of supplemental GI Bill programs, coupled with 
multiple program eligibility, suggest a strong need for a comprehensive 
GI Bill program as outlined in the VACOE letter to the Secretary on 
July 8, 2005, entitled Total Force GI Bill.
    It is the Committee's belief that the DVA Education Service, in 
conjunction with Congress, can create an effective, efficient claims 
processing system by adopting the following:

    (1) Restructure the GI Bill; i.e., Total Force, thus streamline 
claims processing.
    (2) Create a synergistic relationship with Congress in order to 
ensure feasibility and support for any additional programs associated 
with the GI Bill.
    (3) Improve information exchange between DOD and DVA. The need for 
constant communication between DOD and DVA would be minimal with 
restructure of GI Bill.
    (4) Invest in state-of-the-art IT systems.
    (5) Hire additional staff to do claims processing or at a minimum 
maintain budget direct FTEs.

    As per Chairman Akaka's request, the following are VACOE's views on 
the substantive GI Bill proposals before the Senate Veterans' Affairs 
Committee. The following analysis and recommendation on the various GI 
Bill proposals before the Senate are based on the principles of equity, 
portability/readjustment and simplicity. Principles upon which the 
VACOE's Total Force recommendations were based.
      s. 22, post-9/11 veterans educational assistance act of 2007
    VACOE supports the intent of S. 22. The current Montgomery GI Bill 
is not geared to realistically fund the cost of higher education/
training. S. 22, by establishing a cap on the GI Bill at the highest 
rate at state public universities, and also providing board room, fees, 
and $1,000 stipend, would better enable veterans to realize their 
earned right to attend college or vocational training for which they 
are best suited.
    It is the VACOE's belief that with the benefit rate increased as 
outlined in S. 22 capped at the highest cost of a public institution, 
coupled with room and board, plus $1,000 a month stipend, would provide 
veterans more choices when they decide on higher education and 
training, and therefore, the Committee supports the benefit rate 
structure put forth in S. 22. Although providing an attractive rate 
schedule, S. 22 does not address the basic structural problem with the 
current GI Bill. In fact, it adds another chapter to Title 38 U.S.C. 
which further complicates its administration.
    What is needed in addition to a realistic benefit rate level is a 
GI Bill that is in consonance with today's Total Force structure, a 
bill that incorporates equity, readjustment and simplicity for all. 
Overall VACOE supports increasing the benefit rate geared to the cost 
of today's higher education and training. It also supports the intent 
of Post-9/11 Veterans Educational Assistance Act of 2007 which is 
designed to provide significant education benefits for GI Bill 
recipients.
              s. 698, the veterans' survivors educational 
                        enhancement act of 2007
    S. 698 would adjust the Survivors' and Dependents' Educational 
Assistance Program by increasing the benefit to $80,000 and permitting 
dependents to draw against the sum for any period between the ages of 
17 and 30. The VACOE supports enhancing educational assistance for 
survivors and dependents of veterans, but the Committee has not, at 
this time, studied the issue in depth. Therefore, the VACOE does not 
have a definitive recommendation on S. 698.
    S. 1261, the Montgomery GI Bill for Life Act of 2007, would 
eliminate the 10-year time limits within which a veteran must use 
educational assistance benefits under the Montgomery GI Bill and make 
benefits available to eligible veterans at any point in their lifetime. 
The VACOE in the past has and continues to support the removal of the 
delimiting date for utilization of GI Bill educational benefits. The 
frequent life interrupting, long term deployments being experienced by 
both active duty and Reserve members make it extremely difficult to 
complete college or vocational training within a 10-year time frame. 
The Committee, after careful study and discussion regarding the purpose 
of the GI Bill, the need for lifelong learning and the possibility of 
frequent interrupting deployments, concluded that the delimiting date 
needed to be rescinded. The VACOE supports S. 1261 which repeals the 
time limits on the GI Bill, but would also recommend inserting language 
permitting members Reserve components to use REAP benefits when 
eligible and after completion of service contract.
    S. 1293, the Veterans' Education and Vocational Benefits 
Improvement Act of 2007 is a step toward solving the problems between 
military service and earned benefits, particularly with the Guard and 
Reserve. The Committee agrees it would be better to change the benefit 
qualifier to cumulative rather than continuous. However, to address the 
issue of equity the benefit would be better served by providing one 
month of benefit for each month a full-time Guard or Reserve member is 
activated.
    The Committee has supported accelerated payment in the past and 
continues to support the concept. This is particularly true when 
veterans are enrolled in high cost, short term educational/training 
programs that lead to vocational or professional objectives. The 
Committee also recognizes the potential for abuse and overpayment. The 
budgetary implications make accelerated payment proposals 
controversial. Therefore, the Committee recommends DVA work closely to 
adopt an accelerated payment provision that both meets the needs of our 
veterans and is fiscally responsible.
    S. 1409, the ``21st Century GI Bill of Rights'' introduced by 
Senator Hillary Clinton. This bill would establish an education program 
modeled on the WWII GI Bill with payment of tuition (capped at national 
average rate), fees, room and board, and books.
    The VACOE believes that veterans have earned the right to attend 
college or the vocational training for which they are best suited; we 
have every reason to believe that the higher education community 
supports that notion. However, the tuition reimbursement benefit under 
the MGIB unintentionally restricts veteran options by authorizing 
benefit rates geared to the cost of higher education at state supported 
colleges and universities.
    The Committee recommended that DVA Secretary Nicholson send a 
letter to private colleges and universities encouraging private 
institutions to recruit today's veterans by offering financial 
assistance that would supplement the benefits of the Montgomery GI 
Bill. The VACOE believes that the attendance of veterans at private 
colleges and universities, as well as public institutions, would 
enhance the education of both veterans and non-veteran students 
currently enrolled, and increase the diversity that most of these 
institutions are seeking.
    It is the Committee's belief that increasing GI Bill benefits as 
outlined in S. 1409 would indeed enhance the possibility of achieving 
the aforementioned objective.
    Therefore, the Committee supports the benefit rate proposal put 
forth in S. 1409. The Bill in total does not, however, address the 
structural problems with the current GI Bill. Although it provides an 
attractive benefit rate, it complicates GI Bill administration by 
adding an additional chapter to Title 38, U.S.C. What is needed is to 
restructure the GI Bill in total that is equitable, portable and 
simple.
    Overall the Advisory Committee supports the intent of S. 1409 to 
increase benefits commensurate with the cost of today's higher 
education/training. The VACOE has no position on Section 3 and 4 of S. 
1409.
    S. 1719 would provide additional educational assistance under the 
Montgomery GI Bill to veterans pursuing a degree in science, 
technology, energy or math. The Advisory Committee encourages and 
supports increasing educational opportunities that would enhance 
national security. The Committee, however, has not studied the issue in 
depth and is unable to at this time comment on the provisions of S. 
1719.
    S. 644, the Total Force Education Assistance Enhancement and 
Integration Act of 2007 re-codifies Title 38 U.S. Code, the provision 
of Chapters 1606 and 1607 of Title 10 U.S.C. relating to educational 
assistance for the members of the Reserve components of the Armed 
forces. The VACOE strongly supports this legislation as it addresses 
the issues of equity, simplicity of administration, and readjustment 
for those reservists eligible under Chapter 1607. It is the Committee's 
view that not to provide a post service benefit for eligible Guard and 
Reserve veterans is a flagrant in equality.
    This legislation supports a GI Bill that incorporates the 
principles outlined in the VACOE's proposal, equity--equal benefit for 
equal service; portability/readjustment--the ability to utilize 
benefits after completing Reserve service; simplicity--understanding 
benefits available to veterans by everyone concerned as well as ease of 
administration. This proposed legislation would, by adopting the 
VACOE's recommendation to re-codify Chapter 1606 and 1607 of Title 10 
U.S.C. to Title 38 U.S.C. and creating a 3-tier structure, simplify the 
MGIB.

    (1) The first tier--similar to the current Montgomery GI Bill--
Active Duty (MGIB-AD) 3-year rate--would be provided to all who enlist 
for active duty. Service entrants would receive 36 months of benefits 
at the AD Rate.
    (2) The second tier or level would be for all who enlist or re-
enlist in the SelRes for 6 years, and this would entitle them to 36 
months of benefits at a pro-rata amount of the active duty rate, (the 
suggested rate if 35 percent of the MGIB-AD rate).
    (3) The third tier would be for members of the SelRes/IRR who are 
activated for at least 90 days. They would receive one month of benefit 
for each month of activation, up to a total of 36 months, at the active 
duty rate. The intent is to provide the same level of benefit as the 
active duty rate for the same level of service.
    3a. These months of full benefits would replace, month-for-month, 
any SelRes entitlements at the second tier.
    3b. The maximum benefit a member of the SelRes could receive under 
this program would be the equivalent of 48 months at the active duty 
rate.

    The architecture of any future GI Bill is very important. Shifting 
funds out of Title 10 and replacing responsibility of all GI Bill 
administration in the proper cabinet department (DVA) is the key of any 
future efforts to approve the administration of the fundamental 
fairness of the GI Bill.
    Realizing this is a complex issue relating to educational benefits 
jurisdictional concerns and the potential impact on national defense 
personnel issues, I can assure the Committee that the VACOE, after 
almost 2 years of developing the Total Force proposal, could find no 
convincing evidence that the REAP benefit calculation would be 
detrimental to reservists nor that portability of benefits under 
Chapter 1607 would adversely effect retention. The Committee believes 
that this Total Force legislation would in fact benefit veterans and 
increase recruitment and retention. The VACOE strongly supports this 
legislation.
    S. 723, the Montgomery GI Bill Enhancement Act of 2007, is a Bill 
to provide certain enhancements to the Montgomery GI Bill Program for 
certain individuals who serve as members of the Armed Forces after the 
September 11, 2001 terrorist attacks, and for other purposes.
    The Montgomery GI Bill Enhancement Act of 2007 exempts members of 
the Armed Forces and Selected Reserve on active duty between November 
16, 2001 and the termination date of Executive Order 13235 from the 
mandatory payroll deductions ($100 for the first 12 months of active 
duty pay) under the veterans' basic educational assistance program. It 
provides for reimbursement of payroll deductions taken prior to the 
enactment of this Act. Allows such members to withdraw an election not 
to receive basic educational assistance.
    VACOE has in the past recommended to eliminate the $1,200 payroll 
deduction and to also provide an opportunity to withdraw an election 
not to receive basic educational assistance. The reimbursement issue 
may create an undo administrative burden, therefore, it might be better 
to utilize those funds to offset the cost of any future GI Bill. The 
VACOE supports both the elimination of the $1,200 payroll deduction and 
the ability to withdraw an election not to receive education benefits. 
The Advisory Committee has not studied the reimbursement issue, 
therefore has no position on that provision.
    Additionally, as per Chairman Akaka's request is the Veterans' 
Advisory Committee on Education's recommendation regarding the MGIB. 
VACOE has focused on consolidating veterans' education benefit programs 
into a single Total Force structure placing them in the department 
where veterans advocacy is the first priority and ensuring that a fair 
framework for providing benefits commensurate with the nature of 
military service is established and maintained.
                              total force
    The Advisory Committee, after nearly 2 years of studying the 
Montgomery GI Bill (MGIB), recommended a fundamental change to the 
structure of the MGIB; and also put forth the framework for a new GI 
Bill that reflects the realities of the Total Force policy.
    It is the Committee's belief that this restructuring is necessary 
to incorporate program flexibility, ease of administration and equity 
of service rendered.
    Both the Active Duty and Selected Reserve (SelRes) programs share 
the same name and are part of the same legislation, but they have 
different purposes. The Active Duty (AD) program revolves around 
recruitment and transition/readjustment to civilian status while the 
SelRes program is designed to promote recruitment and retention, with 
no regard for readjustment or transition.
    The current GI Bill programs did not consider DOD's use of the 
SelRes for all operational missions. Under this policy the SelRes and 
some members of the Individual Ready Reserve (IRR) are considered 
integral members of the Total Force. Reserve members who are faced with 
extended activations require similar transition and readjustment 
benefits as those available to separating AD service men and women. 
Although the new Reserve GI Bill educational benefits program 
authorized under Chapter 1607 of Title 10, U.S. Code attempts to 
address this issue, it remains primarily a retention tool, requiring 
continued Reserve service.
    For these reasons we recommend replacing the separate GI Bill 
programs for veterans and reservists with one program that consolidates 
all GI Bill programs under one umbrella (Title 38, United States Code). 
This would include enrolling all currently eligible personnel in 
Chapters 30, 1606 and 1607 in the new Total Force GI Bill. This 
approach will add value to the Montgomery GI Bill (MGIB) as a 
recruitment and retention tool for the Armed Forces, including National 
Guard and Reserve; establish equity of benefits for returning Guard and 
Reserve members; support Congress' intent for the MGIB (see Attachment 
C); and potentially save taxpayer money through improved 
administration.
                               background
    In the twenty years since the Montgomery GI Bill went into effect 
on June 30, 1985 the Nation's security environment has changed 
radically from a fixed cold war to a dynamic ``Global War on Terror.'' 
In 1991, the Active Duty Force (AF) of the Military stood at 2.1 
million; today it stands at 1.4 million.
    Since 9/11 more than 480,000 members of the 860,000 Selected 
Reserve (SelRes) have been activated. Today approximately 40 percent of 
troops in Iraq are Guardsmen or Reservists.
    Despite this, the Montgomery GI Bill (MGIB) and the Montgomery GI 
Bill--Selected Reserve (MGIB--SR) still reflect the situation that 
existed in 1984. Then the members of the Selected Reserve rarely served 
on active duty. The idea that any projection of U.S. power would 
require the activation of at least some reservists was never considered 
in creating these programs.
    Because most reservists have both careers and families which are 
embedded in towns and cities across the country, these activated 
citizen-soldiers--mayors, police chiefs, firefighters, and small 
business owners--face additional burdens as financial and career 
obligations mount, while their families, employers, and communities 
frequently face significant sacrifices and hardships as well.
    This has led to inequitable situations. First, Selected Reserve 
members and members of the Individual Ready Reserve (IRR) may be called 
to active duty for considerable periods, but less than 2 years. When 
they return to civilian life, what is available to help them readjust? 
They have nothing at all if their active duty is at the end of their 6-
year commitment to the Selected Reserves.
                          proposed total force
    GI Bill In the face of these dramatic changes in the nature of 
Reserve Force (RF) usage, and recognizing that the Active and Reserve 
Forces have become inextricably integrated as a Total Force, the 
Committee is proposing an updated GI Bill which accepts the new 
security realities of the open-ended Global War on Terror, the 
recruiting and retention issues which arise from it, and the expanded 
role that the RF plays in this modern era. The current members of the 
RF are being asked to perform in a manner literally unprecedented since 
WWII.
    As the distinctions between the active and Reserve force continue 
to diminish the difference in treatment between the active and Reserve 
forces in the GI Bill should decline accordingly. Benefits need to 
remain commensurate with sacrifice/service.
    From 1985 through 1990, a period of relative quiescence for the RF, 
Reservists, under Chapter 1606 of Title 10 U.S.C., were receiving 47 
percent of the educational benefit of active force Montgomery GI Bill 
participants. That 47 percent rate remained in effect until roughly the 
turn of this century when the MGIB was significantly enhanced for the 
Active Force.
    Since 1990 the percentage of educational benefit for reservists has 
declined from 47 percent to 29 percent of the active force educational 
benefit, and this decline took place during a period when the 
involuntary mobilization of reservists had begun to accelerate 
significantly.
    The new Total Force GI Bill seeks to move all GI Bill benefits to 
one title, Title 38 U.S.C., and to recognize the added educational 
benefit which should accrue from additional active service.
    This concept would provide MGIB reimbursement rate levels based on 
an individual's service in the Armed Forces, including the National 
Guard and Reserve: a MGIB active duty 3-year rate, a pro rata SelRes 
rate, and a SelRes activated rate which is equivalent to the active 
duty rate on a month-to-month basis after 90 days service.
    See Attachment A for additional detail concerning the proposed 
Bill.
    Chapters 35 and 31 remain as before.
                        benefits of new gi bill
    We anticipate a number of positive effects from this new GI Bill:

    <bullet> The additional educational benefit for active duty service 
provides a necessary one-to-one equity for arduous time served by 
individuals in uniform whether AF or RF.
    <bullet> Under the current Chapter 1606, reservists have 14 years 
from the beginning date of eligibility to use their benefits in 
service. As a result many reservists reach the delimiting date while 
they are still serving in the Selected Reserve. A provision in the 
proposal would extend the time frame during which reservists could 
utilize the education benefit.
    <bullet> A provision allowing reservists ten (10) years from the 
last active/activated duty to utilize their educational benefit adds a 
transition and readjustment element to the traditional recruiting and 
retention elements of the Reserve Component of the GI Bill. This is 
precisely what is now needed since the extended arduous duty of the 
reservist requires transition and readjustment very similar to active 
forces.
    <bullet> Placing the Total Force GI Bill within Title 38 U.S.C. 
will simplify the administration of GI educational benefit for all 
members of the Armed Services both AF and RF, and ensure all future 
benefits are upgraded equitably. (See Attachment B)
    <bullet> The GI Bill also has traditionally been viewed as a 
grateful Nation's way of showing its appreciation for the sacrifices of 
service, separation, and combat. The new GI Bill reflects the new 
realities which have transformed this Nation's security environment 
since the second week of September 2001.
                               conclusion
    No amount of skill compensates for a lack of manpower. In order to 
continue to deter actual and potential adversaries now and in the 
future, we must continue to attract the finest among the willing and 
capable. It is imperative that the forces continue to attract and 
retain high quality men and women to assure the Nation's collective 
security.
    The famed risk-reward ratio follows the same natural calculus as 
the supply and demand curve. No one in this country can honestly say 
that the risks for our reservists have not increased of late. This 
proposed Total Force GI Bill seeks to address at least part of the 
reward scheme for those reservists who are being asked to risk the 
most.
    During a period when a significant portion of those who sign up for 
duty, whether in the active force or in the Reserve force, say that 
they do so, specifically, for the educational benefits, it is important 
to boost recruitment as much as possible by means of this proven 
approach.
    By allowing Reserve Force (RF) retirees to utilize the benefit for 
ten (10) years following retirement, we are both boosting retention as 
well as rewarding the rigors of activation and mobilization.
    Because the Reserve component has come to more closely resemble the 
active component, it is time that the educational benefits for the 
Reserve component come to more closely resemble those of the active 
component. That, in short, is what our proposal, the Total Force GI 
Bill, seeks to do.
    If implemented, we envision wins for the individual Selected 
Reservist, a win for the Armed Services, and a win for our national 
security.

                         Summary of Differences
------------------------------------------------------------------------
              Current MGIB                     Total Force GI Bill
------------------------------------------------------------------------
Different Title........................  One title.
Confusing..............................  Straight Forward.
Multiple Committees....................  Half the Committees.
Costly redundancies....................  Savings through Efficiencies.
Different Benefits for same Risks......  Same benefit for same Risks.
Delimiting date inequities.............  Fair delimiting dates.
Modest retention incentive.............  Increased retention incentive.
No SelRes readjustment benefit.........  SelRes Readjustment benefit.
Differing Rules for Recruiters.........  Same Rules for all Recruiters.
Inequitable Upgrades...................  Equitable Upgrades.
Recipients confused....................  Simplified for Recipients.
Staff Training Complexities............  Staff Training Simplified.
------------------------------------------------------------------------


    This Total Force proposal provides a unique opportunity to create a 
comprehensive GI Bill that is both fair and simple. Its eloquence is 
its equity and simplicity.
    The question always raised by Congress when considering the GI Bill 
is can we afford it. Well, I don't think we can afford not to.

    [Attachments A, B, and C follow:]
                                 ______
                                 
                   Attachment A--Total Force GI Bill
    This Bill would provide MGIB reimbursement rate levels based on an 
individual's service in the Armed Forces, including the National Guard 
and Reserve.

    1. The first tier--similar to the current Montgomery GI Bill--
Active Duty (MGIB-AD) 3-year rate--would be provided to all who enlist 
for active duty. Service entrants would receive 36 months of benefits 
at the AD Rate.
    2. The second tier or level would be for all who enlist or re-
enlist in the SelRes for 6 years, and this would entitle them to 36 
months of benefits at a pro-rata amount of the active duty rate, (the 
suggested rate is 35 percent of the MGIB-AD rate).
    3. The third tier would be for members of the SelRes/IRR who are 
activated for at least 90 days. They would receive 1 month of benefit 
for each month of activation, up to a total of 36 months, at the active 
duty rate. The intent is to provide the same level of benefit as the 
active duty rate for the same level of service.
    3a. These months of full benefits would replace, month-for-month, 
any SelRes entitlements at the second tier.
    3b. The maximum benefit a member of the SelRes could receive under 
this program would be the equivalent of 36 months at the active duty 
rate.

    An individual would have up to 10 years to use the active duty or 
activated-service benefit from their last date of active/activated duty 
or Reserve service, whichever is later. A Selected Reservist could use 
remaining second tier MGIB benefits as long as he/she were 
satisfactorily participating in the SelRes, and for up to 10 years 
following separation from the Reserves, in the case of separation for 
disability or qualification for a Reserve retirement at age 60.
                         additional provisions
    All provisions (e.g., additional contributions), and programs 
(e.g., accelerated payment, approved test reimbursement, etc.) eligible 
for payment under the current MGIB-AD would be available under all 
three levels.
                             dod incentives
    Under this plan DOD would continue to be able to provide 
Recruitment and Retention incentives such as loan repayment, kickers-
college fund, and enlistment bonuses.

               Attachment B--Total Force GI Bill Program
    The following improvements would accrue to GI Bill program 
administration by adopting the new Total Force GI Bill:

    <bullet> The MGIB and the MGIB-SR do not pay for the same training 
although there is no logical reason why they shouldn't. This is the 
result of having funding of MGIB-SR the responsibility of DOD, while 
the funding of basic MGIB is VA's responsibility. Thus, bills affecting 
MGIB-SR are referred to the Senate and House Armed Services Committees 
(SASC and HASC) while bills affecting MGIB are referred to the House 
and Senate Veterans' Affairs Committees (HVAC and SVAC).
    <bullet> These problems could be addressed by replacing the 
separate GI Bill programs (Chapters 30, 1606 and 1607) with one 
consolidated program under Title 38, U.S. Code. This new bill would 
have a continuum of benefits that matched the continuum of possible 
service.
    <bullet> It would provide monthly benefits for activated Selected 
Reservists and reservists from the Individual Ready Reserve with no 
prior service qualifying for MGIB that is proportionate to their actual 
active duty.
    <bullet> It would put funding for the benefits for those in the 
Selected Reserve with VA.
    <bullet> It would make the types of training uniform for all in the 
Armed Forces who would be eligible for this GI Bill.
    <bullet> One set of rules covering one GI Bill would allow for 
better understanding of the program by recruiters, beneficiaries, 
stakeholders and program managers.
    <bullet> Training new claims examiners and processing claims would 
be easier and more efficient as there would be one set of rules.
    <bullet> Systems costs would be lower for the new program as the 
other systems would no longer be required.
    <bullet> Since there would be one program and one set of rules, 
there would not be inconsistent and inequitable structuring of benefit 
levels.
    <bullet> VA would be responsible for all basic benefit payments, 
and would be reimbursed by the agency concerned for any additional 
payments made through ``kickers.'' Currently, the selected Reserve 
basic payment is reimbursed to VA and managed either by DOD or DHS. The 
benefit is that no ``basic'' award would have to be managed outside of 
and reimbursed to VA, but the agency concerned would maintain the 
flexibility to channel critical specialties provided under the current 
programs.

[GRAPHIC] [TIFF OMITTED] T8292.003

                                 ______
                                 
    Response to Written Questions Submitted by Hon. Larry E. Craig 
to James Bombard, Chairman, Veterans' Advisory Committee on Education, 
                     Department of Veterans Affairs
    Question 1. Some of the testimony provided for the hearing reflects 
concerns that reservists' education benefits have not increased at the 
same rate as active duty benefits. Yet, under the ``Total Force GI 
Bill'' concept that the Veterans' Advisory Committee on Education 
supports, some Guard and Reserve members who have been called to active 
duty since September 11, 2001, would actually receive less benefits 
than they would under the current Reserve Educational Assistance 
Program. Does your Committee believe the benefits for some activated 
Guard and Reserves are actually too rich?
    Response. Merely asking the question suggests a belief that such a 
position is reasonable. Of course, it is not a careful reading of the 
Veterans' Advisory Committee on Education (VACOE) Total Force proposal 
or the response of the VACOE to DOD DVA working group report (both of 
which were provided to the SVAC and specifically to the Chairman and 
Ranking Member would provide that the answer is ``NO''. (See enclosed 
addendum report concerning that issue.) However, in the unlikely event 
your assumption is correct we would propose a hold harmless provision. 
In sum, however, the Committee believes in providing equal benefits for 
equal service (I am sure you agree), and in the aggregate the Total 
Force proposal accomplished this end.

    Question 2. As you know, under the Total Force GI Bill concept, the 
Guard and Reserve education programs would be moved to title 38 of the 
United States Code. Your Committee has expressed the view that the 
Department of Veterans Affairs (VA) is ``the proper cabinet 
department'' to have responsibility for these programs. On the other 
hand, the Department of Defense (DOD) has testified that ``[p]lacing a 
military force management program under VA is inconsistent with the 
Agencies' purpose and responsibilities.'' Do you agree that these 
programs primarily serve as a ``force management'' tool? If so, why 
would you want to take that tool away from DOD?
    Response. As I am sure you are aware when the Total Force Structure 
was adopted by DOD, National Guard and Reserve Forces became an 
integral part of the active duty force. Therefore when Reserve and 
Guard personnel are activated they become eligible for veteran benefits 
and are considered veterans.
    By consolidating veterans education benefit programs into a single 
Total Force structure, placing them in the department where veterans 
advocacy is the first priority and ensuring that a fair framework for 
providing benefits commensurate with the nature of military service is 
established and maintained will not only improve the administration and 
fundamental fairness of the GI Bill, but also provide a more efficient 
and effective force management tool for DOD.
    There is no significant evidence that moving Reserve and Guard 
education programs to title 38 would diminish their effectiveness as a 
force management tool. On the contrary, it would increase its 
effectiveness both as a recruiting and retention tool as it provides 
tangible incentive for reservists who know they will be called up 
routinely during their service commitment.

    Chairman Akaka. Thank you very much, Mr. Bombard.
    And now we will hear from Chancellor Jones.

   STATEMENT OF ALLISON G. JONES, ASSISTANT VICE CHANCELLOR, 
               CALIFORNIA STATE UNIVERSITY SYSTEM

    Mr. Jones. Good morning, Chairman Akaka and Senator Murray. 
Thank you for the opportunity to discuss California's Troops to 
College initiative. We commend the Committee for its attention 
to exploring ways to provide enhanced educational access to our 
men and women who have served their country by ensuring all 
those who choose to do so can pursue an education.
    Governor Arnold Schwarzenegger launched the Troops to 
College initiative in March of 2006 to make California the 
Nation's leader and model in providing educational 
opportunities and assistance to active duty servicemembers and 
to veterans. Because of the education benefits earned by our 
military men and women and diversity of California public 
colleges and universities, California recognized that much more 
could be done to serve its veterans and servicemembers to 
provide them with access to a high-quality, affordable 
education.
    The Governor responded aggressively, creating an oversight 
committee to monitor the progress of implementing this 
initiative consisting of the California Secretaries of 
Education, Labor, and Workforce Development, and Veterans 
Affairs, the military commanders of all military service 
branches, and the leaders of the three public university 
systems, which includes the California State University 
Chancellor Charles B. Reed. The Governor also appointed a work 
group with representatives from the military, higher education, 
and Governor's staff. This work group established five task 
forces to address the challenges and roadblocks and to identify 
successful strategies to implement California's Troops to 
College initiative.
    To achieve these outcomes, California's public colleges and 
universities are in the process of expanding and developing 
outreach programs, academic advising, financial aid advising, 
and admission opportunities for active duty servicemembers and 
veterans. In addition, the delivery of instruction both in a 
distance mode as well as on military bases is being implemented 
and expanded.
    Why did the Governor direct California to implement this 
initiative? California is home to an extraordinary number of 
veterans and active duty servicemembers. For example, 
California leads the Nation in the number of veterans. Over 2 
million of the Nation's 24 million veterans reside in 
California. Of active duty men and women in the United States 
Armed Forces, nearly 12 percent are from California. In 
addition, over 20,000 active Air Force and Army National Guards 
are stationed in California.
    The Montgomery GI Bill education benefit is the principal 
reason American men and women enter the U.S. military. In fact, 
we are told almost 96 percent of the veterans are enrolled in 
the Montgomery GI Bill. While approximately 70 percent utilize 
some portion of their benefits, according to the Department of 
Veterans Affairs, there are other sources that tell us that 
less than half actually use the benefits to the completion of a 
degree, and that concerns us.
    While the current usage of these benefits is difficult to 
pin down precisely, it is clear that the veterans and active 
duty servicemembers are under-utilizing the outstanding and 
affordable public educational options available to them in 
California.
    California provides high-academic quality, low-cost 
universities and colleges, and it represents a tremendous 
untapped opportunity for our exiting veterans as well as for 
the men and women stationed in California on active duty, both 
for California residents and for servicemembers who are 
stationed in California who are residents of other States. 
There are three public systems of higher education in 
California. The California State University has 23 campuses, 
the University of California has 10 campuses, and there are 109 
California two-year Community Colleges.
    Yet with 42 two- and four-year colleges and universities 
with a combined enrollment of over three million students, we 
can identify approximately only 10,000 veterans enrolled on our 
campuses who are using their GI Bill education benefits, and 
this is what caught our attention.
    A number of challenges were identified as we began to 
implement this initiative. These included the need for improved 
communication among all stakeholders, especially increasing the 
understanding in the higher education community about relevant 
military and veteran matters, and conversely, improving the 
understanding in the military community about California's 
public institutions of higher education and the opportunities.
    Additional operational challenges were identified and have 
been or are being addressed actively, such as the access of 
college representatives to military installations, and in a 
like manner, access of military representatives to college 
campuses; transfer of credit for military training and 
experience; tuition waiver programs; expansion of on-base 
university outreach programs; increased regional coordination 
between our military bases and colleges; explanation of 
benefits; and the need for campus veterans support teams. One 
of the very first steps the California State University took 
was to convene two State-wide meetings just to explain the 
military education benefits to the colleges and universities as 
well as tuition waivers available to the military.
    California has made considerable progress in working 
through these issues and obstacles, especially in enhancing the 
understanding and collaboration between and among our 
stakeholders. We are working actively with the military 
Transition Assistance Programs, which in California, is housed 
in our Department of Labor and Workforce Development. We are 
establishing campus veterans support teams so that the men and 
women who actually arrive at our campuses have the support once 
they arrive. We are reviewing credit transferability procedures 
with an eye toward advantaging the veteran. We are reviewing 
the Armed Forces Vocational Aptitude Test for possible use in 
lieu of the SAT and the ACT. Finally, we are working with the 
American Council on Education and military representatives to 
provide academic advising and education opportunities to 
severely wounded soldiers.
    There are two special initiatives that the California State 
University is exploring that I want to highlight very briefly. 
The California State University is actively reviewing the 
veteran courses and experience to determine if work that is 
acceptable as elective credit might, in fact, satisfy campus 
general education and lower-division major prerequisite course 
requirements. To give credit on top of what is required for a 
degree is nice, but it does not move that student or the 
veteran on a more timely fashion towards completion of that 
degree, and we want to shorten the time to degree by offering 
credit that applies directly against those credits that 
students need for the completion of the degree.
    We are also exploring the possibility of developing a new 
admission requirement for active duty personnel and veterans 
that recognizes the recent training and coursework received in 
the military rather than basing admissions solely on a high 
school academic record. It came to our attention when our 
Chancellor and Presidents spent two days at Camp Pendleton 
where we learned firsthand the extent to which the military 
training and experience relies heavily upon science, 
mathematics, and leadership skills requiring clear 
communication. At the conclusion of our visit, we asked 
ourselves whether it was necessary to base college admission on 
the basis of what these men and women did when they were in 
high school after having served four years or more in the 
military defending our country after understanding more clearly 
the education and experience they have received. We should look 
at where those men and women are today based upon their 
training and experience and not be as concerned with their 
academic record in high school. We are are now exploring the 
identification of an admission policy that recognizes this 
training and experience.
    I apologize for exceeding the time. We have several next 
steps that I could describe, but the written testimony provides 
this detail. I simply will conclude that we are making great 
progress and would invite any questions that you might have.
    [The prepared statement of Mr. Jones follows:]
  Prepared Statement of Allison G. Jones, Assistant Vice Chancellor, 
                   California State University System
                              introduction
    Chairman Akaka, Ranking Member Craig, and Members of the Committee, 
thank you for inviting me to discuss California's ``Troops to College'' 
initiative and the role played by the California State University in 
the program, which is designed to provide educational opportunities to 
active duty men and women serving in our Armed Forces and to veterans 
who have served their country. The California State University commends 
the Committee for its attention to exploring ways to provide enhanced 
educational access to these men and women, many of whom have served 
with distinction in Afghanistan and Iraq, by ensuring that all who 
choose to do so can pursue a post-secondary education.
    Today, I am pleased to share with you information about 
California's Troops to College initiative, which was announced by 
Governor Arnold Schwarzenegger in March 2006. Led by system Chancellor 
Charles B. Reed, the California State University system has taken a 
particularly aggressive role in this initiative, whose mission is to 
make California the Nation's leader and model in providing educational 
opportunities and assistance to active duty servicemembers and 
veterans. As part of this effort, the California State University has 
been working with the full range of stakeholders throughout the state 
to expand its outreach programs, academic advising, and financial aid 
advising in addition to providing on-base classes and distance 
education opportunities. My remarks will detail California's Troops to 
College initiative, the challenges California has faced in implementing 
this program, the progress to date, and the exceptional achievements 
California State University campuses have made in expanding their 
outreach and education programs to active duty personnel and veterans.
    To place into context the role of the California State University, 
I would like to begin by sharing with you information about our 
university system and students.
                    the california state university
Background
    Few, if any, university systems can match the scope of the 
California State University system. The California State University is 
the largest 4-year university system in the country, with 23 campuses, 
approximately 417,000 students and 46,000 faculty and staff.
    Its 23 campuses are distributed throughout California to ensure 
access to the largest number of students. The California State 
University's mission is to provide high-quality, affordable education 
to meet the ever-changing needs of the people of California. Since the 
system's creation in 1961, it has awarded about 2 million degrees. We 
currently award approximately 84,000 degrees each year.
    The California State University plays a critical role in preparing 
outstanding candidates for the job market. Our graduates help drive 
California's aerospace, healthcare, entertainment, information 
technology, biomedical, international trade, education, and multimedia 
industries. The California State University confers 65 percent of 
California's bachelor's degrees in business, 52 percent of its 
bachelor's degrees in agricultural business and agricultural 
engineering, and 45 percent of its bachelor's degrees in computer and 
electronic engineering. The California State University also educates 
the professionals needed to keep the state running. It provides 
bachelor's degrees to teachers and education staff (87 percent), 
criminal justice workers (89 percent), social workers (87 percent) and 
public administrators (82 percent). Altogether, about half the 
bachelor's degrees and a third of the master's degrees awarded each 
year in California are from the California State University.
    One key feature of the California State University is its 
affordability. For 2007/2008, the California State University's 
systemwide fee for full-time undergraduate students is $2,722. With 
individual campus fees added in, the California State University's 
total fees average $3,215, which is the lowest among any of the 
California State University's comparison public institutions 
nationwide.
California State University Students
    California State University students are not necessarily the 
traditional 18- to 22-year-olds. A recent survey of California State 
University students revealed the following about students enrolled at 
the California State University:

    <bullet> The average undergraduate age is 25,
    <bullet> About 88 percent are commuters,
    <bullet> 44 percent are independent from their parents,
    <bullet> Nearly 25 percent have dependents,
    <bullet> Four out of five have jobs, and 36 percent work full time,
    <bullet> Nearly 30 percent of the students are the first generation 
in their family to attend college,
    <bullet> 40 percent come from households where English is not the 
main language spoken, and
    <bullet> 54 percent of California State University students are 
students of color.

    The California State University prides itself on its ability to 
provide college access to students across California's increasingly 
diverse population. The California State University provides more than 
half of all undergraduate degrees granted to the state's Latino, 
African American and Native American students.
    Additionally, California State University students are closely 
connected and committed to the communities in which they live. More 
than 185,000 California State University students participate in 
community service annually, donating nearly 30 million hours, the 
minimum wage equivalent of $200 million.
The CSU and the Economy
    In today's economy, higher education is more important than ever. 
According to the Census Bureau, a college graduate's lifetime earnings 
($2.1 million) are almost double that of a high school graduate. But a 
higher degree is more than just a ticket to a better job. It can 
improve the economic situation of both individuals and their 
communities. That's why it is in everyone's interest--communities, 
businesses, and educators--to help students succeed in school and 
pursue the highest degree they can. In fact, we cannot state this fact 
strongly enough: The future success of our country's economy is 
inextricably linked with the educational attainment of our students.
    Given this conviction, the California State University recently 
sought to measure its impact, economic and otherwise, on California's 
businesses and communities. A comprehensive study of the California 
State University and its campuses found that California State 
University-related expenditures create $13.6 billion in economic 
activity, support 207,000 jobs and generate $760 million in state taxes 
in a year. The report also found that the state of California reaps a 
fourfold benefit from every dollar it invests in the California State 
University. This study further cemented our belief that the California 
State University's work is tightly bound to that of our local 
communities and economy. Essentially, we see ourselves as building 
bridges--building continuity across the spectrum from education, to the 
economy and workforce, to the community.
    All of these characteristics of the California State University 
have positioned it to provide exceptional access to active duty 
servicemembers and to veterans.
               troops to college: a california initiative
California Military Demographics
    California is home to an extraordinary number of veterans and 
servicemembers. For example, the state leads the Nation in the number 
of veterans: approximately 9.2 percent (2.2 million) of the Nation's 24 
million veterans reside in California. Of active duty men and women in 
the U.S. Armed Forces, 11.7 percent (170,000 of 1.45 million) are from 
California. Over 12 percent of all active duty personnel are stationed 
in California (175,000 of 1.45 million). In addition, more than 20,000 
active Air Force and Army National Guard are stationed in California, 
over 3,000 of whom are currently deployed worldwide.
    The Montgomery GI Bill education benefit is a principal reason 
American men and women enter the U.S. military. Each member of the 
military who either serves in California or is a California resident is 
a potential candidate for admission to one of California's 109 
California Community Colleges, 23 California State University campuses, 
and 10 University of California campuses.
    The U.S. Department of Veterans Affairs (USDVA) estimates that 
27,000 veterans migrate to California annually. According to USDVA, the 
average age of these exiting veterans is 27.3. Eighty-four percent are 
male, and sixteen percent are female. Ninety-six percent of exiting 
veterans are enrolled in the Montgomery GI Bill. According to the 
USDVA, approximately 70 percent utilize some portion of their benefits, 
but sources at military.com have estimated that fewer than 50 percent 
actually use their education benefits toward the completion of a 
degree. According to USDVA, just 41,000 veterans are currently using 
such benefits in California.
    While current usage of benefits is difficult to pin down precisely, 
it is clear that veterans (and active duty servicemembers) are 
underutilizing the outstanding and affordable public educational 
options available to them in California. The California Community 
Colleges, the California State University, and the University of 
California represent tremendous untapped opportunities for exiting 
veterans, both for California residents and for servicemembers 
stationed in California.
California Public Colleges and Universities
    California is uniquely positioned to serve the Nation's veterans 
and men and women on active duty. There are three public systems of 
higher education in California.
    The California Community Colleges provide educational, career and 
technical education, and transfer programs to over 2.5 million students 
in its 109 community colleges. See http://www.cccco.edu/. As described 
above, the California State University provides low-cost, accessible 
and affordable education to over 417,000 students at its 23 campuses. 
See http://www.calstate.edu/. The University of California provides 
world-class undergraduate and graduate education through the doctoral 
level to over 209,000 students at its 10 campuses. See http://www.
universityofcalifornia.edu/.
State Benefits for Veterans and Servicemembers
    California law waives the state's non-resident tuition for active 
duty men and women and their dependents who are not California 
residents and who enroll in college while stationed in California. Non-
resident tuition is also waived for veterans who were on active duty 
for more than one year immediately prior to discharge. Non-resident 
tuition is waived for their dependents as well. Thereafter, it is 
expected that veterans and their dependents who enroll in California 
public universities will become California residents (a relatively 
simple process); thus, effective with their second year of enrollment 
they would continue to be entitled to pay only the in-state fees.
    This is an important benefit. At the California State University, 
for example, all students, both California residents and non-residents, 
are required to pay the undergraduate California State University State 
University Fee of $2,772. California State University non-resident 
tuition (an additional $10,170) is waived for qualified non-California 
residents.
California's Troops to College Initiative
    Because of California's role in leading the Nation in the number of 
veterans and active duty personnel and the availability of California 
public higher education, in March 2006 Governor Arnold Schwarzenegger 
charged the California Community Colleges, the California State 
University, and the University of California, working in collaboration 
with all military branches, and the California Departments of Veterans 
Affairs, Education, and Labor and Workforce Development to expand 
education opportunities for active duty servicemembers and veterans to 
achieve his vision that California will become the Nation's leader and 
model in providing them with educational opportunities and assistance. 
To achieve this outcome, the California Community Colleges, the 
California State University, and the University of California will 
expand their respective outreach programs, academic and financial aid 
advising, and admission opportunities for active duty servicemembers 
and eligible veterans, in addition to providing on-base classes and 
distance education.
    To oversee the development, implementation, and evaluation of 
effective programs, the Governor appointed a committee to review the 
status and achievements, and to establish the future goals of Troops to 
College. The oversight Committee provides policy direction and guidance 
to both state and military organizations on key active duty and 
eligible veteran's issues. The Oversight Committee includes the 
California Secretaries of Education, Labor and Workforce Development, 
and Veterans Affairs, the chancellor of the California State 
University, the chancellor of the California Community Colleges, the 
president of the University of California, and the following military 
commanders: Commander Marine Corps Installations West; Commander Navy 
Region Southwest; Commander Space and Missile Systems Center (Los 
Angeles Air Force Base); Commander National Training Center (U.S. Army, 
Fort Irwin); Commander U.S. Coast Guard, Pacific Area (Alameda); and 
the Adjutant General, California National Guard.
    The day-to-day implementation of the Troops to College is overseen 
by the Veterans' Workgroup chaired by Colonel Bucky Peterson, USMC 
(Ret.), the former Vice President for Development at Sonoma State 
University, who is now the Liaison to California's Secretary of 
Education and Special Assistant to the Chancellor of the California 
State University on matters pertaining to active duty and veterans post 
secondary education. Allison G. Jones, Assistant Vice Chancellor, 
Academic Affairs, Office of the Chancellor, the California State 
University, provides Colonel Peterson and the initiative with broad 
support from the Chancellor's Office and expertise on all facets of 
student academic support.
Implementation
    A number of challenges faced the group as efforts began to 
implement the Governor's vision. These included improving 
communications among all the stakeholders, and especially increasing 
understanding in the higher education community about relevant military 
and veteran matters, and conversely, improving understanding in the 
military community about California's public institutions of higher 
education.
    Under the aegis of the Veterans' Workgroup lead by Colonel 
Peterson, California higher education began to implement programs to 
support the Troops to College initiative in May 2006. Five issue and 
program areas were identified that needed special attention, and a task 
force was assigned to each area to develop and implement programs that 
would support this initiative. These five task forces and the 
achievements to date are outlined below.
Communications, Marketing, and Website Task Force
    This task force developed and implemented a veteran website 
template for use by colleges, universities, and the military, including 
links between the military and colleges and universities, military.com, 
and the Office for Veteran's Affairs. All campuses established a ``Vets 
Corner'' on their respective campus websites in support of providing 
timely information to active duty servicemembers and veterans 
interested earning a baccalaureate or graduate degree. Information 
about college admission requirements, costs, transfer of military 
credit, and other campus veteran support programs is included on these 
websites, and this information was also distributed to all Education 
Service Officers (ESO).
Veteran's Outreach Task Force
    The Veteran's Outreach Task Force developed and implemented 
information outreach programs targeted to those on active duty and to 
veterans about educational opportunities at California public colleges 
and universities. Community events, organizations, and agencies that 
work directly with veterans, in addition to county veterans services 
and veterans hospitals, were identified and provided with information 
about the Troops to College initiative.
    This task force has provided information to active duty and 
veterans about education requirements for careers related to military 
experience, implemented the Hire a Hero, Hire a Vet Initiative, 
incorporated ``Troops to College'' into the California Department of 
Veterans Affairs training program, and provided outreach briefings to 
Veterans Service Organizations and County Veterans Services Offices. 
Participation in the Transition Assistance Program (TAP) was identified 
as an effective means to introduce information about California public 
colleges and universities in a more focused way.
    While outreach to veterans was initially addressed, it became clear 
early in the implementation phase that California needed to reach 
active duty personnel well before they began to transition out of the 
military. As a result, the task force turned its attention to 
identifying and implementing programs to reach men and women on active 
duty. To achieve this outcome, all colleges were asked to join the 
Servicemembers Opportunity College (SOC) and to become active in GoArmy 
and in the Education Support Center (National Guard). College and 
universities were encouraged to invite all Education Service Officers 
to their campuses and to conduct Montgomery GI Bill education benefit 
workshops.
Admission and Financial Aid Task Force
    Conversations between military and university representatives 
quickly highlighted the areas of confusion about university admission 
policies, including the transferability of military credit. As a 
result, the task force is reviewing The American Council on Education 
(ACE) Guide on acceptance and transferability of credit and service 
experience and with the goal of providing a seamless transition between 
the military and higher education and shortening the veteran's time to 
earn a baccalaureate degree.
    The Admission and Financial Aid Task Force is also engaged in 
reviewing the Armed Forces Vocational Aptitude Test (ASVAB) in order to 
develop an SAT equivalency. The ASVAB was originally designed to 
predict future academic and occupational success in military 
occupations. Numerous validation studies indicate the ASVAB assesses 
academic ability and predicts success in a wide variety of occupations, 
and there is interest from some colleges and universities to use the 
ASVAB for admission purposes.
    Residency provisions contained in the California Education Code for 
members of the Armed Forces need to be reviewed and modified as 
necessary to provide greater access and waiver of non-resident tuition 
for all members in the Armed Forces, including the National Guard. On 
July 5, 2007, the Los Angeles Times reported that Governor 
Schwarzenegger will continue to seek ways to include support in the 
state's budget to provide assistance with college tuition to ``the 
27,000 active duty and National Guard members returning from 
overseas.''
    Finally, the task force is identifying policies and/or waivers 
currently available to help increase admission to and better transition 
of active duty personnel and veterans to public colleges and 
universities in California in addition to identifying financial 
assistance packages available to increase their access to higher 
education campuses.
Partnership Matrix Task Force
    The Partnership Matrix Task Force has identified contacts at each 
California military base and college campus, implemented active on-base 
university outreach programs, developed regional service centers 
consisting of military bases and campuses to provide services, 
increased communication between military bases and campuses, developed 
policies and protocols for access to military bases and access to 
university campuses, and developed a college counseling corps 
consisting of veteran college alumni to work with active duty 
servicemen and women.
Best Practices Task Force
    This task force has effectively identified models of best practices 
among campuses and military services that support education for 
veterans in California public universities, and it is encouraging all 
universities and colleges to implement these practices in order to 
reach out more effectively to active duty and veterans. As examples, 
this task force has developed education fair guidelines to conduct 
successful education fairs on military installations, developed 
veterans support teams to assist ``soldiers'' to transition to becoming 
students, and developed and implemented effective outreach programs 
that include participation in job and education fairs, campus veterans 
support teams, and websites.
    The task force has identified a new program, ``Boots to Books'' 
that was developed at Citrus College, a California Community College 
located about 30 miles east of Los Angeles. This innovative program is 
designed to help veterans transition to civilian life and the college 
environment. It is the first of its kind in the Nation to provide a 
positive transition step for combat veterans. Taught by a VA counselor 
who is a combat veteran, all veterans and their families may enroll in 
this course which is about combat stress, Post Traumatic Stress 
Disorders, and other issues affecting veterans returning to civilian 
life. The curriculum is specifically designed to increase the student 
veteran's academic, work, and social success. The class will teach 
participants interpersonal skills, methods of adapting to civilian life 
and work careers, and techniques for managing military operational 
stress. For fall 2007, this course will be a hybrid with an existing 
counseling course on a trial basis, but it is hoped that the course 
will become a stand-alone course in the near future. The Troops to 
College workgroup is exploring ways to expand the availability of 
courses like this one elsewhere in the state.
             california state university activities to date
    The California State University has taken the lead in implementing 
the Troops to College initiative. All 23 California State University 
campuses have established campus veterans support teams that include 
the deans/directors of enrollment management and admission, directors 
of academic outreach, campus veterans' liaison (certifying official, 
military volunteer (retiree), veterans' work-study program), directors 
of disabled student services, directors of health services and 
psychological services, and directors of career centers.
    In addition, all California State University campuses have 
implemented veterans' web sites, identified a campus contact person and 
office that active duty personnel and veterans can contact for 
individual advising, and implemented regional partnerships with 
military bases. Campus teams are meeting regularly with military 
education service officers and regularly visiting military bases to 
provide onsite counseling and information and analysis of military 
personnel transcripts. The California State University is also 
developing distance education programs that will serve active duty men 
and women.
    The Best Practices Task Force identified the following best 
practice models developed and implemented at California State 
University campuses that have been recommended for implementation at 
all campuses: transition programs (San Diego State University), 
veterans affairs specialists (California State University Sacramento), 
regional partnership development (California State University San 
Marcos), outreach (Humboldt State University), and web pages (Humboldt 
State University, California State University Sacramento, California 
State University Chico).
    The California State University recently met with the American 
Council on Education's (ACE) Director of Program Evaluations, Center 
for Lifelong Learning, to discuss ways that the California State 
University can partner with ACE to provide advice to campuses on how to 
use more effectively the ACE Guide to the Evaluation of Educational 
Experiences in the Armed Services to assess military courses and 
experience. For more than a half century, ACE's Guide to the Evaluation 
of Educational Experiences in the Armed Services has been the standard 
reference that colleges and universities use to evaluate learning 
acquired in military life. With ACE's assistance and guidance, the 
California State University will be reviewing military courses and 
experience to determine if work that has been historically been 
acceptable as elective credit might satisfy campus general education 
and lower division major prerequisite courses. This would shorten the 
time to the degree. The California State University has accepted ACE's 
offer to send ACE representatives to California to meet with campus 
transcript evaluators to discuss how to assess credit on the basis of 
the course descriptions. Because the acceptance of academic credit 
involves faculty, ACE has offered to send faculty from other 
universities who more routinely use the ACE guide to meet with 
California State University faculty to explain the content and rigor of 
the courses. ACE has been successful in helping faculty at other 
universities understand how to make informed decisions about credit for 
courses taken in the military as well as credit for experience.
    As a result of the Troops to College initiative and discussions 
between the California State University chancellor and presidents with 
military leaders, CSU has confirmed ACE's findings that the men and 
women who serve in today's military frequently recognize that they are 
capable of handling college-level work after their training, regardless 
of their high school academic record. Moreover, much of the training 
received in the military is heavily grounded in science, mathematics, 
and technology. Therefore, the California State University is exploring 
with its administrative and faculty leadership the possibility of 
developing a new admission requirement for active duty personnel and 
veterans that recognizes recent training and coursework received in the 
military, rather than basing admission solely on a high school academic 
record.
    The California State University is also working with ACE and 
military personnel in California to provide academic advising and 
education opportunities to severely wounded soldiers.
    ACE has indicated that the U.S. Department of Veterans Affairs data 
suggest that 82 percent of those with a 20 percent disability rating 
enroll in post-secondary education. ACE is planning a series of web-
based seminars for military vocational rehabilitation counselors who 
provide information about academic planning and advising. The 
California State University will participate in these seminars.
                               next steps
    To build upon the achievements to date, the Troops to College 
initiative will continue to implement the following programs:

    <bullet> Expand advertising and promotion;
    <bullet> Expand regional partnerships;
    <bullet> Expand consistent use of ACE Guide in the evaluation of 
military training for academic credit;
    <bullet> Develop statewide veterans' website;
    <bullet> Expand student veterans clubs;
    <bullet> Explore services to wounded veterans;
    <bullet> Pilot for distance learning program;
    <bullet> Support California State University-sponsored legislation 
(Assembly Bill 950) to expand California's tuition waiver for graduate 
students; and
    <bullet> Support national legislation to provide enhanced 
educational benefits to National Guard.
Proposed Legislation Regarding Education Benefits for Veterans
    The California State University is deeply concerned with the 
affordability of a college education for all students, and is committed 
to ensuring access to our Nation's active duty personnel and veterans. 
The California State University strongly supports legislation aimed at 
increasing and improving benefits for veterans, and believes that 
efforts to enhance educational benefits for the Reserve and National 
Guard in particular would help broaden the scope and success of 
initiatives like Troops to College.
                                summary
    The active and constructive collaboration between the State of 
California, the U.S. Armed Forces and veterans' entities is already 
yielding results. More active duty personnel and veterans are exploring 
high quality, affordable public educational opportunities in California 
as a result of the increased partnerships between all stakeholders in 
California. More classes are being offered on base to active duty 
personnel. State institutions are offering improved advice and services 
to veterans and military personnel. The California Community Colleges, 
the California State University, and the University of California are 
becoming the schools of choice for active duty servicemembers and 
eligible veterans.

    Chairman Akaka. Thank you. Thank you very much, Chancellor 
Jones.
    My question is to Mr. Wincup. Thank you for your testimony. 
You certainly make some very interesting points regarding the 
tuition approach versus the monthly benefit approach. Do you 
have any reservations about the impact of the tuition approach 
on retention of personnel?
    Mr. Wincup. Mr. Chairman, I think you always have to be 
concerned about the retention issue. It is no mean feat to 
manage the all-volunteer force. But our Commission tried to 
take that into account when we made our recommendation by 
allowing the services discretionary authority to transfer that 
benefit to family members. If they felt that there was an 
individual who might be willing to stay, but was getting out in 
order to use his benefit, we felt that there was an opportunity 
there, at the discretion of the Services, to transfer that to 
their family members so that the individual might choose to 
stay in order to take advantage of the benefit.
    Chairman Akaka. Mr. Bombard, let me first compliment you on 
your excellent testimony. Your summary of the current state of 
educational benefits was very well done.
    Mr. Bombard. Thank you.
    Chairman Akaka. Could you comment on the extent to which 
you believe the complexity of the current system results in 
failure to achieve optimal recruitment, retention, and 
readjustment goals?
    Mr. Bombard. Realizing that this is a complex issue related 
to educational benefits, jurisdictional concerns, and the 
potential impact on national defense personnel issues, I can 
assure the Committee that the VACOE, after almost two years of 
developing the Total Force proposal, could find no convincing 
evidence that would be detrimental for Reservists either in 
recruiting or in retention.
    I took the Advisory Committee to Camp Pendleton and we had 
a tremendous town meeting. They all agreed that the education 
benefit does not enter into whether they will stay on active 
duty or whether they will continue in the Reserves. The 
evidence indicates otherwise. There are greater factors that 
enter into whether a person stays.
    I will grant you that education is a great recruiting tool 
and that is going to remain the same. I still think that 
portability and the ability to take the benefit with you when 
you leave has an attractiveness to recruit people as well as 
for them to stay. As it is now, only 40 percent of the people 
who stay in the Reserves take advantage of the education 
benefit.
    We could find no evidence, and the Advisory Committee was 
composed of people from DOD, the resident experts from VA, who 
all supported the Total Force proposal completely and helped 
develop it, all of whom have since retired, but there is no 
convincing evidence that this would be detrimental to national 
security, recruitment, or retention. I think if you more 
efficiently manage this program and provide the incentives 
necessary, it would help both recruitment and retention.
    There just wasn't--it wasn't a significant concern. Even 
when I testified in Arkansas at a House hearing, the Adjutant 
General from Arkansas agreed, and the people in the room, all 
of which were returning Iraqi veterans, agreed that they would 
rather have a comprehensive bill that is understandable and 
meets the needs of higher education today.
    Chairman Akaka. Thank you, Mr. Bombard.
    Chancellor Jones, thank you for your testimony on the work 
California is doing for veterans' higher education. I think it 
is very positive and it is a positive thing when States are 
active on veterans' issues. Please tell me what, if any, 
obstacles has Troops to College encountered and that you think 
we could address in 
Congress.
    Mr. Jones. We have identified several obstacles, at least 
in California, but what we have taken the initiative to resolve 
those by continued collaboration and discussions with our 
military partners. We work very closely with all branches of 
the military in California.
    Access to the bases was a major issue that we identified 
early as we launched this initiative. Understanding the GI and 
college education benefits as well as the complexity of these 
benefits was another obstacle. California actually waives non-
resident tuition for men and women stationed in California who 
are not California residents and their dependents, but few 
military members are aware of this benefit.
    We are not coming to Congress at this time to ask for 
assistance in addressing the obstacles we have identified. 
However, we strongly support national legislation to provide 
enhanced educational benefits for veterans, including 
educational benefits for Reserve and National Guard. This would 
help broaden the scope and success of the initiatives in 
California because of the number of National Guardsmen and 
women that we have in the State.
    The Governor has been very clear, as recently as about 
three weeks ago, to again go to the legislature to seek 
additional support for National Guardsmen and women, but we 
need to see at the Federal level, I think, some additional 
expansion of benefits for the National Guardsmen and women, as 
you have been discussing this morning.
    I don't know if that has been responsive to your question 
or you had a specific area you wanted me to address, but----
    Chairman Akaka. Thank you very much, Mr. Jones.
    Senator Murray?
    Senator Murray. Well, thank you very much to all three of 
you for your testimony today. And Mr. Bombard, I was glad to 
hear what you just said because I think there is this sort of 
unwritten, ``we don't want to give a lot of education benefits 
out'', that will encourage people to move out of the Armed 
Services because of recruitment. I think that especially 
today's younger people who are going into the services are like 
any young people who are wanting to have a lot of different 
choices in their future, and if they see going into the service 
as eliminating those choices and confining them to one space, I 
think that is something that works against recruitment and 
retention in the services.
    I think knowing going in that they will have the 
opportunity to use their experiences in many ways, including in 
the Armed Services as well as others, is why we are seeing 
today that they are looking at what kinds of education benefits 
they have and it hopefully defeats that argument that we hear 
in too many back rooms today, that don't give them education 
benefits, we need to keep them.
    So I appreciate your testimony on that.
    Mr. Bombard. Thank you. I believe that to withhold 
educational benefits for someone who has carried the freight, 
so to speak, and they are only about 1 percent of the eligible 
people who are carrying it, is kind of coercive. They earned 
the benefit. Give it to them.
    Senator Murray. Exactly. Thank you very much for that.
    Mr. Jones, I was delighted to hear your testimony because I 
have heard from many of our veterans a real frustration that 
what they have done on the ground overseas doesn't benefit them 
at all in terms of what they can go into or whether they get 
any credit for it or any time off from going to college, and 
you are absolutely right. What they did in high school 4 years 
prior to that is extremely different.
    I have talked to medics who have been on the ground for 
well over a year, not once but twice and sometimes three times, 
doing unbelievable things within the health care field, but 
they have to come back and start at first semester when it 
comes to nursing or any other medical degree that they might be 
looking at, which is just a waste of their time and ours, as 
well as many other fields.
    So I really appreciate your taking a look at that, and 
often what I heard was the language of the military is just 
different than the language of academia, and because of that it 
puts up a barrier for our veterans. So I appreciate your 
attention on that. If you could speak to that a little bit, I 
would appreciate it.
    Mr. Jones. Yes. Thank you, Senator Murray. I would agree, 
absolutely, and in fact, since we have launched this 
initiative, I have actually met with a number of men and women 
who were medics in the military who want to come back into 
education. In our system of 23 campuses, 18 offer nursing 
programs. In addition, the California Community Colleges and 
University of California have nursing programs. The California 
State University was able to admit them and enroll them, using 
a special admission category based on their experience in the 
military.
    Our initiative has led to, as well, the whole issue of 
meeting California's workforce and labor needs. While our 
Troops to College initiative began as an initiative for 
veterans, it very quickly came to an attention that we needed 
to address the needs of active duty men and women, including 
the delivery of instruction on bases as well as on distance 
basis. So we are exploring ways of providing instruction to men 
and women stationed on bases and in Iraq or Afghanistan. We are 
very aggressive in this.
    We are now offering more courses on our military bases in 
response to the men and women in the military who tell us that 
public colleges in California haven't been accessible. Active 
duty men and women have told us that we need to understand that 
they have an obligation to work on bases. One indicated that at 
Camp Pendleton, she could not drive to San Diego State or Cal 
State-San Marcos because of the traffic pattern. She could not 
make it in time for classes. So she challenged us to offer 
classes on base. And now we are doing it. The community 
colleges are doing that. So we are finding ways to deliver 
instruction to active duty men and women that meets their 
schedule.
    To address the issues of credit and transferability, we 
have been working very closely with the American Council on 
Education. This Presidential association developed their ACE 
Guide which describes the content of courses and which should 
be transferable for credit. I have been working with the 
American Council on Education on this issue, and they are going 
to send at my request, some of their experts to California to 
meet with all of our admissions directors and our transcript 
evaluators. We will have a full-day session on how to interpret 
and to understand better the breadth of experience that our 
military men and women covered in their courses, training and 
experience so that universities can apply this work towards the 
degree.
    In addition, we are bringing out faculty that ACE has 
identified to meet with our faculty. The awarding of academic 
credit is a faculty issue, and we believe they will understand 
better the content and the breadth and the depth of what that 
student has covered and how it relates to the lower division 
and/or major coursework after talking with faculty members from 
universities who are more familiar with the courses ACE has 
identified.
    Credit transferability has been the biggest issue 
identified when we began our discussions with military 
representatives in our work group. The military representatives 
were very clear with higher education representatives in the 
first few meetings about the restrictive way colleges accept 
military credit. Their allegations were absolutely correct. 
Higher education can get too caught up in itself, but there is 
a way of reviewing credit transferability that will advantage 
the men and women who serve our country. But it is that 
dialogue that continues.
    Senator Murray. And are you expanding that to all 
universities? Is everybody getting the information that you are 
acquiring, or is it just in California?
    Mr. Jones. I am not sure I am clear on the question. Would 
you ask it again?
    Senator Murray. Well, you are learning a lot and you are 
breaking down some barriers that need to be brought down. Are 
you expanding that knowledge to other universities across the 
country so no matter where you are, you will be able to one day 
go to college based on some of your experience, or are you just 
talking within California?
    Mr. Jones. We are focusing right now on California because 
about 60,000 men and women exit the military each year in 
California and we would like them to take advantage of our low-
cost and quality education. But, we are sharing our successes 
with other states as well as with Members of Congress. We met 
at Balboa Naval Hospital last week at the request of the 
American Council on Education, to start a program for the 130 
wounded warriors at Balboa Naval Hospital. One of the ideas 
that we have explored and what we are going to be doing is to 
hire a full-time individual to counsel and advise these men and 
women about education opportunities. One of the agreements we 
just made a week ago yesterday in San Diego was to provide 
education counseling about opportunities in California as well 
as in other states. Many of these men and women will return to 
their home States and we want to provide education information 
to them about returning to their home States, as well, by 
helping them making those connections with colleges in their 
home States.
    Other States are contacting us for more information about 
our Troops to College initiative. I must tell you, the 
California State University, under the leadership of our 
Chancellor Charles B. Reed, is light years ahead of just moving 
forward on this----
    Senator Murray. Well, I am hoping that you are sharing your 
information nationally so that other States and universities 
will start to take a look at what you are doing, and I 
appreciate that. And if you identify any barriers that need to 
be addressed at the national level or additional support that 
would help, you get through that, I would love to hear from you 
about that.
    Mr. Jones. May I respond just to one thing that we are--we 
are planning a major roll-out with Governor Schwarzenegger, 
probably at the Marine Corps Recruiting Depot, and we will be 
inviting various members, individuals from Washington to join 
us. The one item I must say, and if you could help us with 
this, it is the issue of communication again from the top down. 
We have been very successful on the bases, but we really need 
everybody at the installations to know from the top down that 
this is a national priority, not just a State priority, and so 
this is going to be----
    Senator Murray. I think we have to get past that little 
barrier we talked about before.
    Mr. Jones. Yes, that is true. That is right.
    Senator Murray. OK. Well, good. We are happy to work with 
you on that.
    Finally, I just want to ask about one other issue and that 
is the arbitrary time limit on the GI Bill that often prevents 
our veterans from using it when they need it most.
    Senator Maria Cantwell, my colleague, has introduced 
legislation to address that--I think it is called the GI Bill 
for Life--that would eliminate the arbitrary time limit on the 
GI Bill benefits. Mr. Wincup, if you could comment on that.
    Mr. Wincup. Senator, it sounds like a great idea to me. It 
seems to me the more people who use the benefits, the better 
off the country is.
    Senator Murray. Are we seeing a lot of people who time out 
and don't get access to those benefits?
    Mr. Wincup. I am not in a position to answer that question. 
I suspect if it is one, it is too many people.
    Senator Murray. OK.
    Mr. Bombard. Can I address that issue?
    Senator Murray. Sure.
    Mr. Bombard. As an educator in New York and dealing with 
the Advisory Committee, we have recommended that we remove the 
delimiting date. Based on higher education philosophy now with 
education being lifelong learning and the frequent deployments 
interrupting these people to complete their degree in a very 
quick time period, the removal of the delimiting date is a no-
brainer. I mean, we should remove the delimiting date. This 
would help retention and recruiting. The Advisory Committee has 
recommended it for years. This is a cost issue, but overall, it 
definitely is something that should be done.
    Senator Murray. OK. Very good. Thank you very much to all 
of you.
    Chairman Akaka. Thank you very much, Senator Murray.
    We have a number of written questions that we will be 
sending to each of you and look forward to your prompt 
responses.
    I want to thank you for your excellent testimony to this 
Committee and we certainly look forward to continuing to work 
with you on this. So thank you very much for being here.
    And now we come to our third and final panel consisting of 
representatives from various veterans and military service 
organizations. They are Ron Chamrin, Assistant Director of the 
Economics Division of the American Legion; Eric Hilleman, 
Deputy Director of the Legislative Affairs Office of the 
Veterans of Foreign Wars; Colonel Robert F. Norton, Deputy 
Director of Government Relations at the Military Officers 
Association of America; and last, Patrick Campbell, Legislative 
Director of the Iraq and Afghanistan Veterans of America.
    Many of you have testified before this Committee previously 
and it is good to see all of you again. May I call on Mr. Ron 
Chamrin for your statement.

      STATEMENT OF RONALD F. CHAMRIN, ASSISTANT DIRECTOR, 
            ECONOMIC COMMISSION, THE AMERICAN LEGION

    Mr. Chamrin. Thank you. Mr. Chairman and Members of the 
Committee, thank you for the opportunity to present the 
American Legion's view on the several pieces of legislation 
being considered by the Committee today.
    The American Legion has a proud history of helping to pass 
the Servicemen's Readjustment Act of 1944, assisting veterans 
to make the American dream come true and reshaping the United 
States. I also want to personally thank all the Members of 
Congress who have sponsored and cosponsored these bills. As an 
OIF veteran, I can say that I truly appreciate all the efforts 
that you have done for servicemembers and veterans. Thank you.
    The American Legion strongly supports the passage of major 
enhancements of the GI Bill. The current makeup of the 
operation military force requires that adjustments be made to 
support all Armed Forces members. We feel that all veterans 
should be treated equally, regardless of the Reserve and 
National Guard status, such that an individual who is called to 
duty and served honorably should not have to remain in the 
Selected Reserve to use their earned benefits. As the 
distinctions between the active and Reserve forces continue to 
fade, the differences between the active and Reserve forces of 
the GI Bill should also disappear.
    One of the top priorities of any veteran education 
legislation is equity and portability of benefits. However, it 
is clear that the current dollar value of benefits must be 
increased to meet the demands of today's higher education fees.
    S. 644, the Total Force GI Bill, the American Legion 
supports the Total Force GI Bill and feels enactment of this 
legislation will greatly benefit veterans. This bill solves 
many problems, most significantly the inequities of benefits of 
the members of the Reserve components as compared to their 
full-time active duty counterparts. Service members called to 
active service perform duties at an equal rate to their full-
time counterparts and should be treated 
as such.
    The proposal of the portability of education benefits will 
allow Reservists to earn credits for education while mobilized 
and then use them after they leave the military service similar 
to the current active duty GI Bill.
    The Total Force GI Bill plan calls on Congress to shift the 
oversight responsibility and funding authority of the GI Bill 
Selected Reserve programs from the Armed Services Committee and 
the DOD to this Committee and the VA.
    Under the Total Force GI Bill, activated Reservists would 
get one month of benefits at the active duty rate for each 
month of mobilization up to 36 months. Members would have up to 
10 years to use active duty and activated Reserve benefits from 
the last date of active service. Our Reservists could also use 
any remaining Selected Reserve benefits if they remain in the 
Reserves or for up to 10 years after separation if the 
separation is for a disability or qualification for retirement.
    A recent memorandum from the DOD Office of Special Counsel 
to the Chairman of the Armed Services Committee and the 
Chairman of this Committee attempts to dissuade Congress from 
passing the Total Force GI Bill. We unequivocally disagree. The 
American Legion disagrees with the OSC finding that changing 
REAP benefit calculation will be detrimental to Reservists. The 
American Legion concurs with the VACOE-DOD Working Group on the 
Total Force GI Bill proposal recommendation and assertion that 
the Total Force GI Bill would benefit veterans and aid Armed 
Forces in retention and recruitment needs.
    S. 22--the American Legion agrees with the concept of S. 
22, but we have concerns regarding the eligibility requirement 
of this proposed legislation. The bill is designed to provide 
educational benefits for eligible servicemembers while 
incorporating the new security realities of this current open-
ended Global War on Terror, but the Total Force Military 
Operations structure requires equitable benefits for time 
served. We fully support the intent of this bill, to provide 
much-needed additional educational benefits for full-time 
active duty servicemembers and those individuals who are 
ordered to active duty as members of the Reserve components.
    The eligibility requirement as imposed by S. 22 requires a 
servicemember to serve an aggregate of at least 2 years of 
honorable active duty service in the Armed Forces after 9/11. 
The bill also contains clauses for eligibility for other 
measures. The American Legion is concerned for those veterans 
that complete their tours honorably, do not serve an aggregate 
of 2 years, and do not meet the other requirements for 
eligibility. These veterans have served their country 
honorably, yet are excluded from earned 
benefits.
    The American Legion fully recognizes that there are almost 
100,000 members of the Reserve components that have served 
multiple routs and exceed the two-year aggregation requirement 
as proposed in S. 22, but we express that we cannot exclude 
benefits for those veterans that serve side-by-side with the 
full-time active duty members at any time. The current DOD 
mobilization policy states that the DOD will construct the 
maximum mobilization time frame to one year and the policy 
objective for involuntary mobilization of Guard and Reserve 
units is a one-year mobilized to five-year demobilized ratio. 
If these policies hold true, many members of the Reserve 
components would not be eligible to receive benefits under S. 
22, yet they have honorably served their country in the Armed 
Forces.
    Equity would remedy the situation. The American Legion 
recommends a month-per-month benefit at the full-time rate 
proposed in the legislation for those veterans that have served 
less than two years and allow them to use their benefits after 
completion of the service contract. If a member does serve an 
aggregate of two years due to multiple deployments, extensions, 
or enlistment in the active duty force, then they would be in 
receipt of the full 36 months of benefits as proposed in S. 22.
    S. 1261--the GI Bill for Life aims to repeal all time 
limits to use of the GI Bill, but it inadvertently neglects to 
account for those using REAP. The bill would maintain the 
requirement for those members participating in REAP to remain 
in the Reserves in order to use their benefits. The American 
Legion does strongly support the remaining provisions of the 
bill, but hopes that the Reservists are treated equally.
    The last two bills I will discuss briefly are S. 723 and S. 
1293. We support the deduction of the $1,200 enrollment fee and 
feel that Congress should allow for accelerated payments for 
all eligible GI Bill courses by striking the requirement that a 
course must lead to employment in the high-technology field.
    In conclusion, benefits should remain commensurate with 
sacrifice and service and designed to update the GI Bill by 
incorporating the new security realities of this current open-
ended Global War on Terror. The American Legion appreciates the 
opportunity to present this statement for the record and to 
continue our proud history of advocating for increased 
educational benefits to members and veterans in the Armed 
Forces. I would be happy to answer any questions that you have. 
Thank you.
    [The prepared statement of Mr. Chamrin follows:]
     Prepared Statement of Ronald F. Chamrin, Assistant Director, 
                Economic Commission, the American Legion
    Mr. Chairman and Members of the Committee:
    The American Legion has a proud history of helping to pass the 
Servicemen's Readjustment Act of 1944, also known as the GI Bill of 
Rights, assisting 16 million veterans of WWII to make the American 
Dream come true and reshaping the United States. Thank you for this 
opportunity to present The American Legion's view on the several pieces 
of legislation being considered by the Committee today. The American 
Legion commends the Committee for holding a hearing to discuss these 
very important and timely issues that we feel will continue to afford 
veterans the opportunity to pursue their American Dreams.
 the need for major enhancements of the all-volunteer force education 
   assistance program, better known as the montgomery gi bill (mgib)
    The American Legion supports passage of major enhancements to the 
current All-Volunteer Force Education Assistance Program, better known 
as the Montgomery GI Bill (MGIB). The current make up of the 
operational military force requires that adjustments be made to support 
all Armed Forces members. The American Legion supports legislation that 
will allow members of the Reserve components to earn credits for 
education while mobilized, just as active-duty troops do, and then use 
them after they leave military service. One of the top priorities of 
any veteran education legislation is equity and portability of 
benefits. However, it is clear that the current dollar value of 
benefits must be increased to meet the demands of today's higher 
education fees.
    In the twenty years since the MGIB went into effect on June 30, 
1985, the Nation's security has changed radically from a fixed cold war 
to a dynamic Global War on Terrorism. In 1991, the Active-Duty Force 
(ADF) of the military stood at 2.1 million; today it stands at 1.4 
million. Between 1915 and 1990 the Reserve Force (RF) was involuntarily 
mobilized only nine times.
    The Center for American Progress has reported:

    <bullet> 1.4 million military (Army and other service) troops have 
served in Iraq or Afghanistan; 650,000 Army soldiers have been deployed 
to these countries.
    <bullet> More than 420,000 troops have deployed more than once; 
170,000 Army soldiers have been deployed more than once.
    <bullet> 169,558 Marines have deployed to Iraq or Afghanistan more 
than once.
    <bullet> More than 410,000 National Guard and Reservists have been 
deployed to Iraq or Afghanistan since 2001, for an average of 18 months 
per mobilization; of these, more than 84,000 have been deployed more 
than once.
    <bullet> Stop-loss (a policy that prevents troops whose enlistment 
end date has arrived from leaving) has been imposed on over 50,000 
troops.

    There is now a continuum of service for military personnel, 
beginning with those who serve in the Reserve component only, extending 
through those in the Reserve component who are called to active-duty 
for a considerable period of time, and ending with those who enlist in 
the Active Duty Forces (ADF) and serve for a considerable period of 
time. Since 9/11 more than 600,000 members of the 860,000-member 
Selected Reserve have been activated. Over 85,000 have deployed more 
than once to a combat theater.
    Today, approximately 40 percent of troops in Iraq are Guard 
personnel or Reservists. Despite this, both the MGIB-AD and the MGIB-SR 
fail to meet the actual cost of education in this country. Reserve 
component members rarely served on active duty when the original 
educational benefits were created. It is important that the increase in 
reliance on Reserve troops is met with an equitable increase in 
educational benefits.
    According to the Fiscal Year 2007 MGIB pay rates, troops who serve 
on active-duty three or more years can collect up to $1,075 a month for 
36 months as full-time students totaling $38,700. Active duty 
servicemembers currently have up to 10 years after their separation of 
service to utilize their MGIB benefits, while members of the Selected 
Reserve must forfeit ALL of the educational benefits they have earned 
once they do so. It is an injustice that members of the Selected 
Reserve are unable to utilize these benefits after separation.
    Members of today's Selected Reserve are so busy training and 
deploying that they have little time to actually use their MGIB 
benefits. Their ability to use the benefits while serving is curtailed 
because of repeated deployments and denied entirely once they finish 
their service. This is unfair treatment for servicemembers who have 
seen more combat than most MGIB-eligible veterans in previous years.
    Reserve and Guard personnel can earn percentages of the full-time 
active-duty rate depending on length of their mobilization. If they are 
mobilized for 18 months, the current average length of deployment since 
2001, and then go to school full-time they can only receive up to a 
maximum of $23,220 (FY 2007 rates) using their Reserve Education 
Assistance Program (REAP) benefits. However, they can collect only if 
they remain in a Guard or Reserve unit. If they go into the inactive 
Reserve (Individual Ready Reserve) or are discharged, they no longer 
are eligible for education benefits.
    Under current law, members of the Reserve component face many 
challenges in using the MGIB-SR benefits. Since September 11, 2001, the 
utilizations of the Reserve components to augment the Active Duty Force 
(ADF) presents complications for those members of the Guard and 
Reserves enrolled in college programs. The uncertainty associated with 
unit activations, lengthy activations, individual deactivations, and 
multiple unit activations makes utilization of educational benefits 
extremely difficult. Such decisions as whether to enroll for a 
semester, long-range planning for required courses, or whether to 
finish a semester are among the challenges confronted. Other factors 
include accrued student loan debt, falling behind peers in studies, and 
limbo status due solely to the military's indecision.
    With the number of activations of the Reserve component since 
September 11, 2001, these same Reservists, who are attending colleges 
and universities around the country, are discovering that their actual 
graduation date may be extended well past their initial anticipated 
graduation date. The College Board, an association composed of more 
than 5,200 schools, colleges, universities, and other educational 
organizations, states that the average public university student now 
takes 6.2 years to finish. They also report that tuition and fees 
represent only a fraction of the total cost of attending college. The 
overall cost (tuition, fees, room, board, books, and other expenses) of 
a typical public college is about $16,400 a year. (College Board)
     s. 644, ``total force educational assistance enhancement act 
        and integration act of 2007'' (the total force gi bill)
    The American Legion supports the Total Force GI Bill. This bill 
solves many problems, most significantly the inequities of benefits of 
the members of the Reserve components as compared to their full time 
active duty counterparts. Servicemembers called to active service 
perform duties at an equal rate to their full time counterparts and 
should be treated as such. One major selling point of this proposal is 
the portability of education benefits; this legislation will allow 
Reservists to earn credits for education while mobilized, just as 
active-duty troops do, and then use them after they leave the military 
service.
    The Total Force MGIB plan calls on Congress to combine statutory 
authority for both MGIB-AD and MGIB-SR programs under the Department of 
Veterans Affairs (VA) (Chapter 30 of Title 38 of the U.S.C.). This 
would mean moving MGIB-SR and REAP programs from the Department of 
Defense (Chapters 1606 and 1607 of Title 10 of the U.S.C.) and shifting 
oversight responsibility to VA.
    Funding the program through appropriations to the Department of 
Veterans' Affairs for a veteran specific benefit would also be 
beneficial.
    The plan also calls for simplifying MGIB benefit levels and 
features into three tiers.
    Tier one would be MGIB-AD. Benefits for full time students are 
currently $1,075 a month for 36 months of college or qualified 
vocational training.
    Tier two would be MGIB-SR for drilling members who enlist for 6 
years. For years, Congress adjusted the MGIB-SR in lock step with MGIB-
AD, staying at 47 percent of active duty rates. Since 1999, the 
Committees on Armed Services and Defense officials have failed to 
adjust the rates. As a result, the current MGIB-SR benefit for full 
time students is $309 a month, or just 29 percent of MGIB-AD. Those who 
enlist or re-enlist in the Selected Reserve for 6 years are eligible 
for 36 months of benefits at a prorated amount of the active duty rate 
(currently 29 percent). Increases in these benefits would be codified 
so that any time Congress raises the active duty rate, Chapter 1606 
benefits would go up by the same percentage increase. Eligibility for 
benefits would be forfeited once they separate from service.
    Tier three would be MGIB benefits for activated Reservists, but 
with changes to the Reserve Education Assistance Program (REAP) that 
Congress enacted in 2004. REAP provides extra MGIB benefits to 
Reservists mobilized for 90 days or more since September 11, 2001. 
Payments are 40, 60 or 80 percent of MGIB-AD, depending on length of 
activation. As with MGIB-SR, REAP provides 36 months of benefits, but 
they end if the Reservist leaves military service.
    Under Total Force MGIB, activated Reservists would get 1 month of 
benefits, at the active duty rate, for each month of mobilization up to 
36 months. Members would have up to 10 years to use active duty or 
activated Reserve benefits (tiers one and three) from the last date of 
active service. A Reservist could also use any remaining MGIB-SR 
benefits (tier two), but only while in drill status or for up to 10 
years after separation if the separation is for disability or 
qualification for retirement.
    A recent memorandum from the Department of Defense, Office of 
Special Counsel (OSC) (May 22, 2007) to the Chairman of the Armed 
Services Committee and the Chairman of this Committee attempts to 
dissuade Congress from passing the Total Force GI Bill. We 
unequivocally disagree. The American Legion disagrees with the OSC 
finding that changing the REAP benefit calculation would be detrimental 
to Reservists.
    The American Legion concurs with the VACOE DOD / VA Working Group 
on the Total Force GI Bill proposal recommendation and assertion that 
the Total Force GI Bill would benefit veterans and aid the Armed Forces 
in retention and recruitment needs.
    The American Legion supports the Total Force GI Bill and feels 
enactment of this legislation will greatly benefit veterans.
  s. 22, ``the post-9/11 veterans educational assistance act of 2007''
    The American Legion has concerns regarding the eligibility 
requirement of this proposed legislation. We fully support the intent 
of this bill to provide additional educational benefits for full time 
active duty servicemembers and those individuals who are ordered to 
active duty as members of Reserve components of the Armed Forces. The 
bill will also aid in the recruitment and retention of members of the 
Armed Forces, and provide enhanced educational benefits more in line 
with today's needs. Efforts to ensure veterans are afforded education 
benefits that would include payment of tuition, books and fees as well 
as a $1,000 a month stipend are supported by the American Legion.
    The American Legion is concerned for those veterans that complete 
their tours honorably, do not serve an aggregate of 2 years, and do not 
meet the other requirements of eligibility. These veterans have served 
their country honorably yet are excluded from earned benefits. The 
eligibility requirement as proposed by S. 22 requires a servicemember 
to serve an aggregate of at least 2 years of honorable active duty 
service in the Armed Forces after September 10, 2001. The bill also 
contains clauses for eligibility for other measures, service connected 
disabilities, pre-existing medical conditions, hardship, and a physical 
or mental condition that was not characterized as a disability and did 
not result from the individual's own willful misconduct.
    The American Legion fully recognizes that there are almost one 
hundred thousand members of the Reserve components that have served 
multiple tours and exceed the 2-year minimum requirement, but we 
express that we cannot exempt benefits for those veterans that served 
side by side with full time active duty members at any time. The first 
rotations for OIF had servicemembers deployed for an average of 15-20 
months.
    The current Department of Defense policy states: The Department of 
Defense will construct the maximum mobilization time frame to 1 year 
and the policy objective for involuntary mobilization of Guard/ Reserve 
units is a 1-year mobilized to 5-year demobilized ratio. If these 
policies hold true many members of the Reserve components would not be 
eligible to receive benefits under S. 22 yet they have honorably served 
their country in the Armed Forces.
    Equity would remedy this situation. The American Legion recommends 
a month for month benefit at the full time rate proposed in the 
legislation for those veterans that have served less than 2 years but 
also allow them to use their benefits after completion of a service 
contract. If a member does serve an aggregate of 2 years, due to 
multiple deployments, extensions, or enlistment in the Active Duty 
Force, then they would be in receipt of the full 36 months of benefits 
as proposed in S. 22.
    The American Legion supports the idea that all veterans be treated 
equally regardless of their Reserve/National Guard status in such that 
an individual who was called to duty and served honorably should not 
have to remain in the selected Reserve to use their earned benefits. As 
the distinctions between the active and Reserve forces continue to 
fade, the difference between the active and Reserve forces of the MGIB 
should disappear accordingly. Benefits should remain commensurate with 
sacrifice and service.
    The American Legion agrees with the concept of the Post-9/11 
Veterans Educational Assistance Act of 2007, which is designed to 
provide educational benefits for eligible servicemembers while 
incorporating the new security realities of this current open-ended 
Global War on Terror but reiterate, the Total Force military operation 
structure requires equitable benefits for time served.
        s. 1261, ``the montgomery gi bill for life act of 2007''
    The Montgomery GI Bill for Life aims to repeal all time limits to 
use the MGIB, but it inadvertently neglects to account for those in the 
Reserve Educational Assistance Program (REAP) Title 10 U.S.C., Chapter 
1607. The bill would maintain the requirement of those members 
participating in REAP to remain in the Reserves in order to use their 
benefits.
    The American Legion strongly supports the following provisions of 
the bill: the repeal of the delimiting date of Title 38, Chapter 30 
(MGIB-AD) benefits, the extension of education benefits of an enrolled 
veteran that would have normally expired, the permittance of VEAP 
participants to enter the MGIB program, the repeal of the 14-year limit 
on use of MGIB-SR (Title 10, Chapter 1606) educational assistance 
benefits, and the provision that would entitle enhancement of disabled 
members opportunity to use their education benefits.
    In addition to the positive measures that the bill encompasses, The 
American Legion feels that all veterans be treated equally regardless 
of their Reserve/National Guard status in such that an individual who 
was called to duty and served honorably should not have to remain in 
the selected Reserve to use their earned benefits. The American Legion 
recommends that this legislation be amended to allow all Reservists and 
National Guard members to use their MGIB benefits, to include the 
Reserve Educational Assistance Program (REAP) after separation 
regardless of disability status and after completion of a service 
contract.
    The American Legion recommends amending section 4 of S. 1261 with 
language that would permit members of the Reserve components to use 
their earned REAP benefits once the eligibility requirement is met and 
after completion of a service contract.
       s. 723, the ``montgomery gi bill enhancement act of 2007''
    The American Legion supports the termination of the current 
military payroll deduction of $1,200 required for enrollment in MGIB-AD 
and MGIB-SR as proposed in section 2. However, we feel that a refund of 
contributions would devote numerous Full Time Employees (FTE) to 
administer the program over multiple years ultimately costing the 
government a significant quantity of time and money that could be used 
to better serve our Nation's veterans. That same money could be 
allocated to increasing the monthly MGIB education rate, thereby 
increasing the power of the program.
    The American Legion has no official position on section 3, the 
amendment to allow certain members of the Armed Forces to withdraw 
election not to enroll in the MGIB.
  s. 698, the ``veterans survivors education enhancement act of 2007''
    S. 698 would expand the current benefit of survivors and dependents 
educational assistance to an amount greater than the current value of 
the Montgomery GI Bill (MGIB) education benefit. The aggregate amount 
would become $80,000 compared to the current full time rate MGIB 
benefit of $38,700.
    We have no official position on this provision however, The 
American Legion supports legislation in which the dollar amount of the 
MGIB entitlement would be indexed to the average cost of college 
education including tuition, fees, textbooks and other supplies for a 
commuter student at an accredited university, college or trade school 
for which they qualify and that the educational cost index be reviewed 
and adjusted annually.
s. 1293, veterans' education and vocational benefits improvement act of 
                                  2007
Section 2 (Expansion of Accelerated Payment programs for Title 38 
        U.S.C., Chapter 30, and Title 10 U.S.C. Chapters 1606 and 1607)
    The American Legion strongly supports the provisions of S. 1293 to 
allow for accelerated payments for all eligible MGIB courses by 
striking the requirement that a course must lead to employment in the 
high technology field. Increasing the educational benefit available 
through the MGIB will provide a better incentive to veterans to 
complete a program with immediate employment results, without the 
concern of going in to short-term debt. The American Legion supports 
granting a veteran the option to request an accelerated payment of all 
monthly educational benefits upon meeting the criteria for eligibility 
for MGIB financial payments. The selection of courses veterans undergo 
should remain exclusively the decision of the individual veteran and 
that all earned veterans' education benefits should be made available 
to veterans in support of their endeavors. Accelerated payments allow 
veterans to achieve their education goals in the manner that they 
decide. Binding the time frame of an education payout may restrict 
educational options for some veterans.
    The American Legion supports the expansion of Public Law 107-103 
that would be enacted in this legislation to include:

    1. Survivors and Dependents Educational Assistance (DEA, or Chapter 
35)
    2. Reserve Educational Assistance Program (REAP, or Chapter 1607)
    3. Montgomery GI Bill Selected Reserve (MGIB-SR or Chapter 1606)

    The American Legion also supports the expansion of accelerated 
payments to Post-Vietnam Era Veterans' Educational Assistance Program 
(VEAP, or Chapter 32).
    In addition to the traditional institutions for higher learning, 
MGIB benefits can be used for training at Non-College-Degree 
Institutions, On-the-Job or Apprenticeship Training, Independent, and 
Distance or Internet training. The MGIB also allows VA to reimburse 
veterans for the fees charged for national tests for admission to 
institutions of higher learning and national tests providing an 
opportunity for course credit at institutions of higher learning. 
Examples of tests covered are SAT, GRE, CLEP, GMAT, LSAT, etc. The MGIB 
for veterans, and not those eligible under Survivors and Dependents 
Educational Assistance (DEA), is available for Flight Training and 
Correspondence Training.
    The significance of expanding the scope of accelerated payments is 
that the preceding categories are eligible for MGIB payments, yet 
excluded from accelerated payments. The American Legion recommends that 
all MGIB-approved courses, including the On-the-job-training (OJT) and 
Apprenticeship courses, become eligible for accelerated payments.
Section 3
    The American Legion supports the proposed amendment of the REAP 
program to take into account the thousands of servicemembers that have 
participated in multiple deployments. Many individuals have accumulated 
significant periods of time served on active duty by performing 
multiple tours. Their aggregate time most likely will greatly exceed 
the 3-year requirement as proposed in this legislation. National Guard 
and Reserve members have been serving multiple tours on an average of 
approximately 15 months per tour; however, the current law only allows 
a reservist to achieve the maximum benefit of this program, 80 percent 
of the full time active duty rate, only if 2 continuous years of active 
duty service are met.
    Since 9/11, Reservists have had to perform multiple deployments to 
all parts of the world, mainly Iraq and Afghanistan. By enacting this 
legislation, the realities of the total force structure are recognized. 
Serving side by side with full time active duty members, reservists 
have earned the right for additional educational benefits.
          s. 1409, the 21st century bill of rights act of 2007
Section 2
    The American Legion objects to the ``deployed overseas'' 
requirement for eligibility of this program. We also object to the 
limitation that this program would be unavailable to those veterans 
seeking a graduate level degree.
    The American Legion support the provisions that would allow for a 
transfer of the number of remaining months of education benefits in 
Title 38 Chapter 30, and Title 10 Chapters 1606 and 1607 to this new 
proposed Chapter 33 in Title 38.
Section 3
    The American Legion supports the strengthening of the VA Home Loan 
program. The clause to increase the maximum guaranty amount of the Home 
Loan Guarantee greatly benefits veterans.
    The American Legion strongly supports the repeal of the Home Loan 
Funding fee. The Department of Veterans Affairs (VA) Home Loan Guaranty 
program has been in effect since 1944 and the VA Home Loan Guaranty 
program has afforded approximately 18 million veterans the opportunity 
to purchase homes. The VA Home Loan Guaranty program offers veterans a 
centralized, affordable and accessible method of purchasing homes in 
return for their service to this Nation.
    The VA funding fee charged to veterans was enacted to defray the 
costs of the VA guaranteed home loan program but the program is 
expected to make a profit based on the fees charged to veterans. 
Congress is not required to appropriate funding for this program; 
however, because veterans must now ``buy'' in to the program, it no 
longer serves the intent of helping veterans afford a home. The fee 
makes the VA Home Loan program less beneficial, in some aspects, 
compared to a standard private loan.
    The proposed legislation authorizes appropriations for the Veterans 
Housing Benefit Program Fund that will enable the program to continue 
without faltering due to lack of funding. The American Legion feels 
that this legislation should be enacted to prevent homelessness, reward 
a veteran for honorable service, and to take care of our Nation's 
heroes.
Section 4 Small Business Programs for Veterans
    The American Legion supports the enhancement and opportunity for 
veterans and service-disabled veterans to start, operate, and succeed 
in their small business adventures.
   s. 1719, a bill to amend title 38, u.s.c., to provide additional 
    educational assistance under the montgomery gi bill to veterans 
     pursuing a degree in science, technology, engineering, or math
    S. 1719 aims to assist veterans by paying a $2,000 stipend or 
fraction thereof per year for courses leading to degrees in science, 
technology, engineering, or math.
    The American Legion agrees with the intent of S. 1719 in that it 
allows for members of the Armed Services and veterans to receive 
enhanced educational benefits more in line with today's needs; however, 
we feel that a monthly tax-free subsistence allowance indexed for 
inflation must be part of all educational assistance packages. While 
this legislation is aimed toward the active duty force (MGIB Chapter 
30), The American Legion supports legislation that will allow 
Reservists (Title 10, Chapters 1607) to earn credits for education 
while mobilized, just as active-duty troops do, and then use them after 
they leave the military service.
                               conclusion
    Historically, The American Legion has encouraged the development of 
essential benefits to help attract and retain servicemembers into the 
Armed Services, as well as to assist them in making the best possible 
transition back to the civilian community. The Servicemen's 
Readjustment Act of 1944, the ``GI Bill of Rights'' is a historic piece 
of legislation, authored by Harry W. Colmery, Past National Commander 
of The American Legion, that enabled millions of veterans to purchase 
their first homes, attend college, obtain vocational training, and 
start private businesses.
    As the distinctions between the active and Reserve forces continue 
to fade, the difference between the active and Reserve forces of the 
MGIB should disappear accordingly. Benefits should remain commensurate 
with sacrifice and service and designed to update the MGIB by 
incorporating the new security realities of this current open-ended 
Global War on Terror.
    The legislation discussed today aims to better serve veterans and 
ultimately assist them in financial stability. The American Legion 
commends the Committee for addressing these important issues. We 
appreciate the opportunity to present this statement for the record and 
to continue our proud history of advocating for increased educational 
benefits to members of the Armed Forces.

    Chairman Akaka. Thank you very much, Mr. Chamrin of the 
American Legion.
    Now we will hear from Eric Hilleman from Veterans of 
Foreign Wars.

        STATEMENT OF ERIC A. HILLEMAN, DEPUTY DIRECTOR, 
 NATIONAL LEGISLATIVE SERVICE, VETERANS OF FOREIGN WARS OF THE 
                         UNITED STATES

    Mr. Hilleman. Thank you, Senator Akaka. Mr. Chairman, 
Senator Murray, on behalf of the 2.4 million men and women in 
the Veterans of Foreign Wars and our Auxiliaries, we thank you 
for allowing us to testify at today's hearing on seamless 
transition and veterans' education benefits.
    I would like to begin by thanking the Committee for its 
bipartisan support of the Wounded Warrior legislation and this 
Committee's immediate action to strengthen the seamless 
transition for our troops' health care. This bill recognizes 
that providing a full continuum of care to our injured troops 
is central to properly paying the costs of war. Please accept 
the VFW's heartfelt thank you. We greatly appreciate the hard 
work of this Committee and staff.
    Seventy-five years ago, in the summer of 1932, we truly saw 
the necessity of providing our returning warriors with a 
seamless transition back to civilian life. That summer, the 
Bonus Army, comprised of some 45,000 World War I veterans, 
marched on Capitol Hill. They sought a bonus promised by a 1924 
law to provide them a Federal bond worth approximately $1,000 
at maturity. They sought an earned benefit, economic relief 
from the Depression, and a brighter future for their families.
    Seventy-five years ago this month, in place of the bonus, 
the police were ordered to raze their camp and disperse the 
veterans and their families. The police met with resistance, 
causing President Hoover to dispatch the Army. The 12th 
Infantry Regiment, at the command of General Douglas MacArthur, 
marched on the camp with bayonets fixed, dispersing tear gas. 
By day's end, hundreds of men, women, and children were 
injured, the camp was in flames, and several were dead.
    The tragedy in the summer of 1932 set the stage for 
Congress and President Roosevelt to construct and enact the 
original GI Bill of Rights in 1944. It was a transition 
assistance program to prevent veterans from becoming unemployed 
and destitute. It was an investment in the lives of 
individuals, the prosperity of our Nation, and a direct result 
of the cost of war.
    The key element of the educational portion of the original 
GI Bill allowed a veteran to focus exclusively on study and 
provided access to institutions of higher learning that would 
have been otherwise unthinkable. The bill paid all of their 
education expenses, providing a monthly stipend for food, 
housing, and incidentals. Further, it doubled the ratio of 
homeowners in our Nation. Each dollar of the bill spent 
resulted in between $5 to $12 in higher tax revenue.
    Over the years, the purchasing power of the benefit has 
dissolved and the purpose of the GI Bill has evolved. The 
Department of Defense now uses the GI Bill to recruit and 
retain high-quality personnel, attracting education-oriented 
recruits. The GI Bill has shifted from being a robust benefit 
to now only covering a fraction of the cost of education. The 
current benefit requires veterans to seek large student loans, 
compete for scholarships, work part- or full-time jobs, and 
rely on family funding. This is far from the original intent of 
the legislation.
    In cases where a veteran has a young family, they are 
forced to choose between working a full-time job to support 
their family or using the GI Bill for education. In making the 
decision to feed their family today, they forego an education.
    We urge this Committee, the Senate, and the Congress to 
fully invest in a seamless transition for today's troops. We 
believe that a comprehensive GI Bill for the 21st century would 
provide full tuition support, a small stipend, and other 
education-related costs. It would serve to strengthen DOD's 
recruitment, provide the Nation with a cadre of seasoned and 
patriotic leaders, and most importantly, improve the lives of 
veterans and their families.
    Mr. Chairman, this concludes my testimony and I would be 
happy to answer any questions this Committee has. Thank you.
    [The prepared statement of Mr. Hilleman follows:]
   Prepared Statement of Eric A. Hilleman, Deputy Director, National 
   Legislative Service, Veterans of Foreign Wars of the United States
    Mr. Chairman and Members of This Committee:
    On behalf of the 2.4 million members of the Veterans of Foreign 
Wars of the U.S. (VFW) and our Auxiliaries, I would like to thank you 
for your invitation to testify at today's important hearing on 
``Seamless Transition'' and veterans' education benefits legislation.
    The original GI Bill helped to create the middle class by improving 
access to education and creating an unprecedented number of 
opportunities for millions of Americans. It has eased the transition 
from active duty into civilian life for millions of veterans while 
equipping its recipients with the tools to adapt to the ever-changing 
marketplace. The Department of Defense has long used the GI Bill to 
recruit and retain high quality personnel. The GI Bill has profoundly 
improved our military's strength and the quality of life for all of its 
recipients.
     s. 22, the post-9/11 veterans education assistance act of 2007
    This legislation enhances military strength while providing an 
educational benefit that equips a generation of veterans to face the 
challenges of tomorrow. The VFW has long advocated a GI Bill in the 
spirit of the original WWII bill, which would cover tuition at the 
highest State institution, housing, fees, books, and provide a cost-of-
living stipend. This legislation accomplishes these goals and more. It 
recognizes the tens of thousands of Guard and Reserve members who have 
actively served an aggregate of 24 months defending our Nation. It 
lengthens the post-service usage period from 10 to 15 years from date 
of discharge and establishes a post-service benefit for the Guard and 
Reserve. The VFW enthusiastically supports this bill.
        s. 644, total force educational assistance enhancement 
                      and integration act of 2007
    We support this vital legislation, which addresses the inequity 
between active duty GI Bill and Reserve GI Bill education benefits. S. 
644 will reward Guard and Reserve members with an equitable education 
benefit. For every month they serve on active duty they will receive 1 
month's active duty GI Bill benefit, usable within 10 years from their 
date of discharge. This bill also eases the administration of education 
benefits, simplifying U.S. Code and giving the Department of Veterans 
Affairs the responsibility of administering the benefit as they 
currently do with the active duty GI Bill.
   s. 698, the veterans' survivors education enhancement act of 2007
    This Act would increase the maximum amount of GI Bill benefits 
available for eligible veterans' survivors and dependents from the 
current $788 a month, paid over 45 months equaling $35,460, to 
approximately $1,778 a month totaling $80,000. It allows the benefit to 
be used for special restorative training, apprenticeships, on-the-job 
training, and tutoring assistance. And it allows survivors and 
dependents to draw the benefit until their 30th birthday, extending the 
usage age from 26th birthday.
    We deeply respect the loss, challenge and pain survivors and 
dependents suffer. Benefits paid to widows/widowers and orphans grant a 
degree of security when faced with the sudden loss of a loved one. The 
VFW fully supports enhancement of educational assistance for survivors 
and dependents of veterans, but we also feel the benefit should move in 
tandem with the education benefit available to the chapter 38 active 
duty GI Bill.
    The current chapter 38 active duty GI Bill benefit total is 
approximately $37,000 and the survivors education benefit is 
approximately $35,500; thus, giving some relative parity in the two 
benefits. S. 698 would award survivors twice the earned benefit 
available to active duty troops. We favor increasing survivor benefit, 
but in tandem with the active duty benefit. The VFW views such a 
dramatic increase as creating an unfortunate inequity.
         s. 723, the montgomery gi bill enhancement act of 2007
    We support the Montgomery GI Bill Enhancement Act of 2007. This 
bill lifts the $1,200 buy-in to the GI Bill benefit for as long as the 
``War on Terror'' persists. It rewards members of the Armed Forces and 
Selected Reserve for their active duty service from November 16, 2001, 
until Executive Order 13235 is terminated. It takes the additional step 
of reimbursing the payroll deductions taken prior to its enactment. The 
goal of this legislation mirrors previous wartime GI bills, insomuch as 
no contribution, other than honorable service, qualifies a 
servicemember for the education benefit.
          s. 1261, the montgomery gi bill for life act of 2007
    The Montgomery GI Bill (MGIB) has opened the door to higher 
education for millions of Americans. This bill seeks to eliminate time 
limits that often prevent servicemembers from using a life-altering 
benefit when they need it the most. S. 1261 would eliminate the post-
service 10-year time limit for the active duty MGIB and the in-service 
14-year time limit for Guard and Reservists. Time limits prevent 
servicemembers from seeking training and education later in life or at 
mid-career milestones. The VFW supports the lifelong career approach to 
the benefit. If a servicemember has earned the benefit, why prevent 
them from using it?
    Many servicemembers seek education and retraining later or at mid-
career. This helps them adapt to the ever-changing economy, 
transitioning from fields that may offer more job security. Also, many 
younger veterans and servicemembers have family obligations that 
prevent them from seeking an education early in life. The VFW supports 
S. 1261 and the repeal of time limits on the GI Bill.
        s. 1409, the 21st century gi bill of rights act of 2007
    We support S. 1409 extending eligibility to Active Duty troops and 
National Guard and Reserve members who serve an aggregate of two years 
on active duty. This bill will pay tuition, books, fees, room and board 
over the course of 4 years of full-time education. It lifts the $1,200 
buy-in fee. It further exempts veterans from paying loan fees, enhances 
access to low-interest loans through the Veterans Affairs Home Loan 
Guaranty Loan Program, and increases the cap on the veterans' home loan 
program from $417,000 to $625,000. This legislation also establishes a 
veterans' micro loan program, providing no-money-down micro loans for 
entrepreneurial ventures up to $100,000 and capping interest at 2.5 
percent.
   s. 1719, a bill to amend title 38, united states code, to provide 
   additional educational assistance under the montgomery gi bill to 
veterans pursuing a degree in science, technology, engineering, or math
    This Act would provide GI Bill recipients pursuing a degree in 
science, technology, engineering and/or math an additional $2,000 per 
academic school year. The benefit would be paid in lump-sum payments at 
the beginning of each school semester or quarter.
    The VFW recognizes the importance of encouraging study in critical 
areas such as science, technology, engineering and math. However, we 
are unable to support this bill. We feel this legislation would distort 
the equity extended to all servicemembers under the GI Bill. The value 
of the GI Bill is recognized as equal benefit for equal service 
rendered. In using the GI Bill to create incentives for particular 
areas of study, this bill would inadvertently create disincentives to 
study philosophy, foreign languages, history, and political science; 
hence, moving away from equal benefit for equal service.
    We support incentive scholarships/programs for desired areas of 
study, yet we are reluctant to use the GI Bill to create these 
incentives.
    Mr. Chairman and Members of the Committee, this concludes the VFW's 
testimony, I would be happy to answer any of your questions. Thank you.

    Chairman Akaka. Thank you very much, Mr. Hilleman from 
Veterans of Foreign Wars.
    Now we will hear from Colonel Robert Norton of the Military 
Officers Association of America.

   STATEMENT OF COLONEL ROBERT F. NORTON, USA (RET.), DEPUTY 
 DIRECTOR, GOVERNMENT RELATIONS, MILITARY OFFICERS ASSOCIATION 
                           OF AMERICA

    Colonel Norton. Thank you, Mr. Chairman. It is good to be 
here, Senator. Thank you, Senator Murray, for this opportunity 
to testify today before you on behalf of the 366,000 members of 
the Military Officers Association of America.
    Mr. Chairman, we are very grateful this year for passage in 
Congress of legislation that provided significantly increased 
funding for the VA health care system, for the passage of 
Wounded Warrior legislation, and for other benefit improvements 
that help our Nation's veterans. But on this issue, the 
Montgomery GI Bill, we are disappointed in the lack of progress 
this year, and you indicated that, Mr. Chairman, in your 
opening statement. We believe that, and we strongly recommend, 
that there is an opportunity for the Congress, the Committee, 
the Senate to take at least the first important steps to 
improve the Montgomery GI Bill this year.
    There is certainly a lot to like in many of the bills 
before the Committee today, and my statement goes into some 
detail in going over each of those bills. However, at the end 
of my statement, we have a suggested priority order in which we 
recommend what we think ought to be done first to support our 
Nation's warriors and veterans.
    I will address here what we believe is the most egregious 
shortcoming of the GI Bill policy today and I will illustrate 
it, departing somewhat from my oral remarks by just taking into 
account the panel of veterans you see before you here today. 
All four of us are veterans. All four of us have served on 
active duty. Now, I myself used the GI Bill as a Vietnam-era 
veteran, and Eric Hilleman from the VFW, is a veteran of the 
Marine Corps. We had 10 years to use our benefits when we 
completed our service contract and separated or retired from 
active duty.
    However, Patrick Campbell on my left from the Iraq and 
Afghanistan Veterans of America and Ron Chamrin from the 
American Legion, also veterans of the War on Terror, they 
currently serve, in Patrick's case, in the Guard, in Ron's 
case, in the Army Reserve. They are equally veterans as Eric 
and I are. However, when they complete their service and get 
out, they have no access to a single penny of their earned 
Montgomery GI Bill benefits.
    And moreover, Mr. Chairman, the problem here is that under 
today's operational Reserve policy, they are likely to be 
called up, as Secretary Gates testified in January, under the 
new policy once at least every 5 years. In many cases, as you 
know, Reservists have been called up more frequently. A 132,000 
have already served two or more tours since 9/11. 600,000 have 
served overall since 9/11.
    If they get called up today or tomorrow, they will be taken 
out of school, in Patrick's case. He is in a law school right 
now. He will be taken away from his school program. When he 
gets back, he will nearly be complete with his National Guard 
service, and if he separates at that point, he will not be able 
to use any of his earned benefits from active duty.
    And so, Mr. Chairman, the point we would like to make is 
that under the all-volunteer force policy, we can't welcome 
Guard and Reserve volunteers into the service and then compel 
them to stay in just to keep benefits they have earned on 
active duty going into harm's way. That is a policy of 
indentured servitude and it is fundamentally at odds with the 
Nation's all-volunteer force policy, as Mr. Wincup said in the 
earlier panel. Sooner or later, separate treatment of these 
veterans will undermine morale and cohesion of the Total Force.
    With all the bills on the table here today, the one we feel 
should be addressed this year is S. 644. The bill would do two 
things. First, it would recodify Reserve Montgomery GI Bill 
programs into Title 38 so that future adjustments to the 
program could be made in proportion to the duty performed, not 
more and not less. Second, S. 644 would authorize 10 years' 
post-service use of those benefits earned on active duty in a 
national emergency.
    There is an opportunity for the Members of this Committee 
and for the Senate to do the right thing for Guard and Reserve 
warriors this year. MOAA strongly recommends that all Members 
of the Senate endorse two amendments to the Senate Defense 
Authorization bill. Senate Amendment 2072 would do the 
recodification work. In fact, Mr. Chairman, as you know, the 
House has already passed and included in its defense bill 
recodification of the Reserve GI Bill programs into Title 38.
    The second amendment, S. 2074 to the Defense Authorization, 
would establish the 10-year readjustment benefit for Reserve 
and Guard warriors like Patrick Campbell and Ron Chamrin.
    I had the opportunity, Mr. Chairman, to testify two months 
ago before the Dole-Shalala Commission on Returning Wounded 
Warriors. At that time, I was very impressed with Secretary 
Shalala. At the time, she said that one of the things we need 
to do with our returning warriors is simplify, simplify, 
simplify. In fact, the title of their report to the President 
includes the word ``simplify.'' We strongly support the 
integration of the Reserve GI Bill programs into Title 38. As 
Mr. Bombard said, one set of rules, one committee of 
jurisdiction, one way to go forward to adjust benefits in 
proportion to the service performed. This issue is supported by 
the 35 members of the Military Coalition and the Partnership 
for Veterans Education, which includes the Coalition and 12 
other veterans and higher education groups.
    Mr. Chairman, we would like more, of course, but we think 
these affordable, practical first steps should be done this 
year and we strongly endorse them. I thank you for your 
consideration and I also thank you, Mr. Chairman, for your 
service to the Nation and for your service in World War II as a 
user of the great World War II GI Bill. Thank you, Mr. 
Chairman.
    [The prepared statement of Colonel Norton follows:]
  Prepared Statement of Colonel Robert F. Norton, USA (Ret.), Deputy 
   Director, Government Relations, Military Officers Association of 
                                America
    Mr. Chairman and distinguished Members of the Committee, on behalf 
of the nearly 362,000 members of the Military Officers Association of 
America (MOAA), I am honored to have this opportunity to present the 
Association's views on veterans' educational assistance legislative 
proposals being considered before you today.
    MOAA is an original founding member of the Partnership for 
Veterans' Education, a consortium of military, veterans, and higher 
education groups which advocate for passage of a ``total force'' 
approach to the Montgomery GI Bill to meet the needs of our operating 
forces--active duty, National Guard and Reserve--and veterans in the 
21st century.
    MOAA does not receive any grants or contracts from the Federal 
Government.
                           executive summary
    MOAA appreciates the growing interest in Congress in improving 
educational benefits under the Montgomery GI Bill (MGIB) for our 
Nation's returning warriors. Legislative proposals range from modest 
improvements at the margins to restoration of a ``World War II-style'' 
GI Bill that would cover all costs of a veteran's education or training 
plus a stipend for living-expenses.
    In summary, MOAA's position on the legislation before the Committee 
at this hearing is as follows:

    S. 22. MOAA supports a ``World War II style'' MGIB and recommends 
that such benefits be authorized for all members of the volunteer 
force, not just those who happen to serve during a designated 
``wartime'' period.
    S. 644. MOAA strongly endorses a ``total force'' approach to the 
MGIB that matches benefits to service performed and establishes a 
readjustment benefit for OIF/OEF veterans of the National Guard and 
Reserve.
    S. 723. MOAA supports establishment of MGIB entitlement for all 
military men and women by elimination of the $1,200 payroll reduction. 
However, we believe the value of the monies proposed to be reimbursed--
servicemembers never actually received the $1,200 in their first year--
would be better spent on MGIB rate increases.
    S. 1261. MOAA supports extending the post-service usage period for 
MGIB benefits earned on active duty, including authorization of post-
service usage by mobilized reservists.
    S. 1293. MOAA endorses increased flexibility in delivering 
accelerated benefits under the MGIB and we support ``buy up'' authority 
for National Guard and Reserve servicemembers. Mobilized reservists 
should be authorized portability (post-service) access to such ``buy 
up'' benefits following the completion of honorable service.
    S. 1409. MOAA supports this ``World War II style'' legislation but 
recommends that proposed rates be based on the average cost of a 4-year 
public college or university education, a position MOAA and the 
Partnership for Veterans Education have endorsed since 2001. MOAA does 
not support the limitation of bill benefits only to those 
servicemembers who have ``deployed overseas.''
    S. 1719. MOAA supports the idea of additional MGIB benefits for 
certain purposes but questions whether the Department of Veterans 
Affairs would be the optimal venue for targeting extra funds for 
degrees in science, technology, energy or math. The bill's objectives 
may be better achieved through grants from the Department of Education 
or other appropriate agency.
    MOAA recognizes that all good things may not happen in one session 
of Congress. At the conclusion of this Statement is an addendum 
outlining potential MGIB upgrades in recommended priority order.
  s. 22, post-9/11 veterans educational assistance act of 2007 (webb).
     cosponsors: 20 (all cosponsorship numbers as of 11 july 2007)
    Senator Webb's bill in effect would re-establish and enhance the 
post-World War II ``GI Bill'' of educational benefits.
    S. 22 would establish ``wartime'' service GI Bill benefits that 
would permit servicemen and women who serve or have served since 9/11 
and who meet the requisite active duty service requirements in the 
legislation to be reimbursed for the entire cost of any college, 
university, or training program of their choice.
    Reimbursement rates would match the cost paid by non-veterans at 
such programs. Additionally, veterans would receive a $1,000 per month 
stipend for 36 months, matching the maximum entitlement reimbursement 
period. Veterans would have up to 15 years after their service to 
exhaust entitlement. The existing bar to duplication of benefits would 
preclude paying other MGIB benefits concurrently.
    National Guard and Reserve ``wartime'' veterans with qualifying 
active duty service would be entitled to the benefits described in the 
bill.
    MOAA supports S. 22. This bill represents a vision, perhaps even a 
GI Bill ``holy grail'' that our Nation's warriors surely have earned in 
service to the Nation. We worry, however, that absent a strong signal 
of support from this Committee and the full Senate and House, the 
likelihood of this bill's passage is uncertain at this time.
    MOAA has long supported many of the features in S. 22, especially: 
the increase in GI Bill benefit rates, the elimination of the $1,200 
payroll reduction, extension of the post-service usage period, and 
establishment of a readjustment benefit for mobilized reservists. 
However, based on the fact that the last substantive upgrades to the 
MGIB-Active Duty program were enacted before 9/11, stakeholders must 
wonder if there is genuine resolve to upgrade the MGIB to this extent.
    MOAA's approach on military and veterans benefits is to work with 
Congress to find realistic ways to make progress on military and 
veteran ``people'' issues that support a strong national defense, 
military readiness, and fair treatment of those who have worn the 
uniform of the country. Sure, MOAA would prefer to have all the 
features of S. 22 and all at once. Our experience has shown that 
Congress rarely acts that way.
    For many years and over the course of many sessions of Congress, 
retired Ranking Member of the House Veterans Affairs Committee, Lane 
Evans--a distinguished Vietnam veteran--sponsored legislation similar 
to S. 22. Unfortunately, none of his bills attracted enough support to 
gain serious consideration.
    A practical shortcoming in S. 22 is the absence of MGIB ``kicker'' 
authority for the military services--Section 3015(d), 38 U.S. Code. DOD 
has long used financial incentives--``kickers''--as tools to distribute 
military manpower into high demand skills needed for readiness. Kickers 
have proven very effective in combination with the MGIB-AD (Chapter 30) 
to support Armed Forces recruiting goals.
    It may be that the quantum leap in GI Bill benefits under S. 22 
would suffice for overall recruiting purposes, obviating the need for 
``kickers.'' Manpower planners, however, might be extremely reluctant 
to test this theory.
    If forced to choose, MOAA believes the most glaring inequity that 
needs to be addressed immediately in GI Bill legislation is the absence 
of a readjustment benefit under the MGIB for activated reservists.
    S. 644, Total Force Educational Assistance Enhancement and 
Integration Act of 2007 (Lincoln). Cosponsors: 17
    MOAA believes that the first priority in creating a more effective 
MGIB is to evaluate proposals against the principle of aligning 
benefits with the length and type of duty performed by members of our 
Nation's Armed Forces team--active duty, National Guard and Reserve. In 
short, a ``total force'' approach is needed for the MGIB.
    In achieving this objective--an objective we believe is essential 
to accomplish recruitment, reenlistment, and readjustment purposes--
MOAA strongly endorses as a first order of business two affordable 
steps.
    First, all active duty and Reserve MGIB programs would be 
consolidated under Title 38. DOD and the Services would retain 
responsibility for cash bonuses, MGIB ``kickers,'' and other 
enlistment/reenlistment incentives. Second, MGIB benefit levels would 
be structured according to the level of military service performed.
    The Total Force MGIB, S. 644, would restructure the MGIB as 
follows:

    <bullet> Tier one, the Active Duty MGIB (Chapter 30, Title 38)--
initially, no statutory change. Individuals who enter the active Armed 
Forces would earn MGIB entitlement unless they decline enrollment.
    <bullet> Tier two, the Selected Reserve MGIB (Chapter 1606, Title 
10)--MGIB benefits for a 6-year enlistment or reenlistment the Guard or 
Reserve. Chapter 1606 would transfer to Title 38. Congress should 
consider adjusting benefit rates to restore the originally intended 
relationship to the active duty program. Historically, Selected Reserve 
benefits have been 47-48 percent of active duty benefits (vs. today's 
29 percent).
    <bullet> Tier three, Reserve Educational Assistance Program 
(Chapter 1607, Title 10)--MGIB benefits for mobilized members of the 
Guard/Reserve on ``contingency operation'' orders. Chapter 1607 would 
transfer to Title 38 and be amended to provide mobilized servicemembers 
1 month of ``tier one'' benefits (currently $1,075 per month) for each 
month of activation after 90 days active duty, up to a maximum of 36 
months for multiple call-ups.

    A servicemember would have up to 10 years to use remaining 
entitlement under Tier One or Tier Three programs upon separation or 
retirement. A Selected Reservist could use remaining Second Tier MGIB 
benefits only while continuing to serve satisfactorily in the Selected 
Reserve. Reservists who qualify for a Reserve retirement or are 
separated/retired for disability would have 10 years following 
separation to use their benefits. In accordance with current law, in 
cases of multiple benefit eligibility, only one benefit could be used 
at one time, and total usage eligibility would extend to no more than 
48 months.
               guard and reserve warriors denied earned 
                     veterans' benefits under reap
    Third-tier benefits are earned by mobilized reservists who serve 
the Nation on active duty for at least ninety days during a national 
emergency under ``contingency operation'' orders. The REAP (Chapter 
1607, 10 U.S. Code) benefit package was cobbled together with little 
consultation/coordination with the Departments of Defense and Veterans 
Affairs, and other stakeholders. For example, the benefit rate 
structure is based on an administratively cumbersome percentage of 
active duty MGIB Chapter 30 benefits. Ironically, substantial benefits 
are awarded after 90 days service, but no post-service access to those 
benefits is authorized.
    Clearly, the principle of scaling benefits proportional to service 
performed was not used in fashioning REAP.
    The Total Force MGIB would address these concerns by establishing 
in law month-for-month entitlement to active duty MGIB benefits 
(Chapter 30). With enactment of a portability feature for earned REAP 
benefits, the program ultimately would be fairer to all members of the 
force and serve as an incentive for continued service in the Guard or 
Reserves.
    A restructured REAP would support DOD policy of calling up the 
``operational reserve'' for one-year tours every five or six years. The 
proposal would enable a 
G-R member potentially to acquire full MGIB entitlement after 36 months 
aggregate service on contingency operation orders.
    Presently, Chapter 1607 benefits are awarded only for a single tour 
of active duty. Additional benefits cannot be earned for additional 
active duty service performed. This becomes a built-in disincentive for 
continued service and can only hurt the morale of operational 
reservists.
    A key feature of S. 644 is that reservists mobilized for at least 
90 days under Federal contingency operation orders would have access to 
their remaining REAP benefits after separation. That is, they would be 
entitled to post-service readjustment benefits under the MGIB.
    America's volunteer military--active duty and Reserve component--
become veterans when they complete their active duty service 
agreements. When mobilized reservists return from an active duty call-
up (under contingency operation orders) they become veterans of the 
Armed Forces, and no American would dispute that fact. Why then should 
they be treated as second-class citizens for purposes of the MGIB? If 
an active duty member who serves 2 years on active duty and 1 tour in 
Iraq may use MGIB benefits for up to 10 years after leaving service, do 
we not owe equal treatment to a Guard or Reserve member who serves 2 or 
more years in Iraq over a period of 6 or 8 years of Guard/Reserve 
service?
    A DOD survey of Reserve component members (DOD Status of Forces 
Survey, November 2004) indicates that ``education'' is not a key 
component in extension or reenlistment decisions. Moreover, a 
reenlistment or extension decision enables a servicemember to retain 
original Reserve MGIB benefits (currently, Chapter 1606) as well as the 
potential to earn more active duty MGIB entitlement through successive 
call-ups under S. 644.
    Under S. 644, reservists who choose to remain in the Selected 
Reserve and are subsequently activated would earn 1 month of active 
duty MGIB benefits for every month mobilized, up to 36 months of 
benefits. In short, there is a built-in incentive to continue serving 
in the Selected Reserve because of the potential to earn more MGIB 
entitlement under S. 644.
    MOAA strongly supports passage of the two major features of S. 644: 
consolidation of Reserve/veteran MGIB programs under Title 38 and 
establishment of post-service authority for veterans of the Guard and 
Reserve to access benefits earned on active duty in a mobilization.
    MOAA recommends the Senate adopt the language in Section 525 of the 
House-passed National Defense Authorization Act (H.R. 1585) to 
integrate of Reserve MGIB programs into Title 38. MOAA further strongly 
recommends establishment of a post-service readjustment authority for 
REAP benefits earned on active duty in service to the Nation.
               s. 698, the veterans' survivors education 
            enhancement act of 2007 (durbin). cosponsors: 2
    S. 698 would increase Survivors' and Dependents' Educational 
Assistance (DEA) benefits under Chapter 35, 38 U.S. Code to $80,000 and 
permit dependent children to draw from this amount for any period 
between ages 17 and 30.
    The bill also would permit lump-sum payments ``in any amount'' up 
to the new limit for institutional coursework or training, on-the-job 
training, correspondence courses, special educational assistance and 
farm cooperative programs. The bill, then, appears to eliminate DEA 
monthly rates for allocating educational benefits under Chapter 35. 
Presently, DEA participants can receive 45 months of benefits at up to 
$860 per month, a total of $38,700.
    MOAA supports the intent of S. 698. MOAA also is grateful for 
earlier Congressional action (2004) that raised DEA rates and 
authorized survivors to access remaining DEA benefits for up to 20 
years after the death of the sponsor.
    We are concerned, however, over the concept of creating benefits 
under DEA that are substantially more generous than those authorized 
for veterans themselves. S. 698 would authorize up to $80,000 in lump-
sum payments for coursework or training compared to $38,700 in monthly 
increments under the MGIB, Chapter 30. Veterans have only 10 years 
after service to use their benefits. Dependent children would have 13 
years to use their benefits between the ages of 17 and 30 under the 
bill. Survivors have up to 20 years to use their benefits.
    MOAA supports the intent of S. 698 and recommends that basic 
benefits under the MGIB (Chapter 30) be increased proportionally.
                    s. 723, the montgomery gi bill 
             enhancement act of 2007 (hagel). cosponsors: 1
    S. 723 would exempt members of the Armed Forces from the $1,200 
payroll reduction during the onset of the War on Terror through its 
eventual termination. The bill also would require refund of the payroll 
reduction and allow servicemembers who elected not to participate in 
the MGIB a new opportunity to enroll in it.
    MOAA believes the $1,200 payroll reduction confronts new recruits 
at a vulnerable time in their military service when the stress of 
``boot camp'' and personal and financial challenges are paramount. To 
stimulate All-Volunteer Force recruitment, all entering service men and 
women should be automatically enrolled in the MGIB with no payroll 
reduction.
    Eliminating the payroll reduction should be one element of a 
broader re-structuring of the MGIB as addressed in this Statement. We 
believe that the amount required to refund the $1,200 payroll reduction 
would have greater impact if used to enhance current MGIB benefits 
including an increase in monthly rates under Chapter 30, 38 U.S. Code.
     s. 1261, montgomery gi bill for life act of 2007 (cantwell). 
                             cosponsors: 4
    S. 1261 would create a lifetime entitlement to MGIB Active Duty 
(MGIB-AD) benefits (Chapter 30, 38 U.S. Code) by repealing the 10-year 
limitation on post-service usage of this benefit and repealing the 14-
year in-service usage limitation on the MGIB-SR (Chapter 1606, 10 U.S. 
Code).
    MOAA recommends elimination of the MGIB-SR time limit for in-
service use of Chapter 1606 benefits to support reenlistment and 
retention in the Selected Reserve.
    Establishment of a lifetime learning benefit for remaining MGIB-AD 
benefits is a worthy goal. However, it may be more feasible to increase 
the post-service usage period in stages, beginning with 15 years as in 
Senator Webb's S. 22 and then to 20 years or more as currently 
authorized for survivors under the Survivors' and Dependents' 
Educational Assistance (DEA) program (Chapter 35, 38 U.S. Code).
    As a first priority on post-service use of the MGIB, MOAA urges the 
Committee to endorse post-service usage for mobilized members of the 
Guard and Reserve who earn MGIB entitlement under Chapter 1607, 10 U.S. 
Code. These veterans are denied a fundamental veterans' benefit when 
they complete their service. (See S. 644 discussion, above.)
       s. 1293, the veterans' education and vocational benefits 
           improvement act of 2007 (craig). cosponsors: none
    S. 1293 has two broad features. The bill would temporarily expand 
the payment of accelerated benefits under the MGIB during the period 
between October 2008 and September 2012. Eligible participants would 
receive accelerated benefits for short-term, high-cost courses, not 
just ``high technology'' coursework as currently authorized.
    Accelerated payments would be available to participants in the MGIB 
Active Duty (Chapter 30), MGIB Reserve Programs (Chapter 1606 and 
Chapter 1607, 10 U.S. Code), and Survivors' and Dependents' Educational 
Assistance (Chapter 35). Each program would have an annual expenditure 
cap ranging from $3 million for MGIB-AD, $2 million for MGIB-Selected 
Reserve (Chapter 1606), and $1 million each for the Reserve Educational 
Assistance Program (REAP) (Chapter 1607), and Survivors and Dependents 
(Chapter 35).
    The second feature of S. 1293 would establish the opportunity for 
members of the Guard and Reserve to ``buy up'' their benefits under 
REAP. They could contribute up to $600 in $20 increments in order to 
receive an additional $150 per month in MGIB benefits.
    MOAA supports the greater flexibility envisioned in the accelerated 
payment provisions of S. 1293. As a practical matter, however, the 
annual expenditure caps may substantially limit participation in the 
program, given the tens of thousands of MGIB users.
    The ``buy up'' feature proposed for REAP in S. 1293 confirms our 
view that the Reserve MGIB programs are not properly synchronized with 
basic benefits under Chapter 30. The reality is that there have been no 
adjustments to the Reserve MGIB programs since the late 1990s, other 
than annual COLAs. This is in stark contrast to the significant 
increases in active duty MGIB rates during the same period.
    A hopefully unintentional consequence of the proposed REAP buy-up 
provision is that returning Guard and Reserve warriors who honorably 
complete their service and separate or retire, would forfeit their REAP 
benefits and personal ``buy up'' contributions following separation 
from military service. Again, there is no readjustment benefit under 
law for Guard and Reserve veterans.
    Veterans who elect to increase their REAP accounts can only use 
them if they agree to remain in the Guard or Reserve. Thus, the 
proposed buy-up provision comes with ``golden handcuffs.'' In MOAA's 
view, our All-Volunteer Force should be structured under the principle 
of willing service. Active duty servicemembers have readjustment 
benefits under the MGIB, but operational reservists returning from war 
zones do not.
    MOAA does not support separate treatment of active duty veterans 
and Guard/Reserve veterans in terms of post-service access to MGIB 
benefits earned through active duty service.
    MOAA strongly recommends that the REAP buy-up provision in S. 1293 
be authorized in conjunction with post-service access to those 
benefits.
    s. 1409, 21st century gi bill of rights act of 2007 (clinton). 
                             cosponsors: 2
    S. 1409 has certain features that are similar to S. 22. However, 
instead of covering the full-cost of education or training at any 
institution, S. 1409 would set educational payment rates at the average 
cost of any public or private institution. Since 2001, MOAA and our 
colleagues in the Partnership for Veterans Education have endorsed 
benchmarking MGIB rates on the average cost of a 4-year public college 
or university education as determined by the Department of Education. 
(S. 1409 also would authorize new benefits for housing and entrepreneur 
assistance to veterans who have served since September 11, 2001.)
    MOAA endorses S. 1409, but similar to our comment on S. 22, we 
believe that the proposed benefits should not be limited to those who 
happen to have served since 9/11. General comments made earlier on S. 
22 reflect our views on the educational provisions of S. 1409.
    MOAA recommends the eligibility criteria for S. 1409 be revised by 
deleting ``is deployed overseas'' in the entitlement section of the 
bill (Subchapter II, Section 3311). Since World War II, deployment 
status has never been a criterion for GI Bill eligibility.
s. 1719, a bill to provide additional educational assistance under the 
   mgib for courses in science, technology, energy, or math (brown). 
                            cosponsors: none
    S. 1719 would add benefits under the MGIB for veterans pursuing a 
degree in science, technology, energy or math. MOAA supports the idea 
of additional MGIB benefits as proposed in the legislation but 
questions whether the Department of Veterans Affairs would be the 
optimal venue for targeting extra funds for degrees in science, 
technology, energy or math. The bill's objectives may be better 
achieved through grants from the Department of Education or other 
appropriate agency.
                               conclusion
    MOAA appreciates the growing Senate interest in Montgomery GI Bill 
reform and we look forward to working with the Members of the Committee 
and the full Senate to ensure that our 21st century warriors, including 
operational reservists from the National Guard and Reserve, are 
afforded benefits under the GI Bill that ``give hope, dignity, training 
and skills to these folks coming back so they can reintegrate and 
become more productive [citizens]''. (Senator Blanche Lincoln in USA 
Today, July 11, 2007, p. 6D)
                                 ______
                                 
                                Addendum
                     montgomery gi bill priorities
    As a general principle, GI Bill benefits for the 21st century 
should match military policy and provide better support to recruitment 
and readjustment outcomes, as Congress intended. Benefits should be 
structured in proportion to the length and type of duty performed by 
our Nation's Armed Forces--active duty, National Guard/Reserve, and 
veterans--as recommended by the statutory Veterans' Advisory Committee 
on Education, which advises VA Secretary James Nicholson on veterans' 
educational benefits. The following description of MGIB priorities from 
MOAA's perspective is intended to assist leaders in Congress in forging 
a ``way ahead'' on MGIB reform. Obviously, MOAA strongly supports more 
costly MGIB upgrades including enactment of bills like S. 22 and S. 
1409--with the reservations noted earlier--but the likelihood of such 
sweeping proposals gaining broad bipartisan favor is uncertain in our 
view.
    <bullet> Transfer Reserve MGIB programs from Title 10 to Title 38. 
(Section 525, H.R. 1585). MGIB jurisdiction is split between the 
Veterans' Affairs Committees (Title 38), who handle traditional GI Bill 
benefits for active force members and the Armed Services Committees 
(Title 10) who handle Guard/Reserve GI Bill programs. Title 38 benefits 
have been increased significantly in recent years, but Guard/Reserve 
benefits have not. Because of the growing proportional benefit gap and 
the dramatic surge in requirements imposed on Guard/Reserve members, 
the total GI Bill program is no longer structured to match the Nation's 
military policy for the operational integration of our active and 
Reserve forces. Benefits should be structured to match the length and 
type of duty performed by active duty and Reserve component service men 
and women. The House took an essential first step by favorably voting 
Section 525 as a provision in the Fiscal Year 2008 National Defense 
Authorization Act, H.R. 1585. Section 525 is cost-neutral. (Section 
525, H.R. 1585, S. 644)
    <bullet> Establish a readjustment benefit (post-service use) 
eligibility period under the MGIB (Chap. 1607, 10 U.S. Code) for Guard 
and Reserve veterans of the War on Terror. Regular active-force members 
have 10 years after leaving service to use their GI Bill--regardless of 
any deployment experience. But Guard/Reserve members who have been 
mobilized for multiple tours in Iraq can't use their mobilization-
related GI Bill benefits once they complete their service obligation 
and separate. Post-service access to benefits earned on active duty in 
defense of the Nation is the only veterans' benefit denied returning 
Guard and Reserve veterans. It is MOAA's understanding that CBO 
informally has scored the cost of 10-year portability of such benefits 
at $50 million in 2008, $165 million over 5 years and $235 million over 
10 years. The cost could be reduced by changing the effective date 
until 1 October 2008 (FY 2009) (retroactive to Sept. 11, 2001 and 
adjusting the post-service usage period to 5 years for each 12 months 
served on active duty (the DOD call-up policy). (H.R. 1102, S. 644)
    <bullet> Raise MGIB monthly rates to cover more or all of the cost 
of education/training programs. The present monthly rate for full-time 
study for active duty veterans is $1,075 (Chapter 30, 38 U.S. Code), 
which covers about 80 percent of the current cost of education for 
books, fees, and expenses at the average 4-year public college or 
university according to Department of Education data. The Partnership 
for Veterans Education has long sought benchmarking MGIB rates to track 
with the average cost at a 4-year public college or university. (S. 22 
would go a step further toward a WWII-style benefit and cover the full 
cost of schooling, books, and expenses at any public or private 
institution. S. 1409 would set rates on the average cost at any public 
or private institution.)
    <bullet> Authorize cumulative month-for-month credit under the MGIB 
(Chapter 30, 38 U.S. Code) for reservists who serve on active duty in a 
contingency operation. Operational Reserve policy requires Guard and 
Reserve members to expect activation for 12 months at a time every 5 or 
6 years. Since 9/11, 132,000+ Guard and Reserve members have been 
activated two or more times. Under the ``total force MGIB'' concept 
sponsored by the Partnership for Veterans Education, reservists should 
be able to aggregate multiple periods of active duty for MGIB 
entitlement up to the maximum allowable in law, 36 months. Currently, a 
Guard/Reserve member's benefit is based on the longest single period of 
mobilization. A member who has had two separate one-year mobilizations 
gains no added education benefit for the second mobilization. (H.R. 
1102, S. 644, H.R. 81, S. 22)
    <bullet> Restore proportional parity between basic Reserve MGIB 
(Chapter 1606, 10 U.S. Code) rates and the active duty program. The 
basic Reserve MGIB rate was set at 47 percent of the active duty 
program in 1984 and retained that ratio for 15 years from 1985-1999. 
Subsequent increases in active duty program benefit levels combined 
with static Reserve benefit levels, mean Reserve MGIB rates have now 
dropped to less than 29 percent of the active duty program's, at a time 
when Guard and Reserve recruiting is under enormous strain. If 
proportional parity were restored in one year, basic Reserve rates for 
full-time study would increase from $309 to $505 per month. Stairstep 
increases would lower the cost over a three to five-year period. (H.R. 
81)
    <bullet> Repeal the 14-year in-service limitation for basic Reserve 
benefits (Chapter 1606). As an incentive to continued service in the 
National Guard and Reserve, the 14-year limit on in-service use of 
basic Reserve MGIB benefits should be repealed. Reservists who remain 
in the Selected Reserve could use such benefits until they are 
exhausted. S. 1261 and H.R. 1330 would repeal the 14-year limitation 
for in-service usage. H.R. 1330 also would permit 10 years post-service 
access to Chapter 1606 benefits, a provision which DOD and the 
Partnership for Veterans Education oppose. To clarify, the Partnership 
supports post-service use of mobilization-related GI Bill benefits, but 
not for the basic Reserve MGIB benefits.
    <bullet> Authorize ``buy up'' provisions for the Reserve MGIB 
programs. Under ``buy up,'' active duty servicemembers may invest $600 
of their own money in their MGIB accounts in $20 increments to yield an 
additional $150 per month in MGIB benefits above their basic 
entitlement. Reservists have no such option. (S. 1293)
    <bullet> Expand the scope of programs that can offer accelerated 
payments under the MGIB for designated training, education, and 
licensure/certification programs. The law permits accelerated payments 
under the MGIB for programs leading to employment in the ``high 
technology'' industry. To support veterans' readjustment and employment 
opportunities, expansion of the accelerated payment authority is 
needed. (S. 1293, H.R. 1824, S. 526, S. 1278)
    <bullet> Extend the post-service usage period for the MGIB. 
Congress wisely enacted a change in law in recent years to permit 
survivors of those killed in the War on Terror to have 20 years to use 
their Survivors' and Dependents' Educational Assistance Benefits 
(Chapter 35, 38 U.S. Code). Veterans themselves face daunting 
challenges in readjusting to civilian life. Overcoming PTSD and 
employment challenges often takes years, leaving insufficient time to 
use the MGIB. (S. 22, S. 1261)
    <bullet> Repeal the $1,200 payroll reduction for active duty 
service entrants. The MGIB should be an automatic entitlement for 
service entrants. Federal student loan applicants obtain generous loans 
with no obligation of national service and no upfront costs; yet, Armed 
Forces recruits must forego $100 per month of their first year's pay 
for the privilege of serving their country. S. 723 would require 
reimbursement of the payroll reduction to War on Terror servicemembers 
and allow those who previously declined MGIB participation to enroll. 
H.R. 81 would reimburse the pay reduction for MGIB participants who 
extend their service beyond the initial MGIB qualifying contract.
    <bullet> Permit active duty servicemembers who entered on/after 
September 11, 2001 and made ``an election not to receive'' educational 
benefits under the MGIB--i.e., chose to disenroll--a one-time 
opportunity to enroll. Servicemen and women are bearing the brunt for 
the Nation in the War on Terror. They should not be penalized for 
youthful decisions to withdraw from MGIB eligibility especially since 
such decisions often were made in the face of financial debt and family 
obligations during the early, stressful days of military service. S. 
723
    <bullet> Exempt the value of MGIB benefits in the calculation of 
annual gross income for the purposes of applying for Federal student 
loans. Veterans are disadvantaged in applying for such loans because 
the value of their MGIB benefits is used against them (counted as 
income) in determining the amount of Federal loans they may qualify 
for. H.R. 100.
    <bullet> Allow active duty servicemembers who were eligible for but 
declined enrollment in the Post-Vietnam Era Veterans Educational 
Assistance Program (VEAP) (Chap. 32, 38 U.S. Code) to enroll in the 
MGIB prior to discharge/retirement. The VEAP was a low-value program 
that allowed enrolled members to defer making their qualifying deposits 
until they were ready to use the benefit, and many education counselors 
recommended against enrollment. Congress subsequently enacted changes 
in law that permitted VEAP participants to enroll in the MGIB for a 
$2,700 late-enrollment penalty. But those who declined participation in 
the VEAP program upon entrance (often based on being told it wasn't a 
good program) were never made eligible for MGIB. Currently serving men 
and women who declined VEAP at service entry should be afforded the 
same one-time MGIB enrollment opportunity as those who enrolled but 
made no deposit.
    <bullet> Amend the MGIB transfer authority to permit all service 
participants to transfer up to half of their entitlement to dependents 
at the 12th-14th-year of service for a reenlistment agreement. Current 
law gives each Service Secretary the authority to use ``MGIB 
transferability to dependents'' as a reenlistment incentive in critical 
skills at the 6th year of service. Members may transfer up to half of 
the unused MGIB benefit, and benefits are available at the 10th year of 
service. Transferability should be used in conjunction with 
reenlistment programs, but present rules hardly favor military 
families. A limited test of transferability under existing rules 
yielded disappointing results for the USAF. The law should be modified 
to provide greater access to the transfer option for military families 
(but only as a full-career service incentive) for members who are 
motivated to provide for their spouse's or childrens' education. (H.R. 
81)
    <bullet> Cover the full cost of tuition, fees, and expenses for 
education and training programs at any public or private institution--a 
World War II-style GI Bill. In one form or another, ``World War II-
style'' GI Bill legislation has been around for years. What's new is 
that unlike the citizenry of that era, only a minute fraction of the 
population--1 percent--is defending the other 99 percent in the War on 
Terror, a conflict which has no known conclusion. To address the 
enormous strain on military recruitment and to support the readjustment 
to civilian life of the few who defend the many, Congress should pass a 
comprehensive GI Bill of educational benefits, recognizing that history 
shows the return value to America of the WWII program (in terms of 
increased productivity, increased career earnings, and increased tax 
revenue realized) far exceeded the original program's cost to the 
government. (S. 22, S. 1409)
    <bullet> Establish a stipend for living expenses associated with 
full-time education/training programs. Many veterans are married with 
one or more dependent children or are single parents when they separate 
from military service. Economic, employment and family responsibilities 
work together to discourage use of MGIB benefits. A cost of living 
stipend would enable more veterans to use their earned benefits, 
leading to more productive lives, higher incomes, and greater tax 
revenues for the Nation. (S. 22)
    <bullet> Permit active duty and Reserve component officers who 
graduated from a Service Academy or a SROTC scholarship program an 
enrollment opportunity in exchange for a service extension agreement. 
Officers from these commissioning programs are ineligible for the MGIB, 
based on the argument that the government already funded their 
bachelor's degrees. This is a short-sighted rationale, given that the 
services typically require their officers to obtain advanced degrees 
for promotion. Further, the Army and its Reserve components are 
severely understaffed in the grade of captain (03). Fill rates range 
from about 50-60 percent. MGIB eligibility to pursue second or advanced 
degrees in combination with a bonus would be a career incentive to 
retain education-minded mid-grade officers needed for service in the 
War on Terror.
    <bullet> Refund the $1,200 payroll reduction for active duty 
servicemembers who entered service on/after September 11, 2001. In 
recognition of the service and sacrifice of those who continue to serve 
the Nation in the War on Terror, the MGIB enrollment ``tax'' on their 
first year pay should be refunded. S. 723
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Larry E. Craig to 
   Colonel Robert F. Norton, USA (Ret.), Deputy Director, Government 
          Relations, Military Officers Association of America
    Question 1. In your testimony, you noted that some education 
benefits for Guard and Reserves have not kept pace with benefits for 
active duty servicemembers. Yet, under the ``Total Force GI Bill'' 
concept that you support, some Guard and Reserve members serving in the 
War on Terror would receive less benefits than they would under the 
current Reserve Educational Assistance Program. Does that mean you 
think some current benefits for Guard and Reserves who have been 
deployed are actually too rich?
    Response. The Total Force Montgomery GI Bill proposal ultimately 
results in fairer and more generous benefits in two significant ways. 
First, benefits earned on active duty could be used for up to 10 years 
following honorable separation. Second, benefits would accrue for 
multiple activations. Under current statutory interpretation, Chapter 
1607, 10 U.S.C. entitlement is restricted to a single tour of active 
duty. Yet, national policy calls for ``operational reservists'' to 
expect to be activated for 12 months every 5 or 6 years. Reservists 
also can't access their mobilization benefits after honorable service 
is completed. Thus, even though it would appear that very short 90 day 
activations would result in greater benefits, they come with huge 
disincentives that hurt morale and don't match continued service and 
sacrifice. The Total Force approach is more consistent with service 
call-up policies, fairer to the active duty and Reserve forces, and 
ultimately more generous. The following table compares Total Force 
proposal benefits to current-law benefit calculations:


----------------------------------------------------------------------------------------------------------------
                                                                  6-Yr SELRES Contract
                                      --------------------------------------------------------------------------
                                           Chapter 1606 (no        REAP-Chapter 1607
                                               change)                 (current)          Total Force (proposed)
----------------------------------------------------------------------------------------------------------------
Enlistment...........................  ($11,124)..............  NA.....................  ($11,124)
15 mos. AD Call-up...................  NA.....................  60 percent Chap. 30:     $1,101 x 15 mos. =
                                                                 $23,781 \2\.             $16,515 \3\
2d Call-up, 12 mos. AD...............  NA.....................  $0.....................  $13,212 \3\
Chap. 1606 Remainder.................    .....................  12 mos. 1606: $ 3,708    $3,708 \1\
                                                                 \1\.
----------------------------------------------------------------------------------------------------------------
    Total............................    .....................  $27,489................  $33,435
----------------------------------------------------------------------------------------------------------------
\1\ Assumes continued service in the SELRES: if all Chap. 1607 exhausted, revert to 12 mos. of any remaining
  Chap. 1606 entitlement. At separation, may access remaining Chap. 1606 immediately for ``length of one
  activation, plus 4 months.''
\2\ All REAP entitlement forfeited at separation under current law.
\3\ Post-service use of accrued REAP (only) using month-for-entitlement formula--$29,727--for 10 years.


In short, the total force proposal tracks with operational Reserve 
policy and affords greater benefits consistent with the length and type 
of duty performed; and, unlike REAP, allows activated reservists to 
access earned benefits upon honorable completion of their service.

    Question 2. In a 2003 report, the Department of Defense (DOD) 
provided this advice to Congress: ``When evaluating potential 
enhancements to the [Montgomery GI Bill], the positive effects on 
recruiting must be balanced against any negative impacts on first term 
or career force retention. A benefit that is too generous could 
encourage Servicemembers to leave at the completion of their term of 
service to take advantage of the benefit.'' Do you share the view that 
the potential impact on retention is a relevant consideration?
    Response. No. If the government really believed that, DOD and 
Congress never would have authorized 10 years of post-service benefit 
use for people who complete regular active duty service. No one argues 
that GI Bill benefits entice regular servicemembers to leave service, 
so it makes no sense to argue that it would have any such enticement 
for Guard and Reserve members.
    The Total Force MGIB proposal recognizes and rewards continued 
service in the Reserve forces by allowing reservists to accrue 
additional MGIB entitlement under Chapter 1607 during successive call-
ups, matching benefits to service performed. Basic Reserve MGIB 
benefits (Chapter 1606) are available for enlistment and reenlistment. 
If the retention value of the MGIB were of concern, benefit rates would 
have kept pace with the 48 percent historic ratio of reserve-to-active 
duty benefits. But those rates have dropped to 29 percent of active 
duty rates since September 11, 2001, devaluing them for recruitment and 
retention purposes. Manpower planners rely on targeted cash bonuses to 
reach retention goals and these have proven to be successful for that. 
Finally, the DOD's own Status of Forces Survey (2004) of Guard and 
Reserve personnel indicates that ``education'' ranks far down the list 
of reasons why Guard/Reserve men and women remain in service or 
separate.

    Question 3. The Montgomery GI Bill has over a 95 percent enrollment 
rate; over a 70 percent usage rate--one of the highest in the program's 
history; and pays for over 75 percent of the average costs of a 4-year 
public college. Also, DOD testified that the program continues to serve 
the active duty components of the military well and that ``there are no 
significant shortcomings.'' Does this suggest to you that the program 
overall is functioning well?
    Response. If one were to accept the inference in the question that 
a 75 percent payment-to-education cost ratio is good enough for 
veterans, one might argue that the MGIB is ``functioning well'' as 
Congress intended. However, in comparison to its historic antecedents--
the WWII, Korean War, and Vietnam War era GI Bill programs--the MGIB 
has not kept pace with the cost of education. Those programs generally 
paid all or nearly all of the costs of education/training as a 
readjustment benefit. MOAA recognizes that benefits for an All 
Volunteer Force should be structured to meet DOD manpower and quality 
needs as well as effective readjustment outcomes. Thus, a MGIB that met 
more or all of the cost of education without a ($1,200) payroll 
reduction ``tax'', would be a more effective tool for recruiters. Armed 
Forces demographics in the 21st century also point to the need for a 
better MGIB. That's because servicemen and women serve much longer 
tours on average than conscript-era servicemembers did, and more than 
60 percent of separating men and women are married or have dependent 
children. A MGIB that doesn't cover basic education costs increases the 
prospect that veterans with economic, skill or education deficits won't 
take advantage of the MGIB.

    Question 4. As was discussed at the hearing, Guard and Reserve 
members generally must remain in the Guard or Reserves in order to use 
education benefits under the Reserve education programs. Other 
benefits--such as bonuses, health care, or commissary privileges--may 
also be conditioned upon further service, and participation in the 
Reserve Officer Training Corps or any of our military academies is 
generally conditioned upon a number of years of future service. So, I 
was puzzled to hear that you had compared the policy on education 
benefits to ``indentured servitude.'' In your view, is it ever 
appropriate to condition benefits upon continued or future service? In 
evaluating such a policy, to what extent should Congress take into 
account the impact it may have in maintaining the Nation's all-
volunteer force?
    Response. Under the ``total force MGIB'' proposal, reservists are 
encouraged to remain in the service and earn additional MGIB 
entitlement through multiple activations. Under the present scheme, 
they can only earn a single active duty tour benefit. The principle 
often overlooked in discussion of the MGIB for members of the Reserve 
forces is that benefits should be structured according to the length 
and type of duty performed, nothing more or less. Most Americans would 
agree with the idea that if Guard and Reserve men and women are called 
up to defend the Nation and sent into harm's way, they should earn the 
same pay and benefits as active duty troops for that service: ``same 
soldier, same battlefield, same benefits.'' To suggest that, somehow, 
Guard and Reserve combat veterans have not earned benefits commensurate 
with their service is a view we cannot endorse. The maltreatment under 
the MGIB of members of the 34th Brigade Combat Team of the Minnesota 
National Guard illustrates the point. The unit was called to active 
duty to serve in combat. Orders for most were amended during the tour 
to 24 months. All served 16 months in Iraq and were released from 
active duty after 22 months service. Yet the Army initially denied 
these soldiers the opportunity to enroll in the active duty MGIB under 
Chapter 30, 38 U.S.C. A 2-year active duty enlistment contract yields 
the active duty MGIB, and entitlement is retained if the member is 
released after at least 20 months service ``at the convenience of the 
government.'' According to the latest news reports (as of October 9, 
2007), it would appear that the Army has now decided to grant these war 
veterans an opportunity to have their records corrected so that they 
can enroll in the active duty MGIB. The Nation can't have it both ways: 
asserting reliance on reservists--operational reservists--for every 
national defense mission and multiple activations, but compensating 
them as if they were still ``weekend warriors'' in the cold war era.

    Chairman Akaka. Thank you. Thank you very much, Colonel 
Norton of the Military Officers Association of America.
    And now we will hear from Patrick Campbell of the Iraq and 
Afghanistan Veterans of America.

 STATEMENT OF PATRICK CAMPBELL, LEGISLATIVE DIRECTOR, IRAQ AND 
                AFGHANISTAN VETERANS OF AMERICA

    Mr. Campbell. Thank you, Colonel Norton, for giving my bio. 
I appreciate it. I have more time now.
    Mr. Chairman, Senator Murray, thank you for this 
opportunity. I actually begged to come talk to this Committee 
and I appreciate the staff for putting me on the list. As 
someone who personally depends on the Montgomery GI Bill and 
Federal tuition assistance to go to school, this Committee 
hearing is very important to me.
    Sixty years ago, we enacted the World War II GI Bill. Sixty 
years later, we are reaping the benefits of one of the greatest 
social investment programs ever implemented. We thank Senator 
Akaka for having this hearing.
    A 1988 Congressional study proved that every dollar spent 
on educational benefits on the original GI Bill added $7 to the 
national economy in terms of productivity, consumer spending, 
and tax revenue. Today, we have an opportunity to renew our 
social contract with our service men and women. The Iraq and 
Afghanistan Veterans of America supports reinstating the World 
War II-style GI Bill, S. 22, or S. 1409, that will cover the 
true costs of 
education.
    When you invited me here today, you asked me to talk about 
some of the problems soldiers are facing when they use the 
Montgomery GI Bill. The first problem is a hefty buy-in 
program--$1,200 to buy-in. Now, for a lot of soldiers coming 
into the military, $1,200 is more than they have ever seen.
    Second, once you actually go to school, you have to front 
all the costs. I know there are many fancy accelerated payment 
programs where you can get some money, but to be honest with 
you, despite these benefits, you still have to pay up front for 
your books, tuition, room and board. All of these expenses are 
incurred up front, while the money you get is paid out over a 
long period of time. So you are going to have to get that money 
from somewhere, and if you can't find the money, you are not 
going to go to school.
    The third, and probably the biggest problem, is that the 
benefits have failed to keep up with the costs. If you look at 
my testimony, you will see that the current benefits are 
indexed to inflation. Unfortunately, the cost of education has 
outpaced the cost of inflation by 100 percent since this 
benefit was created. So your buying power, your purchasing 
power, has decreased dramatically over the last 20 years. Right 
now, the current GI Bill only covers 75 percent of a public 
school education and about a third of a private school 
education.
    The military needs to recruit 80,000 new military personnel 
into active duty over the next year. It was originally going to 
be over two years, but now they only have a year to do it. So 
how are they doing it? They are increasing the number of GEDs 
allowed. They are also increasing the number of felonies you 
can have. Just a couple of days ago, they recalled 1,100 
recruiters back into recruiting service because they just 
couldn't keep up with their enlistment goals. They have even 
told the recruiters that they are eligible for recruiting 
bonuses for each recruit. If I recruit someone into the 
military, I would get $2,000 for recruiting them. Now the 
recruiters also get these bonuses. So it is just like being in 
a store. People are getting a commission for bringing people 
in.
    If you look at the picture on my testimony, just outside of 
the D.C. Armory where I serve, there is a sign that says, ``We 
Are Hiring, $20,000 Enlistment Bonus.'' To be honest with you, 
in the next 2 to 3 months, they are going to have to take that 
sign down and write, ``$25,000.'' In 6 months from now, it is 
going to be $30,000, then $35,000.
    It is not to say that bonuses aren't a good way of bringing 
people in, but when we give people money right away, it just 
goes straight back into the economy. We need to be investing in 
our soldiers and in our country. And the only way we can do 
that is to make a promise to these veterans and say, ``if you 
serve your country then we are going to pay for your school''--
not pay for just part of it; pay for all of it.
    Now, S. 22 and S. 1409 might have some structural problems 
on the way people qualify for the benefit, but even Senator 
Webb said earlier today, he doesn't care how it happens, he 
just wants something to happen. We can change it. We can make 
it work.
    Now, most of the disagreements that I have heard on this 
panel and the previous two panels were that qualifications 
aren't set right. Well, let us change those qualifications. We 
should go back to what works--what puts our country where we 
are in the world right now. We must invest in our Nation's 
veterans.
    Now, I know S. 1718 isn't actually on the list of bills, 
but one of the other big issues that I faced coming home 
relates to my reintegration into school. Senator Brown from 
Ohio has introduced S. 1718, the Veterans Education Tuition 
Support Act, and that bill will basically create a USERRA for 
students. It guarantees re-enrollment, it guarantees refunds 
for deploying soldiers, and it also fixes some problems with 
student loans. For those Members of the Committee that are here 
and for those staff who are here, I encourage you to look at 
that bill because the Montgomery GI Bill is not the only 
education problem that people are having. Ninety-thousand 
Reservists are currently enrolled in school right now. Twenty-
five thousand of them have been deployed, and when they come 
home, many are running into bureaucratic potholes all over the 
place.
    I appreciate the opportunity to be here. I appreciate being 
with such a distinguished panel and thank you for all of your 
work.
    [The prepared statement of Mr. Campbell follows:]
     Prepared Statement of Patrick Campbell, Legislative Director, 
                Iraq and Afghanistan Veterans of America
    Mr. Chairman and Members of the Senate Veterans' Affairs Committee, 
on behalf of the Iraq and Afghanistan Veterans of America (IAVA), thank 
you for this opportunity to address the issue of VA/DOD Cooperation and 
Coordination on Educational Assistance.
    After World War II, nearly eight million servicemembers (more than 
half of the entire American fighting force) took advantage of the 
education benefits afforded them by the Servicemen's Readjustment Act 
of 1944. A veteran of WWII was entitled to free tuition, books and a 
living stipend that completely covered the cost of education. Since 
1945 over 21,400,000 servicemembers have utilized at least some of 
their educational benefits and over the past 10 years at least 66 
percent of active duty and 42 percent of Reservists and National Guard 
have gone to school on the ``GI Bill.''
    Sixty years later, we are still reaping the benefits of one of the 
greatest social investment programs ever implemented. A 1988 
Congressional study proved that every dollar spent on educational 
benefits under the original GI Bill added seven dollars to the national 
economy in terms of productivity, consumer spending and tax revenue. 
Today we have the opportunity to renew our social contract with our 
servicemen and women. Iraq and Afghanistan Veterans of America (IAVA) 
supports reinstating a World War II style GI Bill (S. 22 or S. 1409) 
that will cover the true cost of education.
    The current Chapter 30 Montgomery GI Bill, as created in 1984, was 
conceived in peace-time and contains several obstacles to a veteran 
trying to use their well-earned benefits. First, active duty 
educational benefits require a hefty $1,200 initial buy-in. Although 
nearly 95 percent of active duty servicemembers buy into the program, 
only 8 percent of servicemembers use all of their educational benefits 
and more the 30 percent never touch their GI benefits (returning over 
$230 million to the U.S. Treasury).
    Second, servicemembers are required to pay tuition, room and board 
and textbook costs up-front and are then reimbursed over the course of 
the semester. Before a servicemember can attend a single class they 
must pay tuition and fees amounting, on average, to $5,836 for a public 
school and $22,218 for private schools. Servicemembers are faced with 
the daunting task of taking multiple jobs to raise the money, attending 
a less prestigious institution, taking out student loans and/or 
``living on mama's couch'' to cut expenses.
    Lastly, educational benefits have failed to keep up with the 
skyrocketing cost of higher education. As per statute, educational 
benefits are increased yearly based on inflation rates. As evident from 
the chart below, the cost of education has outpaced inflation by over 
100 percent since 1984.

[GRAPHIC] [TIFF OMITTED] T8292.001


    In 2006, Chapter 30 benefits only covered 75 percent of the cost of 
a public school education and 32 percent of a private school education.
    IAVA believes that a World War II style GI Bill is more than just a 
social investment; it's an important readiness tool. The military needs 
to recruit an additional 70,000 active duty servicemembers over the 
next 2 years. Improving educational benefits for veterans is an 
important strategy for accomplishing this goal. The alternative is to 
continue to lower recruitment standards and increase enlistment and 
retention bonuses. We have already seen the military double the number 
of GED waivers and increase the number felonies allowable by a new 
recruit. Enlistment and retention bonuses have already climbed to 
$20,000 and could grow even higher.

[GRAPHIC] [TIFF OMITTED] T8292.002


    The GI Bill is the military's single most effective recruitment 
tool; the number one reason civilians join the military is to get money 
for college. As our military recovers and resets in the coming years, 
an expanded GI Bill will play a crucial role in ensuring that our 
military remains the strongest and most advanced in the world.
    For all the aforementioned reasons Iraq and Afghanistan Veterans of 
America (IAVA) believes that both S. 22 the ``Post-9/11 Veterans 
Educational Assistance Act of 2007'' (Webb) and S. 1409 the ``21st 
Century GI Bill of Rights'' (Clinton) would renew our social contract 
with our servicemembers by providing them every opportunity to succeed 
in higher education.
    Along with increases in educational benefits, IAVA also endorses 
structural fixes to the current education benefit system. We advocate 
for the following:

    <bullet> Repeal of the $1,200 buy-in for Chapter 30 benefits (S. 
723, the Montgomery GI Bill Enhancement Act of 2007 (Hagel));
    <bullet> Amending Chapter 1607 benefits to be calculated on 
cumulative not continuous service;
    <bullet> Indexing increases in educational benefits on the actual 
cost of higher education and not inflation;
    <bullet> Eliminating time periods to use educational benefits (S. 
1261, the ``Montgomery GI Bill for Life Act of 2007'' (Cantwell)); and
    <bullet> Allowing deployed reservists and National Guard 
servicemembers the opportunity to use their earned educational benefits 
after they are discharged (S. 644, the Total Force Educational 
Assistance Enhancement and Integration Act of 2007 (Lincoln)).

    Finally, although S. 1718 the Veterans Education Tuition Support 
(VETS) Act (Brown) did not appear on the original list of bills being 
considered by this Committee I believe that the VETS Act is one of the 
most meaningful education related bills concerning veterans. In 2006, 
nearly 90,000 Reservists and National Guard soldiers were enrolled in 
college. One fourth of these soldiers have been deployed at least once. 
Unfortunately, these student-soldiers face unique hardships when they 
are called upon to defend the United States.
    Take it from personal experience, trying to navigate the 
bureaucratic potholes while trying to re-enroll in school after a 
deployment can be an infuriating process. When I first returned home 
from Iraq I received harassing calls from my student loan lender, my 
roommate from Iraq was denied re-enrollment at his college and my 
coworker who was deployed weeks before his finals was given essentially 
no accommodations by his school. Those who fight for our rights abroad 
should not be forced to fight for their rights when they return home.
    The VETS bill will:

    <bullet> Require colleges to refund tuition for servicemembers who 
deploy (or provide future credits).
    <bullet> Restore veterans to their academic status when they 
return.
    <bullet> Cap student loan interest payments at 6 percent while the 
student is deployed.
    <bullet> Extend the period of time a student-soldier has to re-
enroll after returning from abroad.

    If passed, S. 1718 will become the student-soldier's equivalent to 
USERRA (the Uniformed Services Employment and Reemployment Rights Act). 
IAVA strongly encourages this Committee to consider and pass S. 1718 
for all the Reservists and National Guard soldiers in each of your 
states.
    In summary, improving the GI Bill program benefits veterans and the 
rest of the country. We can continue to scrape the bottom of the barrel 
for new recruits, or we can pass meaningful education assistance 
reform. We can raise the quality of our recruits by letting potential 
enlistees and their parents will know that military service will allow 
them to take advantage of the best educational opportunities available.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Akaka to 
 Patrick Campbell, Legislative Director, Iraq and Afghanistan Veterans 
                               of America
    Question. Re-enrollment in school problems--how do you see Guard 
and Reserve servicemembers being adversely affected when they attempt 
to re-enroll in schools and training programs that they left to serve 
on Active Duty?
    Response. In 2006, there were nearly 89,000 reservists and National 
Guard soldiers enrolled in higher education. Of these 89,000, more than 
one fourth have served at least one active duty deployment since 9/11. 
Unfortunately, for many of these student soldiers the transition home 
is mired in administrative paperwork. Congress responded to the 
increasing number of servicemembers withdrawing from school by dusting 
off some language from the ``Persian Gulf Conflict Higher Education 
Assistance Act of 1991'' and passing the ``Higher Education Relief 
Opportunities for Students Act of 2003'' (HEROS). Although the purpose 
of HEROS was to provide assistance to servicemembers as they 
transitioned out of active service, both Acts failed to grant 
servicemembers meaningful security.
    A perfect example of this problem is when one of my fellow medics 
from Iraq was deployed and had to leave school mid-semester. Before his 
deployment he had been placed on academic probation and signed a 
contract with the school stating that he would get his grades up before 
the end of the semester. Due to the deployment, he did not finish that 
semester. When he returned and tried to re-enroll, they denied his re-
enrollment. He was told that he had not fulfilled his end of the 
contract, although the deployment made fulfillment next to impossible. 
This soldier could have gone to the media and shamed the school into 
doing the right thing, but instead he moved away. He has not re-
enrolled in school.
    Colleges and universities are not required to refund tuition and 
fees to students who don't complete their classes due to a deployment. 
They are also not required to minimize the procedural hoops a 
servicemember must jump through to re-enroll. A soldier who took a 
leave of absence for a year to go fight in Iraq may be required to 
reapply. Both the 1991 and 2003 Acts meekly state that ``It is the 
sense of Congress that all institutions offering post-secondary 
education should provide a full refund to students,'' and that these 
schools ``should make every effort to minimize deferral of enrollment 
or reapplication requirements.'' Soldiers deserve more than ``shoulds'' 
and ``senses.''
    Iraq and Afghanistan Veterans of America (IAVA) is grateful that 
Senator Sherrod Brown has taken up the mantle for these student 
soldiers by introducing S. 1718, the Veterans Education Tuition Support 
(VETS) Act. The VETS bill addresses many of the different issues facing 
these students by requiring colleges to refund tuition for 
servicemembers who deploy (or provide future credits), restoring 
veterans to their academic status when they return, capping student 
loan interest payments at 6 percent while the student is deployed and 
extending the period of time a student-soldier has to re-enroll after 
returning from active duty service.
    Soldiers deserve to know that if they are deployed that their 
school will be waiting for them when they return. The VETS bill will 
provide servicemembers that peace of mind. Furthermore, soldiers that 
fight to protect our country deserve a government that fights to 
protect their soldiers.

    Chairman Akaka. Thank you very much, Patrick Campbell of 
Iraq and Afghanistan Veterans of America.
    I have a question for all of you. The current conflicts 
have completely changed the duties and uses of the National 
Guard and Reserve components in the all-volunteer force. How do 
you evaluate the importance of education benefits as a 
recruitment and retention tool versus the need for readjustment 
benefits for members of the Guard and Reserves? Ron Chamrin?
    Mr. Chamrin. Thank you, Mr. Chairman. Our observations are 
that the military improves the quality of the character and 
improves their discipline. They learn skill sets in the 
military and they earn education benefits. Not to rank one 
above another, but education is extremely important. When they 
are done with their service, they are not fully completed with 
their service. They are going to take what they have learned 
and apply that in the future, and we feel that military 
experience greatly affects their quality of their life.
    But the education program will allow them to have the 
technical skills that the civilian workforce needs, such as IT, 
aerospace, engineering, biomedical, and the biotechnology 
fields. The military is not as technical and as specific as 
some of the civilian skill sets. We can only learn those skills 
by going to college and in post-secondary education.
    Chairman Akaka. Eric Hilleman?
    Mr. Hilleman. Thank you, Mr. Chairman. In answer to your 
question, VFW is strongly, strongly supportive of measures that 
would strengthen recruitment and retention as well as a total 
investment in the individuals, which translates into an 
investment in our Nation.
    One key factor that I feel that is not necessarily 
addressed always but it comes up in hearings and I have heard 
it today, the aspect of increasing the benefit would harm 
retention. I think DOD has repeatedly come back to the Congress 
and asked for bonuses to bump up their retention and 
recruitment efforts. They have not come before the Committee, 
nor have they come before the Senate or the Congress and asked 
for robust education benefits to do this.
    I feel that if the benefits are structured properly, you 
can gain retention aspects out of an education benefit. As far 
as a recruitment benefit, it is in the top five that young 
people joining the force cite for the reason they join the 
force. However, it does not nearly rank as high among 
individual who reenlist. Things like honor, duty, job 
specialization, training, those are the top-ranking reasons for 
staying in the force. The benefit should not weigh a factor in 
losing individuals out the back door, especially when you are 
bringing in quality folks in the front door in large numbers.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you, Mr. Hilleman.
    Colonel Norton?
    Colonel Norton. Yes, Senator. Thank you. Senator, you heard 
earlier that witnesses indicated the tremendous amount of 
confusion in understanding the GI Bill today. I think one of 
the virtues of a Total Force approach to the GI Bill in 
simplifying it would be that all service entrants would have a 
better idea, better understanding of what they would get in the 
nature of their benefits under the GI Bill.
    In other words, the principle here is to match GI Bill 
benefits to the length and type of duty performed, no more and 
no less. With that principle in mind, I think it would be a lot 
easier for recruiters to sell the product, so to speak, to sell 
the enlistment in the Armed Forces, either active duty or the 
Reserves, on the basis of what Reservists can expect to get, 
what active duty servicemembers can expect to get.
    And in the way of readjustment and retention concerns, I 
mean, the irony here, Mr. Chairman, is that since World War II, 
since your great generation served, every veteran of the Armed 
Forces has had 10 years to use their GI Bill benefits except 
for this one group. Under this Total Force concept, you really 
are setting up a structure that says if you have earned it on 
active duty, you should be able to take it with you, and that 
in the long run would help encourage people.
    As the Adjutant General of Arkansas said in a House hearing 
a couple of months ago, he would expect that people would, in 
the National Guard in Arkansas, would go to school and get 
their degrees and then they would come back into the Guard as 
officers, helping the Guard and helping the Reserve forces be 
even better going forward.
    So we don't accept the arguments that it s going to hurt 
retention. We think it will help both ends, recruiting and 
retention.
    Chairman Akaka. Thank you very much, Colonel Norton.
    Patrick Campbell?
    Mr. Campbell. As you know, as I have spoken before, 
readjustment issues are probably one of the most important 
issues to me. I can't speak for all the Iraq and Afghanistan 
veterans, but I can talk for the 20 that I served with in Iraq. 
I think that half of us were enrolled in school before we left 
and only one other besides myself is enrolled in school now, 
and none of us have finished school.
    I think that one of the biggest reasons for this lack of 
re-enrollment is that the benefits weren't enough to pay for 
school. Even for soldiers from Louisiana, a state that offers 
free tuition, the GI Bill wasn't enough. In some cases schools 
even told returning soldiers, sorry, you need to go to 
community college and reapply because they weren't allowed to 
re-enroll. That inability to re-enroll and limited education 
benefits are the top issues.
    Secondly, right now, they are still having to choose 
between ``living on mama's couch'' or working a second job in 
order to pay for school. Sadly, these same people are having 
trouble even keeping their first job. Three of the four gunners 
that I served with haven't been able to keep a job for more 
than a month now. School provides the perfect opportunity for 
people to transition, but it needs to be their full time job. 
They can't have other jobs and go to school. That transition 
back to school, to civilian life, is hard enough when people 
are coming home from war, and that is why the World War II-
style GI Bill worked so well, because that was your job. Your 
job was to protect us, and now it is our job to pay you to go 
to school and become a productive member of society.
    Chairman Akaka. Well, thank you very much for your 
responses. Once again, I would like to thank all of our 
witnesses for joining us today and also thank those in our 
audience and our viewers watching from elsewhere. I extend my 
gratitude to my colleagues and their staff for their work to 
make this hearing possible and for the work they will continue 
to do to improve the ways that our servicemembers and veterans 
benefit from higher education.
    We will have written questions for you and would like to 
have you respond to us on those. Again, I want to thank you for 
your participation and be sure that you know that we are 
looking forward to continuing to work with you on this.
    The hearing record will remain open for three weeks to 
provide time for additional views from Members, as well.
    Thank you again, and I wish you well. This hearing is 
adjourned.
    [Whereupon, at 11:35 a.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

      Prepared Statement of Hon. Larry E. Craig, Ranking Member, 
                        U.S. Senator from Idaho
    Good morning, and welcome to all of you. Thank you, Chairman Akaka, 
for calling this hearing, primarily to examine several bills affecting 
education programs for veterans, servicemembers, and members of the 
Guard and Reserve.
    More than 60 years ago, Congress passed groundbreaking legislation 
to provide education benefits to veterans of World War II, to help them 
transition back to civilian life. Although the Nation and the military 
have changed significantly since that time, education programs have 
remained a centerpiece of veterans' benefits. But today, with an all-
volunteer force, the role of education benefits has been transformed 
beyond its original ``re-adjustment'' purpose.
    As we will discuss today, education benefits have become an 
important force management tool for the Armed Forces, helping with 
recruiting and retaining quality candidates and steering them into 
specific skills. With education programs playing these critical and 
diverse roles, it is important to ensure that they are kept up to date 
and meet the current needs of our all-volunteer force.
    Before we discuss the bills on the agenda that would modify these 
programs, I think a good starting point would be to look at some 
indicators of how well the current programs are working.
    For active duty servicemembers, the primary education program is 
the Montgomery GI Bill. At least 95 percent of servicemembers enroll in 
that program; over 70 percent have used the benefits--one of the 
highest usage rates in the program's history; and over 85 percent rate 
customer satisfaction as high. Also, total benefits under that program 
now pay for over 75 percent of the average cost of a 4-year public 
college education.
    As for Guard and Reserve members, Congress has already taken steps 
to update education benefits to reflect the expanded role of ``citizen 
soldiers'' in the Armed Forces. Principally, Congress created a new 
education program for Guard and Reserve members called to active duty 
after September 11, 2001--the Reserve Educational Assistance Program--
which provides over $30,000 in total benefits. Last year, almost 24,000 
Guard and Reserve members drew these benefits and this year more than 
50,000 participants are expected.
    In assessing the effectiveness of the current array of education 
programs, it is also important to note--as you will hear today--that 
these programs continue to help the Department of Defense in shaping 
and sustaining the Nation's all-volunteer force.
    Although all of this suggests to me that these programs overall may 
be working well, I do believe there are aspects that need to be 
updated. To that end, I introduced S. 1293, a bill that I think would 
take significant steps in that direction.
    First, my bill would expand the ``accelerated'' payment program for 
servicemembers, veterans, Guard and Reserve members, and their spouses 
and dependents. This would allow participants taking any short-term, 
high-cost training programs to receive an up-front, lump-sum payment of 
their education benefits. By making these vocational courses more 
accessible, we can help participants quickly obtain the skills they 
need to secure civilian employment. I think this could be particularly 
helpful to those living in rural communities.
    My bill would also update the eligibility criteria for the Reserve 
Educational Assistance Program. Currently, maximum benefits are 
available only to those who serve two continuous years on active duty. 
However, the Secretary of Defense has announced that members will now 
be involuntarily mobilized for no more than one year at a time, making 
it almost impossible to satisfy that requirement.
    To recognize this new reality, my bill would allow Guard and 
Reserve members to receive maximum education benefits if they serve an 
aggregate of 3 years on active duty.
    Finally, the bill would provide our citizen soldiers with access to 
the ``buy-up'' program now available only to active duty 
servicemembers. By contributing $600, Guard and Reserve members would 
receive an extra $150 per month in education benefits. With this buy-
up, their total education benefits may cover over 70 percent of the 
cost of a 4-year public college.
    In sum, this bill would enhance education benefits for our 
``citizen soldiers'' by making the maximum level of benefits more 
accessible and by giving Guard and Reserve members an avenue to 
increase their own monthly benefits. At the same time, this bill would 
support the primary goals of the Guard and Reserve education programs--
recruiting and retaining quality individuals for this important 
component of our ``Total Force.''
    I look forward to discussing this and the other bills on the agenda 
with our witnesses.
    Thank you, Mr. Chairman.
                                 ______
                                 
            Prepared Statement of Hon. Frank R. Lautenberg, 
                      U.S. Senator from New Jersey
    Mr. Chairman, thank you for the opportunity to testify--and to 
describe how we can build a better future for our brave men and women 
in uniform.
    Let me also thank Senator Webb for the invitation to testify and 
for his work on this issue, including the introduction of his new GI 
Bill in his first day in office. I salute his leadership on this 
important issue.
    I am who I am because of the GI Bill. Some of you know I am the son 
of immigrants. We lived in Paterson, New Jersey. My father worked the 
silk mills. Growing up, we didn't have much money. But we did have 
values. My parents made sure we learned the value of hard work, 
commitment and believing in the American Dream. One of my dreams was to 
go to college. The GI Bill made that dream come true.
    Like millions in the Greatest Generation, the GI Bill meant that 
someone like me--in my family's financial condition--could get an 
education and give back to our country. Nearly eight million other 
World War II veterans got education or training because of the GI Bill. 
In fact, in 1947, veterans accounted for 49 percent of college 
admissions because of the GI Bill.
    Think about all that those veterans have contributed to our 
society. We want to make sure that our new generation of veterans can 
earn a degree and give back to society just like the veterans in the 
Greatest Generation did.
    We all know how expensive college has become. The average cost of a 
college education is $51,184. The current GI Bill does not cover all of 
those costs. We must close that gap and give the soldiers who have 
served since 9/11 a chance to create a brighter future.
    A new GI Bill, like the one Senator Webb has introduced and I have 
cosponsored, would help those servicemembers pay for housing, tuition 
and books. And it would give those men and women up to 15 years to use 
their benefits to pursue an education--and make America a better place.
    More than one million Americans have served on active duty since 9/
11. More than 25,000 soldiers and sailors have hailed from my home 
state of New Jersey. We have placed an enormous burden on these troops 
in the wake of that terrible September day. They have answered their 
Nation's call with heroism and honor--and their families have too. 
Those troops deserve this country's support to build themselves and 
their families a better life when they return home.
    In addition to Senator Webb's legislation, there are also several 
other bills that have been introduced to help our returning soldiers 
and sailors with their educational needs that are pending before this 
Committee. These bills demonstrate our good intentions and I'm glad 
this Committee is turning these intentions into action by holding 
hearings on this important issue.
    The proposal for a new GI Bill, as well as legislation to improve 
benefits, fully cover the cost of education and encourage veterans to 
study subjects such as technology and engineering will truly give our 
returning veterans the opportunity to succeed.
    I thank the Committee for taking the time to review these bills and 
for inviting me to testify, and I look forward to working with my House 
and Senate colleagues to expand our GI educational benefits for a new 
generation of veterans.
  

                                  <all>

</pre></body></html>
